<html>
<title> - THE LIFESAVING ROLE OF ACCURATE HURRICANE PREDICTION AND PREPARATION</title>
<body><pre>[Senate Hearing 109-1137]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1137
 
  THE LIFESAVING ROLE OF ACCURATE HURRICANE PREDICTION AND PREPARATION

=======================================================================

                                HEARING

                               before the

           SUBCOMMITTEE ON DISASTER PREVENTION AND PREDICTION

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 20, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                  U.S. GOVERNMENT PRINTING OFFICE
66-856                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bfd8cfd0ffdccacccbd7dad3cf91dcd0d291">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
                                 ------                                

           SUBCOMMITTEE ON DISASTER PREVENTION AND PREDICTION

                  JIM DeMINT, South Carolina, Chairman
TED STEVENS, Alaska                  E. BENJAMIN NELSON, Nebraska, 
GORDON H. SMITH, Oregon                  Ranking
DAVID VITTER, Louisiana              MARIA CANTWELL, Washington
                                     BILL NELSON, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 20, 2005...............................     1
Statement of Senator DeMint......................................     1
Statement of Senator Bill Nelson.................................     5
Statement of Senator E. Benjamin Nelson..........................     4
Statement of Senator Stevens.....................................     3
Statement of Senator Vitter......................................    54

                               Witnesses

Blackwell, Dr. Keith G., Associate Professor of Meteorology, 
  Coastal Weather Research Center, University of South Alabama...    17
    Prepared statement...........................................    20
Curole, Windell, General Manager, South Lafourche Levee District.    36
    Prepared statement...........................................    38
Levitan, Dr. Marc L., Director, Hurricane Center/Charles P. 
  Siess, Jr. Associate Professor of Civil Engineering, Louisiana 
  State University; President, American Association for Wind 
  Engineering....................................................    30
    Prepared statement...........................................    32
Mayfield, Max, Director, Tropical Prediction Center/National 
  Hurricane Center...............................................     7
    Prepared statement...........................................     9
Roberts, C. Patrick, President, Florida Association of 
  Broadcasters (FAB).............................................    40
    Prepared statement...........................................    41

                                Appendix

Inouye, Hon. Daniel K., U.S. Senator from Hawaii, prepared 
  statement......................................................    69
Response to written questions submitted to Max Mayfield by:
    Hon. Jim DeMint..............................................    70
    Hon. Daniel K. Inouye........................................    70


  THE LIFESAVING ROLE OF ACCURATE HURRICANE PREDICTION AND PREPARATION

                              ----------                              


                      TUESDAY, SEPTEMBER 20, 2005

                               U.S. Senate,
        Subcommittee on Disaster Prevention and Prediction,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3:05 p.m. in 
room SD-562, Dirksen Senate Office Building, Hon. Jim DeMint, 
Chairman of the Subcommittee, presiding.

             OPENING STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Good afternoon, everyone. Traditionally, I 
would start the hearing by launching immediately into my 
opening statement, but the tragedy that has befallen the people 
of the Gulf Coast warrants a more different tone. I've asked 
Chaplain Black to begin our hearing today.
    Chaplain?
    Chaplain Black. Let us pray.
    Lord of the winds and rain, it is because of your mercies 
that we are not consumed. As natural disasters remind us that 
we are finite, we look to you, our hope for years to come. Give 
wisdom to the many who seek to bring order out of the chaos of 
Hurricane Katrina. Remember also those who are braced for 
Hurricane Rita. Empower all who are involved rebuilding the 
affected region to do justly, to love mercy, and to embrace 
humility. Comfort those who mourn, and heal the sick and 
injured. Bring restoration to those who have been scarred 
emotionally, particularly the children. Guide this Disaster 
Prediction and Prevention Subcommittee in its efforts to do 
your will on Earth, even as it is done in Heaven.
    We pray in Your sovereign name. Amen.
    Senator DeMint. I'd like to read a statement that's titled 
``Hurricane Local Statement, Urgent: Devastating damage 
expected. Hurricane Katrina, a most powerful hurricane, with 
unprecedented strength, rivaling the intensity of Hurricane 
Camille, in 1969. Most of the area will be uninhabitable for 
weeks, perhaps longer. At least half of well-constructed homes 
will have roof and wall failure. All gable roofs will fail. All 
wood-framed, low-rising apartment buildings will be destroyed. 
All windows will be blown out. The vast majority of trees will 
be snapped or uprooted. Only the hardiest will remain standing, 
but be totally defoliated. Power outages will last for weeks, 
as most power poles will be down and transformers destroyed. 
Water shortages will make human suffering incredible by modern 
standards.''
    Now, this wasn't a last-minute plea issued by emergency 
managers Monday morning, this is the verbatim announcement from 
the New Orleans Weather Forecast Office 20 hours before the 
storm hit the city. Sadly, too, it is largely what I saw when I 
toured the region on the 9th of September.
    As you can see from the photos that we have around the room 
today, the damage was massive, comprehensive, and eerily 
similar to what was described by the weather service.
    What quickly became clear to me is that television does not 
accurately convey what happened. Seeing a home demolished on 
television begins to communicate the tragedy, but when you see 
60 to 70 miles of that repeated over and over again, it is 
heartbreaking and almost impossible to comprehend. Entire 
neighborhoods are completely gone, except for concrete 
foundations that serve as markers of what once stood. Every 
home is a displaced family. Every demolished neighborhood is a 
community that will never be the same.
    Another realization during the trip is that there are two 
separate disasters in the Gulf. In Mississippi, the houses 
themselves have been demolished by the wind and the storm, but 
the land is dry. In New Orleans, the homes are standing, but 
still flooded and ruined. One thing both locations have in 
common, though, is that the homes will never again be 
habitable. The wind-damaged homes, those that still stand, will 
likely be declared a complete loss and have to be torn down. In 
New Orleans, the homes that are flooded are permanently damaged 
and are beyond repair and will have to be torn down, as well.
    And all of this pales in contrast to the human toll of the 
storm. Hundreds of lives have been lost, families have been 
separated, an entire region of people have been scattered 
throughout the Nation, jobless, homeless, and with no idea of 
when they will be able to return home.
    Now, based on what I saw, it's clear that the Nation will 
need leaders who will work together to solve problems today and 
help America become better prepared for disasters in the 
future. The last thing we need now is more critics who are 
trying to blame others and make political gains.
    Clearly, our first job is to provide humanitarian relief to 
the victims, to make available all the resources that are 
essential to rebuilding communities and jobs, and to remove all 
bureaucratic obstacles to getting the job done as quickly as 
possible. Every American, including every Congressman and 
Senator, should be involved in this massive relief and 
rebuilding effort. All of us are called on for sympathy, 
sacrifice, and solutions.
    But we can't stop at just thinking about recovering from 
this disaster. We need to be thinking about the next disaster. 
The job of this committee is focused on specific aspects of 
this effort. Our mission is to oversee the Federal Government's 
role in predicting national--natural disasters and to develop 
policies that will minimize the loss of life and property when 
natural disasters occur. This task is crucial, because accurate 
predictions will help ensure that individuals are in shelters, 
and not in their homes, when the storm blows through.
    We're going to examine, today, how the Federal agencies 
responsible for predicting the impact of the storm performed; 
in this case, of Katrina. That responsibility falls largely to 
the National Oceanic and Atmospheric Administration, commonly 
referred to as NOAA. About 2 months ago, in this Subcommittee, 
Senator Vitter, of Louisiana, used NOAA predictions to warn us 
of the catastrophic impact that a Category-4 or -5 hurricane 
would have if it hit New Orleans. The scenario Senator Vitter 
presented is almost exactly what happened on August 29. Sadly, 
while NOAA's predictions and warnings for New Orleans have been 
publicized for almost two decades, somehow it didn't sink in. 
This disaster was predicted, and largely inevitable, yet 
private citizens and officials at every level of government 
failed to prepare.
    In fairness to everyone involved, however, after seeing the 
incredible scale of the destruction firsthand, we should be 
grateful for the effective response of thousands who helped to 
reduce the loss of life. Without aggressive evacuation 
efforts--I apologize, we got out of order here--grateful for 
those who did respond and reduced the loss of life. Without 
aggressive evacuation efforts, NOAA had estimated the loss of 
life could have been as high as 100,000 in New Orleans alone. 
While the focus of this committee is natural disasters, all 
Americans must now recognize how vulnerable we are to manmade 
disasters. We saw how a relatively small attack on New York 
disrupted the entire Nation's financial markets. We saw how one 
hurricane disrupted the energy supplies for a large part of the 
country and placed a severe strain on the Federal Government. 
We must not be surprised again. We must be prepared. Because, 
unlike a hurricane, a terrorist will not give us 56 hours' 
notice of its point of attack.
    Today, I've asked officials from NOAA and from the private 
disaster prediction community to detail the predictions and 
preparations related to Katrina. We want to know what they did 
well and what they can do better and what they need from us to 
continuously improve their ability to prepare Americans for 
hurricanes, tornadoes and tsunamis. It is crucial that we get 
hurricane prediction right. The best defense our Nation has 
against hurricanes is accurate prediction as well as effective 
evacuations.
    I'd like to yield now to the Chairman of the Commerce 
Committee, and then to our Ranking Member of the Subcommittee.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Thank you very much, Mr. Chairman. I just 
want to emphasize, this hearing is not intended to be a forum 
to discuss the FEMA response or any other response to the 
recent hurricane.
    We created this Subcommittee to deal with disaster 
prevention--prediction and prevention. And I think we're here 
to listen to you all tell us what you predicted, and it's our 
job to see whether prevention mechanisms are in place to react 
to what you predict.
    So, I thank you very much for you being here.
    Senator DeMint. Senator Nelson?

             STATEMENT OF HON. E. BENJAMIN NELSON, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Ben Nelson. Thank you, Mr. Chairman.
    First, I want to say thank you to Max Mayfield and your 
team at the National Weather Service and the National Hurricane 
Center. I think everyone can agree that the accuracy of your 
forecast significantly contributed to saving lives during this 
disaster, and we certainly appreciate that.
    The human loss caused by this storm certainly would have 
been far greater if not for that accuracy. In the midst of the 
tragedy caused by Hurricane Katrina, we have the opportunity 
today to focus on one area during this disaster where things 
went terribly right, rather than terribly wrong.
    The National Weather Service did an exceptional job in 
forecasting the storm and predicting its impact point and the 
devastation that it would deliver, and I think it's important 
that we do look at what went right in order to ensure that we 
keep that course as this hurricane season progresses and as we 
look to the future, as well.
    Or course, the superb job of the National Weather Service 
in forecasting Hurricane Katrina's path is greatly diminished 
when the information that is given out, sometimes ignored, 
certainly not paid attention to, or isn't used to ensure 
measures are put in place immediately to respond to the 
aftermath of the storm. So, while I think it's appropriate to 
examine the stellar job of forecasting that was done during 
Hurricane Katrina, I cannot help but voice my frustration, and, 
I think, the frustration of so many, by the lack of follow-up 
to make sure that they were prepared to respond to a Category-4 
hurricane hitting the Gulf Coast.
    Chairman DeMint read from the notice about what was 
expected in the way of a hurricane well in advance of its 
coming to shore. And so, there is no question but what the 
information was there early, it was accurate. And I'm 
interested in learning, today, about the process that the 
National Hurricane Center used in relaying the information to 
Federal, State, and local officials. What information was sent, 
when was it sent, and who received it?
    The bottom line is that the National Weather Service 
provided an accurate prediction and forecast. Others failed to 
coordinate an adequate response. It's my understanding that the 
National Weather Service forecasted New Orleans and the Gulf 
Coast areas being within the cone of strike probability 
approximately 60 hours before landfall. The National Hurricane 
Center first forecast Katrina to hit southeast Louisiana as a 
major hurricane, with winds of 130 miles per hour, on Friday, 
August 26, at 10 p.m. The actual track would deviate little 
from the predicted one for the duration of Katrina's approach. 
In addition, 24 hours prior to landfall, the center of the 
forecasted track was approximately 25 miles off the actual 
track; and, 12 hours prior, the forecasted track was less than 
10 miles off.
    So, what I would like to explore during today's hearing is 
how to capitalize on that accuracy and that fairly long lead 
time. How do we ensure that this great forecasting information 
translates into better prevention of loss of life and property, 
as well as better organization and reaction to the aftermath.
    And so, I hope this hearing today will highlight the truly 
superb job that the National Weather Service and the National 
Hurricane Center did in forecasting Hurricane Katrina. I think 
it's important that we do so. And I also hope this hearing will 
shed light on how we can better use the information to prevent 
a repeat of what happened in the Gulf Coast.
    Obviously, there are other issues that will have to be 
addressed at times, such as the inability of communication to 
work as well after the impact of the storm. The whole question 
about interoperability and intercommunication will have to be 
explored, as well. But today our focus is on how we can use the 
lead time and the prediction in natural disasters.
    Chairman DeMint has already indicated that when you have 
terrorist actions, we are not going to have lead time. We'll 
have to deal with other issues, such as alert--National Alert 
Systems and similar kinds of protection. But today our focus is 
on the case at hand.
    Thank you, Mr. Chairman.
    Senator DeMint. Thank you.
    Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Bill Nelson. Mr. Chairman--by the way, if you think 
you're seeing double, you are.
    [Laughter.]
    Senator Bill Nelson. This is a topic of especially 
important gravity, because the topic is the lifesaving role of 
accurate hurricane prediction. I happen to live in a land that 
is a peninsula that sticks down into the middle of something 
known as ``Hurricane Highway.'' And we're fortunate that we 
have two of our Floridians on this panel today.
    You not only have been accurate, your predictions and the 
information that is fed to you in increasing volumes, which is 
processed by those onboard computers on those Hurricane 
Hunters, which I've had the privilege of flying on, and then 
beamed, realtime, to you by satellite at the National Hurricane 
Center, cranked into your various computer models, has come to 
give you such prediction of such accuracy that, indeed, it is 
lifesaving. And if people in the Nation didn't understand that 
by virtue of what we've gone through in Florida--most recently, 
four within a 6-weeks' period--they certainly do now.
    But, there are people who want to take Max Mayfield off the 
air. They don't want him to conduct individual interviews with 
individual broadcasters or individual networks. There are folks 
that want to take his website off of the Internet, a website 
that was established after a direction by President Bush in 
2001 that every government agency would have a website. And, in 
fact, people want to take it off if there is a competing 
commercial interest.
    Now, it just so happened that in the first hurricane of 
this season, Dennis, that took a bead back toward Pensacola, 
ended up drifting a little east of Pensacola, one of those 
commercial interests had predicted that it was going to New 
Orleans. And if that had been the only forecast, because people 
didn't have access to the National Weather Service website, the 
people of the Florida northwest coast would have let down their 
guard.
    During that 6 weeks' period last year, Max Mayfield's and 
NOAA's weather site got nine billion hits. Billion, with a 
``B.'' That's, by far, more than any other government website 
hits. The only thing that came close to that was the NASA 
website, of six billion hits, when the Mars Rover landed on 
Mars.
    So, I can tell you that this Senator--I don't know what the 
weather is like in a lot of other states, but I know 
understanding the weather and its accurate prediction is often 
a matter of life and death in Florida. And we're not going to 
let people monkey around by taking you off the air.
    Thank you, Mr. Chairman.
    Senator DeMint. Thank you, Senator.
    We have a number of witnesses appearing this afternoon who 
are going to discuss with the Committee the prediction of 
Hurricane Katrina and provide their perspectives on how we can 
continue to have accurate predictions and what we can do to 
prepare for these storms.
    Appearing before the Subcommittee this afternoon is Mr. Pat 
Roberts, President and CEO of the Florida Association of 
Broadcasters. Mr. Roberts will be discussing the work of the 
broadcast community to communicate with communities before, 
during, and after a disaster. He will also discuss the crucial 
role broadcasters play in disaster preparedness.
    Also joining him is Dr. Keith Blackwell. Dr. Blackwell is 
Assistant Professor of Meteorology at the University of 
Southern Alabama. Mr. Blackwell will discuss with the Committee 
his perspectives on how we can work to improve the ability of 
the National Hurricane Center to predict the landfall of major 
hurricanes. He will also discuss what can be done to improve 
the quality of the products it produces.
    I would also like to introduce Dr. Marc Levitan. Dr. 
Levitan is Director of the Louisiana State University Hurricane 
Center. Dr. Levitan is joining us to follow up on his testimony 
from our last hearing and to discuss the LSU Hurricane Center 
and how it has been actively involved with the prediction and 
preparedness activities surrounding this storm.
    Joining him is Mr. Windell Curole. Mr. Curole is General 
Manager of the District of Galliano, Louisiana. Mr. Curole will 
discuss his extensive work in Louisiana with hurricane 
preparedness planning and what he believes needs to be done to 
get citizens to take the threat posed by hurricanes seriously.
    Finally, returning this afternoon, is Mr. Max Mayfield. Mr. 
Mayfield is Director of the National Hurricane Center. We 
appreciate him coming back before the Subcommittee today to 
discuss the National Hurricane Center's work to predict the 
landfall of Hurricane Katrina. Mr. Mayfield came before this 
committee in June and described the nightmare scenario of a 
major hurricane making landfall near New Orleans. 
Unfortunately, his concerns about the challenges of the 
terrain, the inability to evacuate the citizens of the city, 
and the devastation of the storm surge were, sadly, too well 
placed. I think we'll all wish a lot more people had listened 
to Mr. Mayfield back in June.
    Regardless of whether or not the Nation completely heeded 
Mr. Mayfield's warning, his work, and the work of his crew down 
in Miami, put together a forecast that gave communities along 
the Gulf Coast the ability to issue evacuation orders far in 
advance of the storm making landfall. Because of that, a lot of 
communities evacuated and a lot of lives were saved.
    Mr. Mayfield, on behalf of this committee and the U.S. 
Senate, I thank you for your work and for getting this forecast 
right. I hope you'll return to Miami and tell the folks down 
there that we really appreciate what they do and that they 
helped save a lot of lives.
    With that, Mr. Mayfield, I think I'll start with you. If 
you can keep your testimony to around 5 minutes--if you need 
more, let us know.
    The Chairman. Mr. Chairman, could I suggest we listen to 
all the witnesses before we ask any questions?
    Senator DeMint. That's a good idea. Thank you, sir.

   STATEMENT OF MAX MAYFIELD, DIRECTOR, TROPICAL PREDICTION 
                CENTER/NATIONAL HURRICANE CENTER

    Mr. Mayfield. Mr. Chairman and members of the Committee, 
I'm Max Mayfield, the director of the Tropical Prediction 
Center and National Hurricane Center at Miami. This is part of 
the National Weather Service within NOAA. Thank you for 
inviting here today to discuss NOAA's role in forecasting and 
warning the public about hurricanes.
    The catastrophic devastation along the Gulf Coast from 
Hurricane Katrina is like nothing that I have witnessed. Words 
cannot convey the physical destruction and the personal 
suffering in that part of our nation. However, without NOAA's 
National Weather Service forecast and warnings, the loss of 
life would have been far greater.
    While I will be focusing my remarks today on forecasting 
and tracking Hurricane Katrina, NOAA's work does not end there. 
NOAA assesses damage from storms and evaluates waterways to 
allow our Nation's ports and waterways impacted by the storm to 
open. NOAA also assesses the impact to the area's fisheries, 
supports hazardous-materials containment and abatement efforts, 
and provides necessary data critical for post-storm recovery 
operations.
    Hurricane Katrina began as a tropical depression near the 
southeastern Bahamas on Tuesday, August 23. The National 
Hurricane Center tropical cyclone forecasts were issued 
routinely every 6 hours, with intermediate updates, as 
necessary, and included numerous text and graphical products.
    The National Hurricane Center accurately predicted Katrina 
would become a Category-1 hurricane before making landfall near 
Miami. And then, once Katrina emerged into the Gulf of Mexico, 
the National Hurricane Center hurricane forecast correctly 
predicted re-intensification of the storm. Within 9 hours, 
Katrina intensified from a tropical storm to a Category-2 
hurricane.
    Our forecast track from Sunday morning, August the 27th, 
about 2 days before landfall, had the storm curving northward 
and headed directly toward southeastern Louisiana and 
Mississippi, and the prediction was for Katrina to make 
landfall as a Category-4 hurricane.
    The actual track would deviate little from this and 
subsequent forecasts for the rest of Katrina's approach. The 
intensity forecast would also prove to be correct.
    At 10 a.m., Central Daylight Time, on Saturday, August 27, 
the National Hurricane Center posted a hurricane watch for 
southeast Louisiana, including the city of New Orleans. We 
issued additional watches and warnings for Louisiana to the 
Florida Panhandle soon thereafter. After reaching southeast 
Louisiana as a Category-4 hurricane, Katrina made final 
landfall along the Louisiana/Mississippi border on Monday 
morning as a Category-3 hurricane.
    As I testified before this Subcommittee on June 29, storm 
surge represents our greatest risk for a large loss of life in 
the hurricanes in our country. Unfortunately, Katrina has 
reminded us of the deadly power of the storm surge.
    I was very saddened about the loss of life caused by 
Hurricane Katrina. The reported evacuation rate of near 80 
percent, however, far exceeds the 25 to 50 percent rates 
usually noted. This large evacuation saved many lives, and did 
not happen by accident. Rather, it resulted from a long working 
relationship and open communication between NOAA, the National 
Weather Service, the emergency-management community at all 
levels, and the media.
    This collaboration is especially close and complementary 
during a hurricane threat. For example, since the 1970s NOAA 
has been delivering and updating thousands of storm-surge 
simulations it generates for the entire vulnerable coast, from 
Texas to Maine, long before any specific event. These storm-
surge simulations were the basis for the evacuation plans and 
the storm-specific decisions made by the communities there. In 
addition, NOAA provides realtime storm-surge information.
    I believe that the high evacuation rate was also due to the 
broad distribution and diverse formats of National Weather 
Service text and graphical forecast and warning products, the 
more than 400 media interviews my staff and I conducted, the 
more than 900 million hits the National Hurricane Center 
forecast product received, our public website, and, very 
importantly, the interactions of the local National Weather 
Service offices and the National Hurricane Center with 
emergency managers in the days prior to landfall.
    The National Weather Service has partnered with FEMA to 
establish a hurricane liaison team, which is activated at the 
National Hurricane Center a few days in advance of any 
potential United States hurricane landfall, to help coordinate 
communications between the National Hurricane Center and the 
emergency-management community at the Federal and State levels. 
Local National Weather Service offices and forecast centers 
tailor Hurricane Center forecasts and warning information into 
pointed, timely, and focused information for their local 
emergency managers. These emergency managers and local and 
State officials consult with National Weather Service 
forecasters and then make their evacuation and other 
preparedness decisions.
    Today is September 20, near the historical peak of the 
hurricane season. To date, we've had 17 tropical storms, 9 of 
which have become hurricanes, and 4 of those have been major 
hurricanes, at Category-3 or stronger. We believe that we will 
continue to have an active season.
    Long-term tropical cyclone activity in the Atlantic is 
cyclical. The 1940s through the 1960s, they experienced an 
above-average number of major hurricanes, while the 1970s into 
the mid-1990s averaged far fewer hurricanes. The current period 
of heightened activity could last another 10 to 20 years, or 
more. This increased hurricane activity since 1995 is due to 
natural cycles of hurricane activity driven by the Atlantic 
Ocean along with the atmosphere above it.
    This period of increased hurricane activity and growing 
coastal populations puts more people at risk to potential 
catastrophes like Katrina. To counter these trends requires an 
accelerated research and forecast operations program, 
especially to more accurately forecast periods when storms 
intensify rapidly, as Katrina did over the eastern Gulf of 
Mexico.
    While we must focus our energy on addressing the impacts of 
Hurricane Katrina, we must also look to the future. Katrina 
will not be the last major hurricane to hit a vulnerable area, 
and New Orleans is not the only location vulnerable to a large 
disaster from a hurricane.
    Galveston, Houston, Tampa Bay, southwestern Florida, the 
Florida Keys, southeastern Florida, New York City and Long 
Island, and, believe it or not, New England are especially 
vulnerable. And, of course, New Orleans remains vulnerable to 
future hurricanes.
    At NOAA, we will continue our efforts to improve hurricane 
track, intensity, precipitation, and storm-surge forecasting 
and work with our partners to ensure the best-possible outcome 
during future hurricane events.
    With that, I would just like to add that, Mr. Chairman and 
members of this committee, I would really like to thank you for 
your support to our Nation's hurricane warning program. It's 
greatly appreciated.
    Thank you.
    [The prepared statement of Mr. Mayfield follows:]

   Prepared Statement of Max Mayfield, Director, Tropical Prediction 
                    Center/National Hurricane Center

    Mr. Chairman and members of the Committee, I am Max Mayfield, 
Director of the Tropical Prediction Center/National Hurricane Center. 
The National Hurricane Center is a part of the National Weather Service 
(NWS), of the National Oceanic and Atmospheric Administration (NOAA) in 
the Department of Commerce. Thank you for inviting me here today to 
discuss NOAA's role in forecasting, and warning the public about 
hurricanes, as well as NOAA's essential role and activities following 
landfall.
    The devastation along the Gulf Coast from Hurricane Katrina is like 
nothing I have witnessed before. It is catastrophic. Words cannot 
convey the physical destruction and personal suffering in that part of 
our Nation. However, without NOAA's forecasts and warnings, the 
devastation and loss of life would have been far greater.
    NOAA's forecasts and warnings for Hurricane Katrina pushed the 
limits of the state of the art of hurricane prediction. Our continuous 
research efforts at NOAA, and in partnership with other Federal 
agencies, have led to our current predictive capabilities and improved 
ways of describing uncertainty in prediction. But NOAA's work does not 
end there. NOAA does extensive work assessing damage from storms and 
evaluating waterways to assist dredging operations, to open our 
Nation's ports and waterways impacted by the storm. NOAA also assesses 
the impact to the areas' fisheries, supports hazardous materials 
containment and abatement efforts, and provides necessary data critical 
for post storm recovery operations.

Tracking and Forecasting Hurricane Katrina
    The National Hurricane Center (NHC) within the NWS has been the 
centerpiece of our Nation's hurricane forecast and warning program for 
50 years. The mission of the NHC is to save lives, mitigate property 
loss, and improve economic efficiency by issuing the best watches, 
warnings, and forecasts of hazardous tropical weather, and by 
increasing the public's understanding of these hazards.
    NHC tropical cyclone forecasts are issued every six hours and 
include text messages as well as a suite of graphical products 
depicting our forecasts and the accompanying probabilities and ``cone 
of uncertainty,'' as it has become known. Hurricane Katrina began as a 
tropical depression near the southeastern Bahamas on Tuesday, August 
23. The National Hurricane Center accurately predicted it would become 
a Category 1 hurricane before making landfall near Miami. The storm 
deluged southeast Florida with 16" of rain in some places, causing 
downed trees, flooding, and extended power outages as it passed across 
the southern portion of the state.
    Once Katrina re-emerged into the Gulf of Mexico, NOAA hurricane 
forecasters correctly predicted re-intensification of the storm. 
Katrina intensified more quickly and became stronger than initially 
predicted. Within nine hours, Katrina intensified from a tropical 
storm, with winds of 70 miles per hour, to a Category 2 storm with 100 
mile per hour winds.
    As you can see in the graphic below, our forecast track from 
Saturday morning, August 27, about two days before landfall, had the 
storm curving northward and headed directly toward southeastern 
Louisiana and Mississippi. The projected path of Katrina aimed directly 
at southeast Louisiana, and the prediction was for Katrina to make 
landfall as a Category 4 hurricane. The actual track would deviate 
little from this and subsequent forecasts for the rest of Katrina's 
approach. On average, NOAA forecasts of where Katrina would go were 
more accurate than usual, with all of the forecast tracks during the 
last 48 hours lining up almost directly on top of the actual track. 
This forecast beats the Government Performance and Results Act goal 
established for NOAA hurricane forecasts this year.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    At 10:00 a.m. Central Daylight Time (CDT) Saturday morning, August 
27, the National Hurricane Center posted a hurricane watch for 
southeast Louisiana, including the city of New Orleans. The watch 
extended eastward to Mississippi and Alabama that afternoon. A 
hurricane watch means hurricane conditions are possible in the 
specified area, usually within 36 hours. Messages from the National 
Hurricane Center highlighted the potential for this storm to make 
landfall as a Category 4 or Category 5 storm.
    Predicting hurricane intensity remains a challenge. Even though we 
knew conditions were favorable for the storm to intensify, there was 
some error in the intensity forecast for the eastern Gulf due to its 
rapid intensification. While we accurately predicted the intensity at 
landfall, there is still more work to be done in improving intensity 
prediction, especially for rapidly intensifying or rapidly weakening 
storms.

Storm Surge
    Storm surge has caused most of this country's tropical cyclone 
fatalities, all too vividly evident in the past two weeks, and still 
represents our greatest risk for a large loss of life in this country. 
Following Hurricane Camille in 1969, NOAA established a group that 
developed and implemented a storm surge model called SLOSH (Sea, Lake, 
and Overland Surges from Hurricanes). The SLOSH model calculates storm 
surge heights resulting either from historical, hypothetical or actual 
hurricanes. SLOSH incorporates bathymetry and topography, including bay 
and river configurations, roads, levees, and other physical features 
that can modify the storm surge flow pattern. Comprehensive evacuation 
studies, conducted jointly by the Federal Emergency Management Agency 
(FEMA), the U.S. Army Corps of Engineers, NOAA, and state and local 
emergency managers, are based on the simulated surges computed by 
SLOSH.
    The National Hurricane Center introduced storm surge forecasts for 
the Gulf Coast in public advisories at 10:00 a.m. CDT Saturday--32 
hours prior to Katrina's landfall in Louisiana. The initial forecast 
(10:00 a.m. CDT, Saturday, August 28) for storm surge was predicted at 
15 to 20 feet, locally as high as 25 feet, and that forecast was 
updated the following morning to a range of 18 to 22 feet, locally as 
high as 28 feet, when the forecast intensity for landfall was 
increased. ``Large and battering'' waves were forecast on top of the 
surge. In addition, the 4:00 p.m. CDT public advisory issued by the 
National Hurricane Center on Sunday, August 28, stated that some levees 
in the greater New Orleans area could be overtopped. Actual storm surge 
values are being determined at this time.
    I know there have been recent news reports that I notified FEMA 
that the New Orleans' levees would be breached. In fact, I did not say 
that. What I indicated in my briefings to emergency managers and to the 
media was the possibility that some levees in the greater New Orleans 
area could be overtopped, depending on the details of Katrina's track 
and intensity. This possibility was also indicated in our advisory 
products.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Communicating Our Forecasts
    The FEMA/NWS Hurricane Liaison Team (HLT), which is activated at 
NHC a few days in advance of any potential U.S. hurricane landfall, 
coordinates communications between NOAA and the emergency management 
community at the Federal and state levels. The HLT was established in 
1996. After consulting with our local weather service offices and the 
National Hurricane Center, emergency managers make evacuation and other 
preparedness decisions. The HLT provides an excellent way to 
communicate with the large number of emergency managers typically 
impacted by a potential hurricane. This is a critical effort to ensure 
emergency managers and first responders know what to expect.
    The media is our most essential partner and helps us get the 
information to the public. Without the media, it would be very 
difficult to get the information as widely distributed. The media 
provided an invaluable service to the people of the impacted Gulf Coast 
by communicating National Hurricane Center forecast and warning 
information about Hurricane Katrina. From Thursday, August 25, through 
Katrina's landfall in Mississippi on Monday, August 29, NOAA's Tropical 
Prediction Center/National Hurricane Center provided a total of 471 
television and radio interviews, through their media pool or via 
telephone.
    On Saturday evening, August 27, I personally called the Chief of 
Operations at the Alabama Emergency Management Agency, as well as the 
Governors of Louisiana and Mississippi and the Mayor of New Orleans, to 
communicate the potential meteorological and storm surge impacts from 
Hurricane Katrina. In addition, the National Hurricane Center web 
activity, as supported by NOAA's web-mirroring project, registered 900 
million hits during Katrina.

NOAA Support Efforts
    NOAA is focused on improving the forecasting of hurricane 
frequency, track, and intensity as well as predicting hurricane impacts 
on life and property. Using a combination of atmospheric and ocean 
observations from satellites, aircraft, and all available surface data 
over the oceans, NOAA conducts experiments to better understand 
internal storm dynamics and interactions between a hurricane and the 
surrounding atmosphere and ocean. Through greater understanding of 
physical processes and advanced hurricane modeling, NOAA continually 
improves models for predicting hurricane intensity and track, in 
collaboration with Federal partners, academic researchers, and 
commercial enterprises. These numerical modeling improvements, once 
demonstrated, are transitioned into operations at the National 
Hurricane Center.
    NOAA Aircraft, the W-P3 Orions and the Gulf Stream IV, provided 
essential observations critical to the National Hurricane Center 
forecasters and supplement U.S. Air Force Reserve Command's 53rd 
Weather Reconnaissance Squadron flights. A specialized instrument flown 
on one of the W-P3s, the Stepped Frequency Microwave Radiometer (SFMR), 
provided essential hurricane structure, surface wind and rain rate data 
to hurricane forecasters right up to and following landfall in 
Louisiana and Mississippi. The Military Construction Appropriations and 
Emergency Hurricane Supplemental Appropriations Act, 2005 (Pub. L. 108-
324) provided $10.5M to the Air Force to outfit the complete fleet of 
Hurricane Hunters with this instrument, the first of these additional 
units should be available during the 2006 Hurricane Season.
    The Military Construction Appropriations and Emergency Hurricane 
Supplemental Appropriations Act, 2005 also provided funding to NOAA for 
seven hurricane buoys, which NOAA deployed this past year in the 
Caribbean, the Gulf of Mexico, and the Atlantic. Those new buoys 
provided us with critical information during this active hurricane 
season.

NOAA's Activities After Hurricane Katrina's Landfall
    Immediately following Hurricane Katrina's second landfall, several 
NOAA ships and aircraft were tasked with assisting in the hurricane 
response. Our aircraft flew damage assessment flights using a 
sophisticated digital camera to collect imagery to assess damage. Over 
5,000 high-resolution images collected by NOAA aircraft are assisting 
emergency managers and other agencies in recovery operations and long-
term restoration and rebuilding decisions.
    It is also NOAA's responsibility to assess the damage to the 
commercial fishing industry in that section of the Gulf of Mexico. We 
are working closely with each of the impacted state resource agencies 
and commercial entities to assess the storm's impacts to the longer-
term social and economic viability of local fishing communities. NOAA 
employees also are assisting recovery efforts by working with other 
Federal agencies in planning, organizing, and conducting oil spill and 
hazardous material response and restoration in the impacted areas of 
the Gulf.
    NOAA ships are tasked with surveying critical ports and waterways 
for depths, wrecks and obstructions for navigational safety. NOAA 
Navigation Response Teams were on scene before the hurricane hit to 
survey for hazards and help the U.S. Coast Guard and the Army Corps of 
Engineers re-open waterways to commercial and emergency traffic. The 
THOMAS JEFFERSON, a highly specialized hydrographic survey ship 
equipped with multibeam and side scan sonar and two 28-foot launches 
for near shore and mid-water surveys will be surveying the entrances to 
Pascagoula and Gulfport, Mississippi. Another NOAA ship, the NANCY 
FOSTER, is outfitted with survey technology and is presently conducting 
wreck and obstruction surveys in Mobile Bay, Alabama. The efforts of 
these NOAA ships are critical to rebuilding the Gulf's economic 
infrastructure by enabling vessels of all sizes to pass safely through 
these waterways thereby allowing emergency materials, oil, and 
commercial goods to make it to their destinations. Other NOAA ships and 
aircraft are assisting directly with the recovery effort by providing 
fuel, communications, and supplies to NOAA facilities as well as 
temporary office space for local emergency responders.

Outlook for the Future
    Today is September 20, near the historical peak of the hurricane 
season. To date we have had fifteen tropical storms, seven of which 
have become hurricanes, four of those have been major hurricanes at 
Category 3 or stronger. We believe we will continue to have an active 
season, with a total of l8-21 tropical storms. We believe this 
heightened period of hurricane activity will continue due to multi-
decadal variance, as tropical cyclone activity in the Atlantic is 
cyclical. The 1940s through the 1960s experienced an above average 
number of major hurricanes, while the 1970s into the mid-1990's 
averaged fewer hurricanes. The current period of heightened activity 
could last another 10-20 years. The increased activity since 1995 is 
due to natural fluctuations/cycles of hurricane activity, driven by the 
Atlantic Ocean itself along with the atmosphere above it and not 
enhanced substantially by global warming. The natural cycles are quite 
large with on average 3-4 major hurricanes a year in active periods and 
only about 1-2 major hurricanes annually during quiet periods, with 
each period lasting 25-40 years.
    While we have made significant progress in hurricane forecasting 
and warnings, we believe we have more work to do. From a scientific 
standpoint, the gaps in our capabilities fall into two broad 
categories: first, our ability to assess the current state of a 
hurricane and its environment (analysis), and second, our ability to 
predict a hurricane's future state (the forecast). Finally, we would 
like to improve public preparedness.

Conclusion
    The government's ability to observe, predict, and respond quickly 
to storm events is critical to public safety. We must also now look 
ahead to post-storm redevelopment strategies for communities impacted 
by Katrina and future storms to help manage and anticipate these 
extreme events. NOAA has the expertise in coastal management and hazard 
mitigation, and is committed to working with out partners in reducing 
vulnerability to hurricanes and other coastal storm events. It is 
critical that we work to protect and restore natural features along the 
Gulf Coast, such as dunes, wetlands, and other vegetated areas that 
offer protection against coastal flooding and erosion.
    While we must focus our energy on addressing the impacts of 
Hurricane Katrina, we also need to look to the future. Katrina will not 
be the last major hurricane to hit a vulnerable area, and New Orleans 
is not the only location vulnerable to a large disaster from a land-
falling hurricane. Houston/Galveston, Tampa Bay, southwest Florida, 
Florida Keys, southeast Florida, New York City/Long Island, and believe 
it or not, New England, are all especially vulnerable. And New Orleans 
remains vulnerable to future hurricanes.
    At NOAA we will continue our efforts to improve hurricane track, 
intensity, and storm surge forecasting, as well as provide technical 
tools and planning expertise to states and local governments.
    With that, I'll be glad to answer any questions Members may have.
  NOAA National Hurricane Center--Hurricane Katrina Forecast Timeline
TUESDAY, AUGUST 23, 2005
    1600 CDT: Katrina forms as a Tropical Depression 12, near Nassau in 
the Bahamas. Tropical Depression 12 Advisory 1 issued: ``A TROPICAL 
STORM OR HURRICANE WATCH MAY BE REQUIRED FOR PORTIONS OF SOUTHERN 
FLORIDA LATER TONIGHT.''
WEDNESDAY, AUGUST 24, 2005
    0400 CDT: The National Hurricane Center's 5-day forecast puts the 
projected path of Katrina in the southeast Gulf of Mexico (as the 
system is still a tropical depression in the central Bahamas).
    0700 CDT: Katrina is elevated to a Tropical Storm.
    1000 CDT: Tropical Storm Katrina Advisory 4 is issued: ``. . . A 
TROPICAL STORM WARNING AND A HURRICANE WATCH HAVE BEEN ISSUED FOR THE 
SOUTHEAST FLORIDA COAST . . .''
THURSDAY, AUGUST 25, 2005
    1430 CDT: Katrina is elevated to a Category 1 Hurricane.
    1730 CDT: Katrina makes landfall in Florida as a Category 1 
Hurricane.
WEDNESDAY/THURSDAY, AUGUST 24/25
    Hurricane Liaison Team conference calls were conducted both days, 
and included Florida emergency managers, FEMA Headquarters (FEMA HQ), 
and Region IV.
FRIDAY, AUGUST 26, 2005
    0200 CDT: Katrina entered the Gulf of Mexico as a Tropical Storm.
    0400 CDT: Katrina is elevated to a Category 1 Hurricane.
    1000 CDT: Hurricane Katrina Advisory Number 12 is issued: ``KATRINA 
IS A CATEGORY ONE HURRICANE ON THE SAFFIR-SIMPSON SCALE. SOME 
STRENGTHENING IS FORECAST DURING THE NEXT 24 HOURS . . . AND KATRINA 
COULD BECOME A CATEGORY TWO HURRICANE ON SATURDAY.''
    1015 CDT: Hurricane Liaison Team Coordination Audio Conference with 
FL.
    1030 CDT: Katrina is elevated to a Category 2 Hurricane. Hurricane 
Katrina Advisory Number 13 is issued: ``. . . KATRINA RAPIDLY 
STRENGTHENING AS IT MOVES SLOWLY WESTWARD AWAY FROM SOUTH FLORIDA AND 
THE FLORIDA KEYS . . . KATRINA IS MOVING TOWARD THE WEST NEAR 7 MPH . . 
. AND THIS MOTION IS EXPECTED TO CONTINUE FOR THE NEXT 24 HOURS . . . 
RECENT REPORTS FROM AN AIR FORCE RESERVE UNIT HURRICANE HUNTER AIRCRAFT 
NOW INDICATE MAXIMUM SUSTAINED WINDS ARE NEAR 100 MPH . . . WITH HIGHER 
GUSTS. KATRINA IS NOW A CATEGORY TWO HURRICANE ON THE SAFFIR-SIMPSON 
SCALE. SOME STRENGTHENING IS FORECAST DURING THE NEXT 24 HOURS . . . 
AND KATRINA COULD BECOME A CATEGORY THREE OR MAJOR HURRICANE ON 
SATURDAY.''
    1100 CDT: Hurricane Liaison Team Coordination Video Conference with 
FEMA HQ, Region IV, FL, AL, and GA.
    1600 CDT: Hurricane Katrina Discussion Number 14 is issued: ``. . . 
THE MODELS HAVE SHIFTED SIGNIFICANTLY WESTWARD AND ARE NOW IN BETTER 
AGREEMENT. THIS HAS RESULTED IN THE OFFICIAL FORECAST TRACK BEING 
SHIFTED ABOUT 150 NMI WEST OF THE PREVIOUS TRACK . . . HOWEVER . . . 
PROJECTED LANDFALL IS STILL ABOUT 72 HOURS AWAY . . . SO FURTHER 
MODIFICATIONS IN THE FORECAST TRACK ARE POSSIBLE. KATRINA IS EXPECTED 
TO BE MOVING OVER THE GULF LOOP CURRENT AFTER 36 HOURS . . . WHICH WHEN 
COMBINED WITH DECREASING VERTICAL SHEAR . . . SHOULD ALLOW THE 
HURRICANE TO REACH CATEGORY FOUR STATUS BEFORE LANDFALL OCCURS.''
    1615 CDT: Hurricane Liaison Team Coordination Audio Conference with 
FL. 2200 CDT: Hurricane Katrina Discussion Number 15 is issued: ``THE 
OFFICIAL FORECAST BRINGS THE CORE OF THE INTENSE HURRICANE OVER THE 
NORTH CENTRAL GULF OF MEXICO IN 48 HOURS OR SO. IT IS WORTH NOTING THAT 
THE GUIDANCE SPREAD HAS DECREASED AND MOST OF THE RELIABLE NUMERICAL 
MODEL TRACKS ARE NOW CLUSTERED BETWEEN THE EASTERN COAST OF LOUISIANA 
AND THE COAST OF MISSISSIPPI. THIS CLUSTERING INCREASES THE CONFIDENCE 
IN THE FORECAST.''
SATURDAY, AUGUST 27, 2005
    0400 CDT: Katrina is elevated to a Category 3 Hurricane. Hurricane 
Katrina Advisory Number 16 is issued: ``KATRINA BECOMES A MAJOR 
HURRICANE WITH 115 MPH WINDS . . . SOME STRENGTHENING IS FORECAST 
DURING THE NEXT 24 HOURS . . . RECONNAISSANCE AIRCRAFT DATA AND SURFACE 
OBSERVATIONS INDICATE THAT KATRINA HAS BECOME A LARGER HURRICANE . . 
.'' Hurricane Katrina Discussion Number 16 is issued: ``DUE TO THE 
DECREASING SPREAD IN THE MODELS . . . THE CONFIDENCE IN THE FORECAST 
TRACK IS INCREASING.''
    1000 CDT: Hurricane Katrina Advisory Number 17 is issued: ``A 
HURRICANE WATCH IS IN EFFECT FOR THE SOUTHEASTERN COAST OF LOUISIANA 
EAST OF MORGAN CITY TO THE MOUTH OF THE PEARL RIVER . . . INCLUDING 
METROPOLITAN NEW ORLEANS AND LAKE PONCHARTRAIN . . . A HURRICANE WATCH 
WILL LIKELY BE REQUIRED FOR OTHER PORTIONS OF THE NORTHERN GULF LATER 
TODAY OR TONIGHT. INTERESTS IN THIS AREA SHOULD MONITOR THE PROGRESS OF 
KATRINA . . . SOME STRENGTHENING IS FORECAST DURING THE NEXT 24 HOURS . 
. . AND KATRINA COULD BECOME A CATEGORY FOUR HURRICANE . . .'' 
Hurricane Katrina Discussion Number 17 is issued: ``. . . IT IS NOT OUT 
OF THE QUESTION THAT KATRINA COULD REACH CATEGORY 5 STATUS AT SOME 
POINT BEFORE LANDFALL . . .''
    1015 CDT: Hurricane Liaison Team Coordination Audio Conference with 
FL.
    1100 CDT: Hurricane Liaison Team Coordination Video Conference with 
FEMA HQ, Region IV and VI, FL, LA, MS, AL, and GA.
    1600 CDT: Hurricane Katrina Advisory Number 18 is issued: ``THE 
HURRICANE WATCH IS EXTENDED WESTWARD TO INTRACOASTAL CITY LOUISIANA AND 
EASTWARD TO THE FLORIDA-ALABAMA BORDER. A HURRICANE WATCH IS NOW IN 
EFFECT ALONG THE NORTHERN GULF COAST FROM INTRACOASTAL CITY TO THE 
ALABAMA-FLORIDA BORDER. A HURRICANE WARNING WILL LIKELY BE REQUIRED FOR 
PORTIONS OF THE NORTHERN GULF COAST LATER TONIGHT OR SUNDAY. INTERESTS 
IN THIS AREA SHOULD MONITOR THE PROGRESS OF KATRINA.'' Hurricane 
Katrina Discussion Number 18 is issued: ``THE INTENSITY FORECAST WILL 
CALL FOR STRENGTHENING TO 125 KT AT LANDFALL . . . AND THERE REMAINS A 
CHANCE THAT KATRINA COULD BECOME A CATEGORY FIVE HURRICANE BEFORE 
LANDFALL.''
    1615 CDT: Hurricane Liaison Team Coordination Audio Conference with 
FL. 1925 CDT: Louisiana Gubernatorial Briefing: Max Mayfield, Director 
of NOAA's Tropical Predication Center/National Hurricane Center 
provides a briefing to Kathleen Babineau Blanco.
    1935 CDT: Max Mayfield, Director of NOAA's Tropical Predication 
Center/National Hurricane Center provides a briefing to Bill Filter, 
Chief of Operations, Alabama Emergency Management Agency.
    1945 CDT: Mississippi Gubernatorial Briefing: Max Mayfield, 
Director of NOAA's Tropical Predication Center/National Hurricane 
Center provides a briefing to Haley Barbour.
    2000 CDT: New Orleans Mayoral Briefing: Max Mayfield, Director of 
NOAA's Tropical Predication Center/National Hurricane Center provides a 
briefing to Ray Nagin. 2200 CDT: Hurricane Katrina Advisory Number 19 
is issued: ``. . . DANGEROUS HURRICANE KATRINA THREATENS THE NORTH 
CENTRAL GULF COAST . . . A HURRICANE WARNING ISSUED . . . AT 10 PM CDT 
. . . 0300Z . . . A HURRICANE WARNING HAS BEEN ISSUED FOR THE NORTH 
CENTRAL GULF COAST FROM MORGAN CITY LOUISIANA EASTWARD TO THE ALABAMA/
FLORIDA BORDER . . . INCLUDING THE CITY OF NEW ORLEANS AND LAKE 
PONCHARTRAIN . . . PREPARATIONS TO PROTECT LIFE AND PROPERTY SHOULD BE 
RUSHED TO COMPLETION . . . COASTAL STORM SURGE FLOODING OF 15 TO 20 
FEET ABOVE NORMAL TIDE LEVELS . . . LOCALLY AS HIGH AS 25 FEET ALONG 
WITH LARGE AND DANGEROUS BATTERING WAVES . . . CAN BE EXPECTED NEAR AND 
TO THE EAST OF WHERE THE CENTER MAKES LANDFALL . . . HEAVY RAINS FROM 
KATRINA SHOULD BEGIN TO AFFECT THE CENTRAL GULF COAST SUNDAY EVENING. 
RAINFALL TOTALS OF 5 TO 10 INCHES . . . WITH ISOLATED MAXIMUM AMOUNTS 
OF 15 INCHES . . . ARE POSSIBLE ALONG THE PATH OF KATRINA.'' Hurricane 
Katrina Discussion Number 19 is issued: ``. . . DESPITE THESE CHANGES 
IN THE INNER CORE . . . THE BOTTOM LINE IS THAT KATRINA IS EXPECTED TO 
BE AN INTENSE AND DANGEROUS HURRICANE HEADING TOWARD THE NORTH CENTRAL 
GULF COAST . . . AND THIS HAS TO BE TAKEN VERY SERIOUSLY.''
    1500-2230 CDT: Media pool operated; TPC/NHC provided 12 television 
and 2 radio interviews. In addition, TPC/NHC participated in 51 
telephone briefings or media contacts on August 27th.
SUNDAY, AUGUST 28, 2005
    0040 CDT: Katrina is elevated to a Category 4 Hurricane.
    0100 CDT: Hurricane Katrina Special Advisory Number 20 is issued: 
``. . . KATRINA STRENGTHENS TO CATEGORY FOUR WITH 145 MPH WINDS . . .''
    0400 CDT: Hurricane Katrina Discussion Number 21 is issued: ``THE 
SPREAD IN THE MODEL TRACKS ALONG THE NORTHERN GULF COAST IS AT MOST 90 
MILES . . . SO CONFIDENCE IN THE OFFICIAL FORECAST IS RELATIVELY 
HIGH.''
    0615 CDT: Katrina is elevated to a Category 5 Hurricane.
    0700 CDT: Hurricane Katrina Advisory Number 22 is issued: ``. . . 
KATRINA . . . NOW A POTENTIALLY CATASTROPHIC CATEGORY FIVE HURRICANE . 
. . HEADED FOR THE NORTHERN GULF COAST . . . MAXIMUM SUSTAINED WINDS 
ARE NEAR 160 MPH . . . WITH HIGHER GUSTS. KATRINA IS A POTENTIALLY 
CATASTROPHIC CATEGORY FIVE HURRICANE ON THE SAFFIR-SIMPSON SCALE. SOME 
FLUCTUATIONS IN STRENGTH ARE LIKELY IN THE NEXT 24 HOURS.''
    1000 CDT: Hurricane Katrina Advisory Number 23 is issued: ``. . . 
POTENTIALLY CATASTRPHIC HURRICANE KATRINA . . . EVEN STRONGER . . . 
HEADED FOR THE NORTHERN GULF COAST . . . REPORTS FROM AN AIR FORCE 
HURRICANE HUNTER AIRCRAFT INDICATE THAT THE MAXIMUM SUSTAINED WINDS 
HAVE INCREASED TO NEAR 175 MPH . . . WITH HIGHER WIND GUSTS . . . 
HURRICANE FORCE WINDS EXTEND OUTWARD UP TO 105 MILES FROM THE CENTER 
AND TROPICAL STORM FORCE WINDS EXTEND OUTWARDS UP TO 205 MILES . . . 
COASTAL STORM SURGE FLOODING OF 18 TO 22 FEET ABOVE NORMAL TIDE LEVELS 
. . . LOCALLY AS HIGH AS 28 FEET ALONG WITH LARGE AND DANGEROUS 
BATTERING WAVES . . . CAN BE EXPECTED NEAR AND TO THE EAST OF WHERE THE 
CENTER MAKES LANDFALL. Hurricane Katrina Discussion Number 23 is 
issued: ``. . . HURRICANE FORCE WINDS ARE FORECAST TO SPREAD AT LEAST 
150 N MI INLAND ALONG PATH OF KATRINA. CONSULT INLAND WARNINGS ISSUED 
BY THE NATIONAL WEATHER SERVICE FORECAST OFFICES . . .''
    1015 CDT: Hurricane Liaison Team Coordination Audio Conference with 
FL.
    1100 CDT: Hurricane Liaison Team Coordination Video Conference with 
FEMA HQ, Region IV and VI, FL, LA, MS, AL, GA, TX.
    1300 CDT: Hurricane Katrina Advisory Number 23A is issued: 
``SIGNIFICANT STORM SURGE FLOODING WILL OCCUR ELSEWHERE ALONG THE 
CENTRAL AND NORTHEASTERN GULF OF MEXICO COAST.''
    1600 CDT: Hurricane Katrina Advisory Number 24 is issued: ``KATRINA 
IS MOVING TOWARD THE NORTHWEST NEAR 13 MPH . . . AND A GRADUAL TURN TO 
THE NORTH IS EXPECTED OVER THE NEXT 24 HOURS. ON THIS TRACK THE CENTER 
OF THE HURRICANE WILL BE NEAR THE NORTHERN GULF COAST EARLY MONDAY. 
HOWEVER . . . CONDITIONS ARE ALREADY BEGINNING TO DETERIORATE ALONG 
PORTIONS OF THE CENTRAL AND NORTHEASTERN GULF COASTS . . . AND WILL 
CONTINUE TO WORSEN THROUGH THE NIGHT . . . KATRINA IS A POTENTIALLY 
CATASTROPHIC CATEGORY FIVE HURRICANE ON THE SAFFIR-SIMPSON SCALE. SOME 
FLUCTUATIONS IN STRENGTH ARE LIKELY UNTIL LANDFALL. KATRINA IS EXPECTED 
TO MAKE LANDFALL AT CATEGORY FOUR OR FIVE INTENSITY. WINDS AFFECTING 
THE UPPER FLOORS OF HIGH-RISE BUILDINGS WILL BE SIGNIFICANTLY STRONGER 
THAN THOSE NEAR GROUND LEVEL . . . SOME LEVEES IN THE GREATER NEW 
ORLEANS AREA COULD BE OVERTOPPED.'' 1615 CDT: Hurricane Liaison Team 
Coordination Audio Conference with FL. 2200 CDT: Hurricane Katrina 
Advisory Number 25 is issued: ``A HURRICANE WARNING IS IN EFFECT FOR 
THE NORTH CENTRAL GULF COAST FROM MORGAN CITY LOUISIANA EASTWARD TO THE 
ALABAMA/FLORIDA BORDER . . . INCLUDING THE CITY OF NEW ORLEANS AND LAKE 
PONCHARTRAIN. PREPARATIONS TO PROTECT LIFE AND PROPERTY SHOULD BE 
RUSHED TO COMPLETION.''
MONDAY, AUGUST 29, 2005
    0200 CDT: Hurricane Katrina is downgraded to a Category 4.
    0400 CDT: Hurricane Katrina Advisory Number 26 is issued: 
``EXTREMELY DANGEROUS CATEGORY FOUR HURRICANE KATRINA MOVING NORTHWARD 
TOWARD SOUTHEASTERN LOUISIANA AND THE NORTHERN GULF COAST . . . SOME 
FLUCTUATIONS IN STRENGTH ARE LIKELY PRIOR TO LANDFALL . . . BUT KATRINA 
IS EXPECTED TO MAKE LANDFALL AS A CATEGORY FOUR HURRICANE.''
    0600 CDT: Hurricane Katrina Advisory Number 26A is issued: 
``KATRINA REMAINS A VERY LARGE HURRICANE. HURRICANE FORCE WINDS EXTEND 
OUTWARD UP TO 120 MILES FROM THE CENTER . . . AND TROPICAL STORM FORCE 
WINDS EXTEND OUTWARD UP TO 230 MILES.''
    0610 CDT: Hurricane Katrina makes landfall in southeastern 
Louisiana as a Category 4 hurricane.
    0800 CDT: Hurricane Katrina Advisory Number 26B is issued: ``. . . 
THE CENTER OF HURRICANE KATRINA WAS LOCATED . . . ABOUT 40 MILES 
SOUTHEAST OF NEW ORLEANS LOUISIANA AND ABOUT 65 MILES SOUTHWEST OF 
BILOXI MISSISSIPPI . . . MAXIMUM SUSTAINED WINDS ARE NEAR 135 MPH . . . 
WITH HIGHER GUSTS. KATRINA IS AN EXTREMELY DANGEROUS CATEGORY FOUR 
HURRICANE ON THE SAFFIR-SIMPSON SCALE. WEAKENING IS FORECAST AS THE 
CIRCULATION INTERACTS WITH LAND TODAY . . . COASTAL STORM SURGE 
FLOODING OF 18 TO 22 FEET ABOVE NORMAL TIDE LEVELS . . . ALONG WITH 
LARGE AND DANGEROUS BATTERING WAVES . . . CAN BE EXPECTED NEAR AND TO 
THE EAST OF THE CENTER. STORM SURGE FLOODING OF 10 TO 15 FEET . . . 
NEAR THE TOPS OF LEVEES . . . IS POSSIBLE IN THE GREATER NEW ORLEANS 
AREA. SIGNIFICANT STORM SURGE FLOODING WILL OCCUR ELSEWHERE ALONG THE 
CENTRAL AND NORTHEASTERN GULF OF MEXICO COAST.''
    1000 CDT: Hurricane Katrina makes a second landfall at the LA/MS 
border as a Category 3 hurricane.
    1015 CDT: Hurricane Liaison Team Coordination Audio Conference with 
FL.
    1100 CDT: Hurricane Liaison Team Coordination Video Conference with 
FEMA HQ, Region IV and VI, LA, MS, AL, FL, TX.
    1615 CDT: Hurricane Liaison Team Coordination Audio Conference with 
FL.
TUESDAY, AUGUST 30, 2005
    1000 CDT: Katrina is downgraded to a tropical depression with winds 
of 35 mph, 25 miles south of Clarksville, TN. The final TPC/NHC 
advisory is issued at this time; the Hydrometeorological Prediction 
Center assumes inland public advisories.
WEDNESDAY, AUGUST 31, 2005
    2200 CDT: Hurricane Katrina has dissipated; remnants absorbed by a 
front in southeast Canada.
NOTES:
  <bullet> Timeline highlights the major aspects of NOAA's Tropical 
        Prediction Center/National Hurricane Center (TPC/NHC). All 
        advisories (graphic and text) are available on the Katrina 
        archive page: http://www/nhc.noaa.gov/archive/2005/KATRINA/
        shtml?

  <bullet> Storm surge is a consistent concern and associated threat 
        with any land-falling hurricane, especially a major hurricane.

  <bullet> Hurricane Liaison Team Coordination calls included the state 
        emergency management officials for the states listed; calls 
        with the State of Florida included both local and state 
        emergency management officials.

  <bullet> For Katrina (including for Florida) NOAA's Tropical 
        Predication Center/National Hurricane Center provided a total 
        of 471 television and radio interviews, through their media 
        pool or via telephone.

    Senator DeMint. Thank you, Mr. Mayfield. And thank you, 
again, for a job well done.
    Dr. Blackwell?

         STATEMENT OF DR. KEITH G. BLACKWELL, ASSOCIATE

           PROFESSOR OF METEOROLOGY, COASTAL WEATHER

          RESEARCH CENTER, UNIVERSITY OF SOUTH ALABAMA

    Dr. Blackwell. Thank you for asking me to come talk to this 
committee.
    Ever since I was knee-high, I've been a hurricane freak, 
and I've now got the opportunity to have more than my share of 
storms to study and forecast. And, unfortunately, there's quite 
a bit of heartache and anguish with the results that these 
storms bring. But I can say that the National Hurricane Center 
did a good job with Hurricane Katrina. And hurricanes, by 
nature, are notoriously difficult to predict. Within 3 days of 
a northern-Gulf Coast landfall, the National Hurricane Center 
had refined the forecast to the area that eventually was 
impacted by the storm.
    Hurricane forecasting has come a long way over the last 
half century. The advent of weather satellites was probably one 
of the most revolutionary developments in hurricane tracking. 
No longer would a storm be undetected over the vast expanse of 
tropical oceans and potentially strike an unsuspecting 
community without warning. Over the last several decades, 
reconnaissance and research aircraft have provided storm 
location and intensity information which was useful to 
hurricane forecasters.
    In addition, these aircraft, combined with coastal Doppler 
radars, have provided large amounts of data which have been 
useful in understanding the structure and evolution of the 
hurricane's severe inner core of winds and rainfall.
    The increased number of weather buoys deployed over the 
Gulf, Atlantic, and Caribbean Sea have helped to provide better 
coverage in a region where very few, if any, weather 
observations existed.
    As computer capabilities have become larger and faster, 
sophisticated weather forecast models have used much of the 
increased weather data available to provide multi-day forecasts 
of tropical cyclones.
    Here is an example of the expansion of hurricane 
forecasting lead time which has occurred over the last quarter 
century for various storms which struck the north-central Gulf 
Coast, beginning with Hurricane Frederic, in 1979. Believe it 
or not, looking at those old advisories, which I have in my 
library, they had 18 to 20 hours advance notice of where the 
storm was going to cross the coast. The forecasts only went out 
that far, less than a day. But then, shortly after that, by the 
time Hurricane Elena, in 1985, struck the Mississippi and 
Alabama coast, the forecast tracks had gone out to 5 days--or, 
excuse me, to 3 days. And then, of course, by the time Katrina 
came along, the forecasts were attempting to predict 5 days 
into the future.
    Theoretically, with these longer-range forecasts, 
communities and the public have greater lead time in order to 
begin preparing. However, I'm not so sure that the vast 
majority of the public has the confidence necessary in these 
multi-day forecasts to motivate them to begin early 
preparation.
    With Katrina, last month, the 3-day forecast was much more 
helpful in correctly portraying Katrina's actual landfall 
threat than most of the 5-day forecasts issued for that storm. 
At times, the 5-day forecasts can be very misleading, when the 
predictability of that particular atmospheric situation may 
only be 3 days.
    Starting in 2004, forecast outlooks were expanded from 3 to 
5 days. Having personally produced numerous forecasts for 
industrial clients on all storms threatening the U.S. since 
1997, I, personally, do not believe a 5-day forecast should be 
produced for every tropical cyclone, assuming that that 
tropical cyclone's going to be alive for the next 5 days.
    There are some storms which are absolutely unpredictable at 
the 4- and 5-day point. Many of these difficult storms are 
embedded within weak steering currents or within environments 
displaying moderate vertical wind shear. Some examples are 
presented in my testimony, which I submitted.
    I believe that when 5-day forecasts are generated in 
situations when the atmosphere is not predictable out to that 
range, public cynicism of hurricane forecasts grow, eventually 
leading to mistrust and inaction by many. I believe each storm 
should be forecast out for 3 days, regardless of the 
predictability. However, I believe that it would serve the 
public much better if forecasts out to 4 and 5 days were only 
issued when the confidence of the forecast is relatively high 
at that timeframe.
    A confidence gauge could be developed by calculating the 
scatter, or standard deviation, of the more reliable hurricane 
forecast track models at the 5-day forecast point. If the 
scatter was within acceptable limits, then we should proceed 
with the 4- or 5-day forecast. But, otherwise, the forecast 
should be limited to only 3 days.
    We have come a long way with track forecasting of 
hurricanes, but much still remains--but there still are often 
severe limits to our skill several days into the future. Much 
more work remains.
    So far, I've only discussed hurricane track forecasting. 
There are many other aspects of a hurricane forecast in which 
we display very little skill. These include intensity, size, 
storm surge, and precipitation. There is much more data 
collection and research that needs to be accomplished in order 
to predict these storms better. Using a baseball-game analogy, 
we are roughly to second base in track forecasting. That's what 
we do best, I believe, is track forecasting. But we're nowhere 
near perfect.
    The National Hurricane Center has a very tough job with 
these storms. They're incredibly fickle beasts, and they really 
rise--the folks, Max Mayfield and folks down there at the 
National Hurricane Center really rise to the occasion, often 
under very, very difficult circumstances.
    Maybe, though, we're approaching first base in our ability 
to predict intensity and storm surge. But, often, we haven't 
even left the batter's box when it comes to accurate rainfall 
distribution, storm-size fluctuations, and the evolution of the 
inner-core structure of the storm.
    One of the biggest drawbacks to hurricane prediction is the 
lack of quality data in and around the storm. These storms form 
over data-void tropical oceans where weather observations to 
the accuracy and resolution needed by computer prediction 
models are essentially nonexistent most of the time. If we 
cannot even accurately specify the present conditions of the 
storm as it exists today, how can we expect a computer to take 
this information--this incomplete data and generate an accurate 
forecast?
    More weather data in and around the storm is extremely 
important to increasing our ability to better understand and 
predict hurricanes. Significantly more quality data is needed 
than what presently exists today.
    We also need more research into computer simulations of 
hurricanes, which then will have direct benefits to operational 
hurricane forecasters. Presently, computers are too slow and do 
not have the necessary data density to predict hurricanes with 
the accuracy needed for the public to confidently begin early 
preparatory action.
    In order to speed up computer hurricane forecast 
calculations so that the forecast is available in a timely 
manner, we end up taking many shortcuts on how important--on 
how important physical processes are calculated or represented 
in a model. These shortcuts lead to significant forecast errors 
and also often lead to very little continuity between model 
forecasts.
    We also need to come up with a four-pronged scale to rate 
the destructive potential of hurricanes, which will include a 
separate indicator for wind, storm surge, flooding, and storm 
size. The Saffir-Simpson scale is not representative of the 
true impact of a hurricane. Being only one number, it really 
doesn't tell the story, as I think we're seeing with Katrina, 
of what a hurricane can really do at landfall.
    And, just to show you a storm that should not have a 5-day 
forecast attributed to it, this is Hurricane Ophelia, from a 
few days ago, off the East Coast of the United States. Those 
are the track models. Those are the track model forecasts, as 
presented here. They look like a spider web. What are you going 
to do with a storm that has that kind--where your guidance is 
like that? Fortunately, Katrina, for the most part, was much 
better behaved and did not have that kind of scatter. But this 
kind of situation presents us, time and time and time again--
and with Katrina, we did have adequate warning to get people 
out of the way, but they needed to heed that warning.
    But, with some storms in the future, we're going to have a 
problem with getting people out of the way, because the storm 
is going to do something very unexpected, given the problems we 
have with computer forecast simulations.
    Thank you very much.
    [The prepared statement of Mr. Blackwell follows:]

 Prepared Statement of Dr. Keith G. Blackwell, Associate Professor of 
   Meteorology, Coastal Weather Research Center, University of South 
                                Alabama

    The National Hurricane Center did a good job with Hurricane 
Katrina. Hurricanes, by nature, are notoriously difficult to predict. 
Within 3 days of a northern Gulf coast landfall, the National Hurricane 
Center had refined the forecast landfall to the area that eventually 
was impacted by the storm.
    Hurricane forecasting has come a long way over the last half 
century. The advent of weather satellites was probably one of the most 
revolutionary developments in hurricane tracking. No longer would a 
storm be undetected over the vast expanse of tropical oceans and 
potentially strike an unsuspecting community without warning. Over the 
last several decades, reconnaissance and research aircraft have 
provided storm location and intensity information which was useful to 
hurricane forecasters. In addition, these aircraft, combined with 
coastal Doppler radars, have provided large amounts of data which has 
been useful in understanding the structure and evolution of the 
hurricane's severe inner core of winds and rainfall. The increased 
number of weather buoys deployed over the Gulf, Atlantic, and Caribbean 
Sea have helped to provide better coverage in a region where very few 
if any weather observations existed.

5-Day Forecast
    As computer capabilities became larger and their speed faster, 
sophisticated weather forecast models have used much of this increased 
weather data to provide multi-day forecasts of tropical cyclones. Here 
is an example of the expansion of hurricane forecasting lead time which 
has occurred over the last quarter century for various storms which 
struck the north-central Gulf coast:

        1979--Hurricane Frederic: 1-day forecast (only 18-20 hours lead 
        time).
        1985--Hurricane Elena: 3-day forecast.
        1998--Hurricane Georges: 3-day forecast.
        2005--Hurricane Katrina: 5-day forecast.

    Theoretically, with these longer-range forecasts, communities and 
the public have greater lead times in order to begin preparing. 
However, I am not so sure that the vast majority of the public has the 
confidence necessary in these forecasts to motivate them to begin early 
preparation.
    With Katrina last month, the 3-day forecast was much more helpful 
in correctly portraying Katrina's landfall location than most of the 5-
day forecasts. For example:

  <bullet> From 5 p.m. Tuesday (23 Aug)--11 a.m. Wednesday (24 Aug): 5-
        day forecasts displayed some skill bringing the storm across 
        Florida and into the eastern Gulf of Mexico (See Figure 1).

  <bullet> After that, the 5-day forecast was generally not helpful in 
        portraying the threat to New Orleans and the Mississippi Gulf 
        Coast. Instead, the 5-day forecasts generally portrayed an 
        incorrect threat to the Florida Big Bend and eastern portions 
        of the Florida Panhandle (see Figure 2).

  <bullet> By the time a serious threat to New Orleans became apparent, 
        the storm was within 3 days of landfall. At 5 p.m. Friday (26 
        Aug), the storm is within 3 days of landfall and the 3-day 
        forecast shows significant skill from this point forward with 
        portraying a serious threat to the SE Louisiana, Mississippi, 
        and Alabama coast. Thus, the 3-day, not the 5-day forecast, was 
        useful in portraying Katrina's threat to the Louisiana/ 
        Mississippi/ Alabama coastline (see Figure 3).

    Starting in 2004, forecast outlooks were expanded from 3 days to 5 
days. Having operationally produced numerous forecasts for industrial 
clients on all storms threatening the U.S. since 1997, I personally do 
not believe a 5-day forecast should be produced for every tropical 
cyclone (assuming 5 or more days of existence remain). There are some 
storms which are absolutely unpredictable at the 4 and/or 5 day point. 
Many of these ``difficult'' storms are embedded within very weak 
steering currents, or within environments displaying moderate vertical 
wind shear.
    Initially, Katrina's steering currents were fairly well defined, as 
evidenced by the general agreement (i.e., the general lack of scatter 
in the forecast tracks) between many models (see Figure 4). In this 
case, the 5-day forecast certainly indicated a possible future threat 
to the north-central Gulf coast area (see Figure 1). A couple of days 
later however, as scatter between model forecasts increased, the 
accuracy of Katrina's 5-day forecast went down as the northeast Gulf 
coast was now targeted (see Figure 5 and compare to Figure 2). Finally, 
after Katrina moved into the Gulf, the model forecast scatter once 
again began decreasing, and the threat shifted back to the north-
central Gulf coast (see Figure 6 and compare to Figure 3). But by this 
time, the storm was within 3 days of landfall.
    Hurricane Ophelia last week is an example of an unpredictable storm 
in which a forecast should be limited to only 3 days during certain 
times of the storm's life. Ophelia was embedded in weak steering 
currents and the scatter of the model forecast tracks was huge (Figure 
7). The terribly large scatter of forecast tracks indicates that there 
should very little confidence in the storm's 5-day forecast; therefore, 
the public should only receive a 3-day forecast instead of the 5- day 
forecast as portrayed in Figure 8. Instead of striking South Carolina 
and moving well inland, the storm actually grazed the North Carolina 
coast before moving out to sea.
    The National Hurricane Center's Tropical Cyclone Discussion from 5 
a.m. EDT, Friday, September 9, 2005, indicates the forecaster's lack of 
confidence in the forecast track.

         . . . GIVEN THE LACK OF CONSISTENCY IN MODEL GUIDANCE THUS FAR 
        WITH THIS STORM . . . I HAVE ONLY MADE A MODEST WESTWARD 
        ADJUSTMENT WITH THE OFFICIAL FORECAST AT THIS TIME. IT IS TOO 
        EARLY TO BE SPECIFIC ABOUT WHICH AREAS MIGHT ULTIMATELY BE 
        AFFECTED BY OPHELIA . . . BUT THE PROXIMITY OF THIS CYCLONE TO 
        THE COAST AND THE WEAK STEERING CURRENTS DICTATES THAT 
        INTERESTS FROM FLORIDA THROUGH THE CAROLINAS WILL NEED TO 
        MONITOR OPHELIA FOR THE NEXT SEVERAL DAYS. . . . 

    The graphic did not display this level of uncertainty any different 
than it would a more confident forecast, and most people see the 
graphic and not the Tropical Cyclone Discussion. Thus, a 4- and 5-day 
forecast track to South Carolina is misleading, even if there are huge 
margins of error depicted on the graphic. These margins of error 
(depicted by the white circular line surrounding the forecast track) 
are the same for every forecast, regardless of the true confidence of 
the forecast.
    Yet, there are other storms in which the steering currents are well 
established and the storm is predictable with great accuracy out to 5 
days. Hurricane Emily is an example of a storm with a highly 
predictable track (see Figures 9 and 10).
    I believe that the 5-day forecast product contributes to public 
cynicism and too often tends to give the public the impression that 
``The 5-day forecast may have the storm pointed at my city today, but 
it always changes; I will wait until tomorrow or the next day before I 
begin to take any action. After all, I fully expect the track to be 
pointed somewhere else tomorrow, so why should I begin to prepare now? 
`' I believe some of this mentality may have affected actions by both 
the public and public officials prior to Katrina's landfall.
    I believe each storm should be forecast at least out to 3 days, 
regardless of the predictability. However, I believe that it would 
serve the public much better if the 4 and/or 5 day forecast were only 
issued when the confidence of the forecast is relatively high at that 
time range. A ``confidence gauge'' could be developed by calculating 
the ``scatter'' or ``standard deviation'' of the more reliable track 
models at the 4- and 5-day forecast points. If the ``scatter'' was 
within acceptable limits, then proceed with the 4- or 5-day forecast, 
but otherwise limit the forecast to only 3 days.
    I have only discussed forecast tracks in the above paragraphs. The 
success with intensity forecasting is much less than with track 
forecasting. There is much more data collection and research that needs 
to be accomplished in order to better predict these storms.
    Increasing the frequency of Mexican weather balloon launches (to 6- 
or 12-hour intervals, rather than the current 24-hour intervals) when 
hurricanes are present in the Atlantic would help increase the accuracy 
of measuring steering currents which later might impact the hurricane 
track.

New Upgrade Needed for Saffir-Simpson Hurricane Scale
    A new hurricane intensity scale is needed in order to better relate 
the expected effects of a hurricane on the threatened population, thus 
better preparing them for the storm and improving their ability to 
evacuate.
    Need a new scale to rate hurricane effects at landfall. Need 
alternative estimates of storm intensity which better define what a 
storm is capable of doing.

  <bullet> Saffir-Simpson Scale is not representative of what 
        hurricanes can do. Winds are only part of the story.

  <bullet> Need a 4-pronged scale to rate the destructive potential of 
        hurricanes which will include:

        --Wind
        --Storm surge
        --Rainfall and inland flooding.
        --Storm size

    All of these need to be independent of each other and able to stand 
on their own merit, depending on the situation.
Much More Storm Intensity Research Needed
    There need to be better ways to observe present storm intensity and 
predict changes in intensity.

  <bullet> How strong are hurricanes? This is a very elusive question.

  <bullet> Some storms appear as though they should have strong winds, 
        but make landfall without doing much wind damage.

  <bullet> Some storms produce wind damage which far surpasses their 
        expected intensity.

  <bullet> Some storms bring their strong winds to the ground and 
        others don't. We cannot predict this. When it comes to wind 
        damage and effects of the wind on the storm surge, it is the 
        wind speeds which occur at the ground (or ocean surface) that 
        count.

  <bullet> New tools on board aircraft are being used to measure winds 
        close to the surface of the ocean:

        --Global Positioning System Dropsondes have provided 
        unparalleled views of vertical wind profiles in hurricanes, 
        particularly near the surface.

        --Stepped frequency microwave radiometers (SFMR) have recently 
        been placed on board NOAA research aircraft.

          -- Presently this type of equipment is needed on Air Force C-
        130 hurricane hunter aircraft.

          -- The SFMR provides surface wind speed estimates over the 
        ocean.

          -- Good calibration of these SFMR wind measurements only 
        exists for low and moderate wind speed situations. Additional 
        work needs to be done to calibrate this instrument for high 
        wind speeds, typical of intense hurricanes. Rainfall estimates 
        are also possible with the SFMR.

        --Important: The SFMR and other wind profiling instruments are 
        critical to determining wave height out in the open ocean 1 or 
        2 days before landfall. In Katrina's case, waves generated 
        while Katrina was a Category 5 over the central Gulf 1 or 2 
        days prior to landfall probably helped enhance the storm surge 
        above what a weakening Katrina would have been capable of when 
        it made landfall. In other words, the fact that Katrina was a 
        large Category-5 hurricane in the central Gulf probably led to 
        a larger storm surge on the Gulf coast well above what would 
        probably have happened had Katrina never reached Category-5. 
        Assuming that Katrina crossed the Mississippi coast as a high 
        Category-3 or low Category-4 storm, the storm surge was 
        probably much higher with this storm because it had a recent 
        history as a large Category-5 storm. Had the storm not been so 
        intense over the central Gulf 1-2 days before landfall, there 
        probably would have been a smaller surge (everything else being 
        equal). Thus, the ability to measure the size and strength of 
        the storm is critical to storm surge prediction.

  <bullet> UAVs (Unmanned Aerial Vehicles) offer great promise of long-
        term direct sampling of hurricanes, provided they are rugged 
        enough to survive the hostile weather environment. Because of 
        their small size and low speed, they may be better suited for 
        remaining in the eye and measuring central pressure and 
        temperature, rather than venturing into the rougher weather 
        outside the eye to measure the maximum winds. Testing is 
        ongoing.

  <bullet> Storm winds near the ground in a landfalling hurricane are 
        often difficult to assess.

        --The storms produce power outages and severe damage which 
        often either renders wind equipment useless in the core of 
        hurricanes, unless they are ``hardened'' to handle such extreme 
        events. However, when observations are available, they are 
        invaluable for both assessing the storm strength and structure, 
        and also for research.

  <bullet> Coastal and portable Doppler radars are extremely useful 
        tools for assessing storm strength, but often cannot sample the 
        atmosphere at low enough levels to determine the wind speed 
        near the ground.

  <bullet> Mesonets (mesoscale networks), consisting of a fairly dense 
        array of low-cost weather stations, are currently being set up 
        by individual universities using grant money. Mesonets serve 
        the dual purpose of providing operational and research 
        benefits, particularly when hurricanes make landfall. In 
        addition, they are good for public relations because the public 
        likes to see local weather observations close to them. Dr. 
        Kimball, at the University of South Alabama, is presently 
        installing a mesonet along the north-central Gulf coast. She 
        has had many requests from the public wanting access to her 
        website which displays the observations taken by these 
        instruments. Locating these instruments at schools also allows 
        and educational component to be realized by teachers and 
        students. During landfalling hurricane situations, these 
        weather stations can provide extremely important wind and other 
        weather information which can be used to determine the severity 
        of the storm and later incorporated into research which 
        furthers our understanding of these storms.

        --Ken Crawford has been appointed the COOP modernization person 
        at NOAA, but that office needs to be expanded. They are often 
        too busy to pursue collaboration efforts with universities in 
        hurricane-prone regions.

        --These observations are critical to improving the accuracy of 
        computer simulations attempting to re-create the structure, 
        intensity, surge, and rainfall of actual storms which have made 
        landfall.

        --Also, these mesonets need funding for infrastructure and for 
        long-term maintenance. After a university's mesonet grant 
        expires, the stations may deteriorate, lose calibration, and 
        eventually die.

Landfall Forecast Focus Needs to be Emphasized
  <bullet> The accuracy of hurricane forecasts continues to slowly 
        improve; however, the accuracy that really counts for most 
        interests is the projected landfall location and intensity. 
        This is where the most significant emphasis should continue to 
        be placed. Much more research needs to be done to provide more 
        accurate guidance to emergency managers and the public about 
        what to expect as the hurricane approaches.

        --Obviously, accurate track and intensity forecasts are 
        critical at landfall, but other less-obvious challenges are 
        important too.

          -- Better forecasting of size and structural changes in 
        hurricanes will allow for improved forecasts for the onset of 
        tropical storm-force winds and early water rise at the 
        coastline.

          -- Onset of these winds effects evacuation efforts in the 
        path of the storm (example: Often ferries and certain bridges 
        used for evacuation may be closed early due to winds and/or 
        tides exceeding limits, etc . . .)

Numerical Hurricane Modeling
    Much of the future of hurricane prediction lies in better 
observations and more powerful numerical computer modeling. Weather 
data is seriously lacking in the vicinity of tropical cyclones. These 
cyclones form over data-void regions of the tropical and sub-tropical 
oceans where weather observations are scarce. This weather data must be 
easily convertible into quantitative data compatible for use by weather 
forecast computers.

  <bullet> Weather data is needed over vast regions surrounding the 
        hurricane. The newly acquired NOAA Gulfstream jet performs some 
        of this function, but it is not feasible to keep this aircraft 
        continuously deployed. Satellite also can help, but most of 
        this data alone cannot provide the quantitative accuracy or 
        vertical detail needed by numerical models. There are some 
        platforms, such as the QuikScat instrument deployed on low-
        flying polar orbiting satellites which provide good estimates 
        of surface winds over the oceans; however, there are two major 
        shortcomings which need to be overcome with more research:

        a. The polar-orbiting satellite only allows twice-a-day fly-
        overs at best, and large data-void swaths exist over tropical 
        oceans in expansive regions between the successive orbital 
        paths of the satellite. Often, a hurricane will fall within one 
        of these data-void swaths and no wind data will be collected 
        from the vicinity of the hurricane for maybe a day or two.
        Possible solutions:

          -- Equip several polar-orbiting satellites with QuikScat

          -- Place QuikScat on geostationary satellites, thus allowing 
        continuous wind measurements from the same oceanic region.

        b. The QuikScat wind measurements are degraded in areas of 
        heavy rain. Since heavy rainfall is common in hurricanes, very 
        limited information is available from this instrument within 
        the hurricane itself.

  <bullet> The Tropical Rainfall Monitoring Mission (TRMM) satellite is 
        a special satellite which has been in a low earth orbit which 
        circles the tropical regions of the globe. This operational 
        satellite was recently targeted for elimination, but some funds 
        were found to extend its life. This type of satellite needs to 
        continue operations in the future over hurricane-prone regions 
        of the tropical and sub-tropical oceans.

  <bullet> For more accurate forecasts of the inner-core structure of a 
        hurricane, better techniques need to be developed for inserting 
        (known as ``bogusing'') a hurricane vortex into numerical 
        models. Better data incorporation and data assimilation of a 
        representative hurricane vortex is needed in numerical models. 
        However, in order to bogus a more accurate vortex into a model, 
        better data quality and quantity is needed in the inner core of 
        the hurricane.

  <bullet> Better computer resources are needed to refine forecast 
        models. Currently, the operational resolution and 
        parameterizations of operational models are inadequate to 
        provide routinely accurate hurricane forecasts, particularly 
        with regards to structural and intensity changes. Faster 
        computers and more complete numerical models are needed for 
        more detailed and accurate hurricane forecasting.

  <bullet> Observations are needed to refine model parameters. NOAA P-3 
        Orion research aircraft fly at a maximum altitude of 5 km, but 
        observations of microphysical cloud structure (e.g., 
        microphysics) above that level are needed due to their huge 
        impacts on storm structure. The NOAA Gulfstream aircraft is 
        capable of flying at some of these higher altitudes, but 
        presently it only samples areas outside the immediate storm 
        environment and not directly within the hurricane.

  <bullet> Planetary boundary layer (PBL) parameters need to be refined 
        for high wind regimes; exchange coefficients currently in use 
        are for low winds, not the extreme wind speeds characteristic 
        of hurricanes. Plus, there is a need for quantitatively 
        measuring and incorporating into models correct values of sea 
        spray and wave roughness.

  <bullet> Correct modeling of hurricane structure, size, and intensity 
        is crucial if one ever expects to correctly predict flooding 
        rainfall, storm surge and wind speeds of landfalling 
        hurricanes.

National Hurricane Center Public Relations
    The Tropical Prediction Center National Hurricane Center (NHC) 
needs an experienced tropical meteorologist who is a professional 
public relations specialist. This person would be skilled at working 
with the media. Presently, this position is often filled by the NHC 
director himself (such as Mr. Mayfield). The NHC director needs to 
remain in the trenches with the hurricane forecasters. I do not believe 
that hurricane forecasts are improved by the NHC director having to 
devote so much time with the media when significant forecast challenges 
are always presented in landfalling hurricane situations. Public 
relations is extremely important in convincing the public that they 
should prepare for a hurricane, but it should not detract from the core 
NHC mission: accurate hurricane forecasts. (This is not to say that Mr. 
Mayfield does less than a stellar job in front of the camera.)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator DeMint. Thank you, Dr. Blackwell.
    Dr. Levitan?

          STATEMENT OF DR. MARC L. LEVITAN, DIRECTOR,

        HURRICANE CENTER/CHARLES P. SIESS, JR. ASSOCIATE

        PROFESSOR OF CIVIL ENGINEERING, LOUISIANA STATE

        UNIVERSITY; PRESIDENT, AMERICAN ASSOCIATION FOR

                        WIND ENGINEERING

    Dr. Levitan. Mr. Chairman and members of the Subcommittee, 
my name is Marc Levitan, Director of the LSU Hurricane Center.
    I'd first like to discuss the role of the LSU Hurricane 
Center in operational response. On Saturday morning, August 27, 
we were activated by the Louisiana Office of Homeland Security 
and Emergency Preparedness to provide operational support. Our 
team includes the LSU Hurricane Center, the Southern Regional 
Climate Center, LSU Earth Scan Lab, and the Center for the 
Study of Public Health Impacts of Hurricanes.
    The support that we provided in the State Emergency 
Operations Center, from before the storm until well after the 
storm, included satellite storm tracking, local meteorological 
condition information and support, storm-surge estimation, 
wind-damage estimation, consultations with technical 
information on evacuation and sheltering decisions, and many 
other technical aspects.
    One of the most important aspects that we were able to 
provide is some additional information on storm-surge modeling. 
Let me pull that up here. And as--based on the forecast 
advisory, number 16, we use the ADCIRC, a different storm-surge 
model, to develop storm-surge flooding estimates on the LSU 
supercomputer.
    Now, the information--as important as the track forecasting 
is, of course, we can't do any kind of good storm-surge 
estimations without having a good track. And so, we start with 
the track information developed by the National Hurricane 
Center. And this model provides--in the same way that we just 
saw, there are many different models available to predict where 
the storm will go--this is--becomes a second modeling tool 
that's available to us now, to have at least two models that 
can be used operationally to investigate what the possible 
storm-surge flooding is, in addition to the NOAA storm-surge 
model.
    We briefed this--I actually--as our team was developing 
these models and running this information, I was in the EOC, 
briefing this. And, as of Saturday--this was a Saturday 
afternoon briefing, and it indicated some storm-surge flooding 
in the lower parishes, but no overtopping of the levees. 
However, we did note that levee overtopping certainly was 
possible, as the note on the graphic indicates.
    By advisory 18, which we briefed very late Saturday night, 
close to midnight, that one did show, in the New Orleans east 
area, over here--we showed overtopping through the Mississippi 
River/Gulf outlet, and it showed a significant extent of 
flooding.
    Now, I will say that none of the models--and we just do not 
have the technology yet--none predict breaching of the levee or 
failure of the levee. The flooding indicated by all these 
models is simply due to overtop. I will mention that we are 
working today, have been working over the last week, to upgrade 
our--the ADCIRC model to account for the damaged state of the 
levees as they are right now. We have teams in the field, 
measuring, getting information on those. So, if Hurricane Rita 
or other storms threaten New Orleans again during this season, 
then we'll be able to run storm-surge models with the damaged 
levee state in there to be able to see what the vulnerability 
of the city will be.
    Again, this was a close-up showing what--this was the 
extent of flooding predicted simply due to the overtopping of 
the levees.
    And I'll show that we also developed animations to show 
this, in a graphical sense. We can see, as the storm moves 
through, the wind vectors across there--and it brings the 
flooding in.
    Now, I will say, where we're lacking in the prediction 
sense is, we--as the National Hurricane Center has shown, we've 
done a very good job, for Katrina and other storms, in 
predicting where the storm is going to go. The storm-surge 
modeling is still, as Dr. Blackwell mentioned, maybe on first 
or second base. It's making progress. But predicting the 
consequences, the human consequences--What is the wind damage? 
We're providing estimates on that, based on the HAZIS model. 
What will be the number of buildings flooded? What will be the 
number of casualties, number of rescues needed? We don't have 
that yet, and that's absolutely important. We're developing 
those techniques. The universities and other groups are 
developing those techniques. But, as the person in Saturday 
afternoon and Sunday and Monday who was in the State--in 
Louisiana Emergency Operations Center briefing these results, I 
wish to God that I could have been able to brief that we needed 
20,000 helicopter rescues, that we needed all these medical 
evacuations. But we--the state of the science is not there yet, 
and we desperately need to move ahead. If we could have briefed 
that, then maybe that would have helped the response get 
rolling a little bit faster.
    The second aspect that I'd like to mention is in regard to 
the--I'm sorry--in regard to what we need to do to prevent 
these--this devastation, as Max has talked many times before, 
the battle is won off-season; it's not won when the storm is 
coming in. We have to work to upgrade our zoning, our building 
codes, and our building construction practices. That becomes 
critically important now in the rebuilding phase. Now, more 
than ever, we must change our practices so that we don't have 
buildings that'll be so totally destroyed by wind in the 
immediate wake of the storm.
    So, as we're going into the rebuilding, the State of 
Louisiana had learned a lesson last year from Florida. In the 
legislative session that immediately concluded this past June, 
the State of Louisiana had passed House Concurrent Resolution 
Number 135, which created the Uniform Building Code Task Force, 
which was to study--which is charged to study the situation and 
develop recommendations for creating a uniform building code 
across the state. Ironically, the first meeting of this 
committee was scheduled to have been held on Wednesday after 
landfall. I was in touch with the Department of Insurance as 
the lead--Louisiana Department of Insurance, which is the lead 
agency, and they said they have scheduled this--rescheduled 
this for early October. So, it's critically important that we 
make sure that we rebuild, in the wake of this storm, smarter 
than we have before.
    Thank you.
    [The prepared statement of Dr. Levitan follows:]

 Prepared Statement of Dr. Marc L. Levitan, Director, Hurricane Center/
    Charles P. Siess, Jr. Associate Professor of Civil Engineering, 
 Louisiana State University; President, American Association for Wind 
                              Engineering

    Mr. Chairman and members of the Subcommittee, my name is Marc 
Levitan. I am Director of the Louisiana State University Hurricane 
Center and the Charles P. Siess, Jr. Associate Professor of Civil and 
Environmental Engineering at Louisiana State University. I am also the 
elected President of the American Association for Wind Engineering and 
a member of the American Society of Civil Engineers.
    I am appearing today on behalf of the Louisiana State University 
Hurricane Center. Louisiana State University is the flagship 
institution of the state, classified by the Carnegie Foundation as a 
Doctoral/Research-Extensive University. The university has a long 
history of research in hurricanes, coastal sciences and engineering. 
The LSU Hurricane Center was founded and approved by the Louisiana 
Board of Regents in the year 2000 to provide a focal point for this 
work, with a mission to advance the state-ofknowledge of hurricanes and 
their impacts on the natural, built and human environments, to 
stimulate interdisciplinary and collaborative research activities, to 
transfer new knowledge and technology to students and professionals in 
concerned disciplines, and to assist the state, the Nation, and world 
in solving hurricane-related problems. Research efforts that have been 
translated into practice in support of emergency management agencies 
include: Implementation of real-time storm surge modeling, improvements 
in hurricane evacuation planning and operations (particularly 
contraflow evacuations), and improvements in hurricane shelter analysis 
and design methods.

LSU Hurricane Center's Role in Preparing for and Responding to 
        Hurricane Katrina
    The LSU Hurricane Center has put its research expertise into 
helping prepare for and respond to Hurricane Katrina. Over the past few 
years, our faculty, staff, and students have: helped redesign 
Louisiana's contraflow evacuation plan, one of the few bright spots in 
the Katrina Response; worked with many local and state government 
agencies to provide hurricane shelter assessments and mitigation plans 
for hundreds of buildings; provided training in hurricane shelter 
assessment methodology and GIS applications for emergency management, 
developed hurricane exercises for the Louisiana Office of Homeland 
Security and Emergency Preparedness and the Louisiana Department of 
Transportation and Development, and was a partner in the design of last 
year's Hurricane Pam catastrophic hurricane planning exercise.
    As Hurricane Katrina approached, we were activated by the Louisiana 
Office of Homeland Security and Emergency Preparedness (LOHSEP) on 
Saturday morning August 27. The LSU Hurricane Center team, along with 
staff from the Southern Regional Climate Center, Earth Scan Lab, and 
the Center for the Study of Public Health Impacts of Hurricanes then 
began providing 24 hour operational support. This support included:

  <bullet> satellite storm tracking
  <bullet> local meteorological condition information and support
  <bullet> storm surge flood estimation
  <bullet> wind damage estimates

    Other support activities included consultations on evacuation and 
sheltering decisions as the storm was approaching, flood casualty 
estimates, and mapping/GIS/remote sensing support ever since the storm 
made landfall, which is still continuing. Maps have been made for many 
of the major Federal and state agencies, including mapping 911 calls 
which helped direct rescue crews.
    One of the most important facets of this operational support was 
real-time storm surge modeling. Using the ADCIRC Model, our surge 
modeling team, funded by the Louisiana Board of Regents, provided surge 
flooding estimates based on the National Hurricane Center forecast 
predictions. These models were posted on a web site available to 
Louisiana emergency managers and the results were included in the 
regular briefings put on by the LSU team in the Emergency Operations 
Center. The first model run was based on Advisory 16 and was completed 
on Saturday afternoon. It indicated flooding in the low-lying areas 
outside the main levee protection areas, but no overtopping in the 
city. The model run for Advisory 18 was completed very late Saturday 
night, and showed overtopping of the levees in the eastern part of the 
city.
    The ADCIRC model is a very powerful tool to examine surge flooding 
for single track scenarios right now. It is a research product that has 
been pressed into service to assist with operations, but needs 
additional work and testing to become a true operational tool. LSU 
researchers are working right now to update the underlying physical 
grid to account for the damaged state of the levee systems in New 
Orleans in case another storm approaches before they are repaired.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

The Critical Role of Coastal Protection, Land Use, Zoning and Building 
        Codes in Reducing Loss of Life and Property
    Hurricane Katrina has demonstrated numerous failures and 
shortcomings in how we have managed both the natural and built 
environments. Coastal land loss, changes in land use and building 
construction practices, and the continued lack of adoption and 
enforcement of a modern, statewide building code have all contributed 
to the Katrina disaster.
    No plan to rebuild southeastern Louisiana can ultimately be 
successful without a comprehensive effort to protect and restore the 
coast. A large and healthy system of wetlands between New Orleans and 
the Gulf of Mexico has historically been the first line of defense for 
the city, protecting it from the worst of the hurricane storm surges 
and winds. This buffer has largely disappeared over the last 75 years. 
Levees on the Mississippi River prevent sediments and nutrients from 
renewing the land. Construction of canals for the oil, gas and shipping 
industries has disrupted the natural hydrology and allowed saltwater to 
penetrate the marshes, causing serious damage. These and other factors 
have led to the highest rate of land loss in the world. Louisiana loses 
approximately 25 square miles of protection each year due to subsidence 
and erosion. A comprehensive coastal restoration program must be put in 
place and funded immediately, before the wetlands disappear entirely.
    Areas that have been protected from flooding by levee systems have 
witnessed changes in land use and building construction practices that 
tend to increase their vulnerability to floods. Many areas of southern 
Louisiana traditionally experienced flooding often enough that standard 
construction practice was to either build on high ground or elevate the 
structures. The proliferation of flood protection levee systems over 
the past several decades has reduced the frequency of flooding and, in 
some cases, lowered the mapped base flood elevation. These changes have 
led to the development of lower lying areas and construction of homes 
and businesses using either slab-on-grade or minimally elevated 
foundations. These structures are now extremely vulnerable to flooding 
when levee systems fail, when drainage pump systems fail, and/or when 
events larger than the design flood occur.
    The lesson here is clear--when buildings are constructed in flood-
prone areas, whether protected by levee systems or not, they should 
still be elevated in order to reduce potentially catastrophic flood 
losses.
    Suppose the majority of homes in New Orleans had been constructed 
with open parking or enclosed garages beneath the homes, meaning that 
the elevation of the first floor would be 8 to 10 feet above grade. 
This change could have saved many lives and many thousands of homes. As 
I have often heard Jesse St. Amant, Director of Plaquemines Parish 
Emergency Management say, ``Elevation is the salvation from 
inundation.''
    One of the most urgent needs in the wake of the disaster is 
building code reform. We simply cannot afford to spend billions of 
dollars rebuilding homes and businesses that will not stand up to the 
next hurricane. Studies conducted by the Institute for Business and 
Home Safety and several Florida universities concluded after last 
year's hurricanes that the new Florida Building Code was very effective 
at reducing hurricane damage. Analysis of thousands of homes showed 
that buildings constructed to the new code, on average, experienced 
only about half as much damage and loss as those built to previous 
codes. Additionally, a much larger percentage of homes built to the new 
code were undamaged or only minimally damaged so that the structures 
were still inhabitable.
    Louisiana learned a lesson from Florida's hurricanes of 2004, and 
has begun taking steps toward building code reform. In the Regular 
Session ending in June 2005, the Louisiana Legislature called for the 
creation of a Uniform Building Code Task Force in House Concurrent 
Resolution 135, with the purpose being ``. . . to study current laws 
and regulations related to the construction of buildings and 
structures, make recommendations regarding legislation that would best 
ensure adequate maintenance of buildings and structures throughout the 
state, and to adequately protect the health, safety and welfare of the 
people.'' The primary motivation for this legislation was the reduction 
of catastrophic damage from hurricanes and other severe storms.
    The first meeting of the Uniform Building Code Task Force was 
originally scheduled for August 31, two days after Katrina made 
landfall. This meeting was canceled for obvious reasons and has 
tentatively been rescheduled by the Louisiana Department of Insurance 
to October 4, 2005. It is imperative that this body make 
recommendations for immediate changes while the longer term solution is 
under deliberation. One such possibility would be to immediately 
require all residential construction to meet the requirements of SSTD 
10-99, the Standard for Hurricane Resistant Residential Construction, 
or a variation of that document.

National Windstorm Impact Reduction Program
    The recent devastation along the Gulf Coast of the United States 
brought upon by Hurricane Katrina pointed out the vulnerability of the 
Nation to severe wind storms such as hurricanes. This vulnerability was 
recognized by Congress last year when it enacted Public Law 108-360, 
which authorized the creation of the National Windstorm Impact 
Reduction Program. The program has been authorized for FY 2006, but as 
of yet, there is no funding in the relevant appropriations bills.
    For Fiscal Year 2006 the law authorizes $22.5 million in spending, 
spread over four agencies. I urge Congress to appropriate no less than 
the following funding levels through supplemental appropriations. 
Specifically, the law authorizes:

  <bullet> $8.7 million for the Federal Emergency Management Agency;

  <bullet> $3 million for the National Institute of Standards and 
        Technology at the Department of Commerce;

  <bullet> $8.7 million for the National Science Foundation; and

  <bullet> $2.1 million for the National Oceanic and Atmospheric 
        Administration.

    This legislation represents five years of work in which 
stakeholders representing a broad cross section of interests, including 
research, technology transfer, design and construction, financial 
communities, materials and systems suppliers, state, county and local 
governments and the insurance industry, all participated in crafting. 
This bill presents a consensus of all those with an interest in the 
issue and a desire to see the benefits this legislation will generate.
    The Wind Hazard Reduction Coalition represents associations and 
companies that are committed to the creation and success of the 
National Windstorm Impact Reduction Program. The Coalition shares the 
goals of the Program to significantly reduce loss of life and property 
damage in the years to come. The Coalition includes professional 
societies, research organizations, industry groups and individual 
companies with knowledge and experience in dealing with the impact of 
high winds.
    Members of the Wind Hazard Coalition worked closely with members 
and staff in the House and Senate in crafting the language contained in 
H.R. 2608, which became Pub. L. 108-360. I strongly support the results 
and believe that, if fully carried out, the new law will result in 
reduced vulnerability to high winds and lead to real and significant 
reduction in the loss of life and property. The United States currently 
sustains billions of dollars per year in property and economic loss due 
to windstorms. The Federal Government's response to such events is to 
initiate search and rescue operations, help clear the debris and 
provide financial assistance for rebuilding. With this legislation, the 
Federal Government can provide increased research funding to mobilize 
the technical expertise already available to help reduce the 
significant annual toll on casualties and property in the aftermath of 
windstorms.

Conclusion
    In the wake of this national catastrophe, we must take every 
advantage of opportunities to prevent this from happening again. 
Immediate steps include: moving forward with plans to rebuild the 
coast, our first line of defense against the storm; bold land use and 
zoning changes to discourage rebuilding in the most hazardous areas; 
and immediate adoption of new hurricane resistant construction and 
inspection requirements while permanent changes are under deliberation. 
Beyond that, Congress should immediately fund Public Law 108-360, which 
authorized the creation of the National Windstorm Impact Reduction 
Program but has not been funded to date. This program will provide 
research and technology transfer to improve building codes and 
construction practices based on the lessons learned from the recent 
hurricanes.
    Once again, thank you for the opportunity to present the views of 
the many organizations I am representing here today. I would be happy 
to answer any questions you might have.

    Senator DeMint. Mr. Curole?

 STATEMENT OF WINDELL CUROLE, GENERAL MANAGER, SOUTH LAFOURCHE 
                         LEVEE DISTRICT

    Mr. Curole. Thank you for allowing me the opportunity to 
testify concerning hurricane preparedness. My name is Windell 
Curole, General Manager of the South Lafourche Levee District.
    No area is more dependent upon the National Hurricane 
Center and its predictions than Lafourche Parish. I say that 
because we have a roadway that's only three-quarters of a foot 
above normal summertime high tide. That roadway leads to Grand 
Isle, our only inhabited barrier island in Louisiana, and also 
to Port Fourchon, which supports deep offshore oil production. 
That same road that leads to this port is the only evacuation 
route for 6,000 people who are working on offshore platforms.
    The work that the Hurricane Center performs is critical, 
and I've always appreciated their work. They are precise in 
what they expect from a storm, but they make clear the accuracy 
of their predictions and the possible variations.
    I've been indirectly advising evacuations since 1982, and, 
since 1992, directly advising all parish presidents. Training 
at the National Hurricane Center was invaluable in interpreting 
the Hurricane Center's projected storm tracks. The most 
important lesson is that projected landfall cannot be 
guaranteed. Some conditions allow for more accurate 
projections, and some atmospheric conditions make projections 
very difficult. In either case, the Hurricane Center's 
information is the basis for our actions.
    Our job on the local level is to educate people of the 
risk, direct our people from that risk, and provide the avenues 
to do so. Our goal is to try to help people understand their 
risk and to take appropriate action. In the end, it's an 
individual's decision which controls their fate. It's the 
individual who makes the decision to leave or stay. In fact, 
when you order an evacuation, you're ordering the retreat of an 
untrained army. The retreat of a trained army is a very 
difficult thing to do. We work very hard to help people 
understand that it is an individual decision, and that if you 
do not make the right decision, you will cause your family to 
suffer. Correct decisions minimize that suffering.
    Educating the individual must be central in all emergency 
preparations on a local level. The problem is to describe a 
vision of which an individual has no experience, and then have 
them move, time and again, even when the vision does not 
materialize.
    To develop that vision, I employ historical data, pictures, 
along with LIDAR and computer-generated images, to illustrate 
possible flooding and damage. Anniversaries of major storms are 
highlighted to remind us what has happened, and what could 
happen again.
    We organized a centennial commemorating the Hurricane of 
1893, which killed over 2,000 people in Louisiana. And, in 
fact, Chairman, in that same year, in Tybee Island, near 
Georgia and South Carolina, there was also a hurricane that 
killed over 2,000 people in 1893. We produced an award-winning 
play of that hurricane, which played to sold-out performances 
that left some members of the audience shaken and emotional. 
Our mission was to ensure that people do not forget the story 
or lessons from that storm.
    This past year, I strongly encouraged New Orleans 
television stations to center their hurricane-season specials 
on the 40th anniversary of Hurricane Betsy, the last powerful 
hurricane to greatly affect southeast Louisiana.
    Yet with all the videos, articles, talk shows, and 
presentations, some people will never believe, or understand, 
the extreme threat that a Category-3, -4, or -5 hurricane 
poses. That segment of the population's lack of understanding 
must also be part of emergency planning. Comprehensive 
hurricane protection is a concept which integrates hurricane 
protection levees, restoration of natural systems, hurricane 
evacuation routes, and improved building techniques for 
individuals. Resolutions by parishes and the State Concurrent 
Resolution in 1999 supports the concept of this integration of 
infrastructure, along with a reevaluation of hurricane 
projects, to provide protection for Category-4 or -5 storms.
    After Hurricane Georges in 1998, it appeared the State 
would work on that concept. But they chose to concentrate only 
on coastal restoration, instead of the broader issues.
    On the Federal level, we also had little success. 
Congressman Tauzin was able to generate committee reports 
suggesting FEMA conduct certain investigations. However, we had 
little support from FEMA, which led to no results at that time.
    We did eventually lead to positive results with the 
creation of the Southeast Louisiana Task Force. The Southeast 
Louisiana Task Force was formed after Hurricane Andrew to 
improve the coordination of local, State, and Federal agencies. 
As we watched the horror of the people who did not have the 
transportation to leave the city of New Orleans after Hurricane 
Katrina, we saw total failure. But the fact is, had it not been 
for the continued pressure of the Southeast Louisiana Task 
Force, people who had the means to leave before the storm would 
not have been able to do so.
    Evacuation studies had indicated that it would take 50 to 
72 hours to move people out of Metropolitan New Orleans. But 
hurricane track errors too great beyond 48 hours, the Task 
Force championed the reversing of interstate lanes so that 
almost all lanes were directed out of the city. The Southeast 
Louisiana Task Force, after years of trying, was successful in 
convincing the State into instituting contraflow. Before this, 
some of those people who did get out of the city for Hurricane 
Katrina would not have been able to get out in time. As bad as 
the situation was for Hurricane Katrina, it would have been 
much, much worse had it not been for the work of the Southeast 
Louisiana Task Force.
    Levees, highways, and our natural barriers protect and 
support an area which provides critical international trade, 25 
percent of the Nation's oil infrastructure, major shipbuilding, 
and the second-largest fisheries in the United States. 
Protection of these interests also protects the two million 
people who live and work there. Maintenance and improvement of 
that infrastructure is critical for the successful planning and 
execution of emergency plans which minimize the loss of life 
and property.
    Thank you.
    [The prepared statement of Mr. Curole follows:]

        Prepared Statement of Windell Curole, General Manager, 
                     South Lafourche Levee District

    Thank you for allowing me the opportunity to testify concerning 
hurricane preparedness. My name is Windell Curole, General Manager of 
the South Lafourche Levee District.
    No area is more dependant upon the Hurricane Center and its 
predictions than Lafourche Parish. I say that because we have a roadway 
that is only about three-quarters of a foot above normal summer-time 
high tide. That roadway leads to Grand Isle, our only inhabited barrier 
island in Louisiana, and also to Port Fourchon which supports deep 
offshore oil. That same road that leads to this port is the only 
evacuation route for 6,000 people who are working on offshore 
platforms.
    The work that the Hurricane Center performs is critical and I've 
always appreciated their work. They are precise on what they expect 
from a storm. They make clear the accuracy of their predictions and the 
possible variations.
    I have been indirectly advising evacuations since 1982, and since 
1992 directly advising our parish presidents. Training at the Hurricane 
Center was invaluable in interpreting the Hurricane Center's projected 
storm tracks. The most important lesson is that predicted landfall 
cannot be guaranteed. Some conditions allow for more accurate 
projections, and some atmospheric conditions make projections very 
difficult. In either case, the Hurricane Center's information is the 
basis of our actions.
    Our job on the local level is to educate people of the risk, direct 
our people from that risk, and provide the avenues to do so. Our goal 
is to try to help people understand their risk and to take appropriate 
action. In the end it is an individual's decision which controls their 
fate. It's the individual who makes the decision to leave or stay. In 
fact, when you order an evacuation, you're ordering the retreat of an 
untrained army. The retreat of a trained army is a very difficult thing 
to do. We work very hard to help people understand that it is an 
individual decision and that if you do not make the right decision, you 
will cause you family to suffer. Correct decisions minimize that 
suffering.
    Educating the individual must be central in all emergency 
preparations on the local level. The problem is to describe a vision of 
which an individual has no experience, and then have them move time and 
again, even when the vision does not materialize. To develop that 
vision, I employ historical data and pictures along with LIDAR and 
computer generated images to illustrate possible flooding and damage. 
Anniversaries of major storms are highlighted to remind us what has 
happened and what could happen again.
    We organized a centennial commemorating the hurricane of 1893 which 
killed over 2,000 people in Louisiana. We produced an award-winning 
play of that hurricane which played to sold out performances that left 
some members of the audience shaken and emotional. Our mission was to 
insure that people do not forget the story or lessons from that storm. 
This past year I strongly encouraged New Orleans television stations to 
center their hurricane season specials on the 40th anniversary of 
Hurricane Betsy, the last powerful hurricane to greatly affect 
southeast Louisiana. Yet, with all of the videos, articles, talk shows 
and presentations, some people will never believe or understand the 
extreme threat that a Category-3, -4 or -5 hurricane poses. That 
segment of the population's lack of understanding must also be part of 
emergency planning.
    Comprehensive Hurricane Protection is a concept which integrates 
hurricane protection levees, restoration of natural systems, hurricane 
evacuation routes and improved building techniques for individuals. 
Resolutions by parishes and the State Senate Concurrent Resolution in 
1999 support the concepts of this integration of infrastructure, along 
with a re-evaluation of hurricane projects to provide protection for 
Category-4 or -5 storms.
    After Hurricane Georges in 1998 it appeared the state would work on 
this concept, but they chose to concentrate only on coastal restoration 
instead of the broader issues.
    On the Federal level we also had little success. Congressman Tauzin 
was able to generate committee reports suggesting FEMA conduct certain 
investigations. However, he had little support from FEMA which led to 
no results.
    What did eventually lead to positive results was the creation of 
the Southeast Louisiana Hurricane Task Force. The Southeast Louisiana 
Hurricane Task Force was formed after Hurricane Andrew to improve the 
coordination of local, state and Federal agencies.
    As we watched the horror of the people who did not have the 
transportation to leave the city of New Orleans after Hurricane 
Katrina, we saw a total failure. But the fact is that had it not been 
for the continued pressure of the Southeast Louisiana Hurricane Task 
Force, people who had the means to leave before the storm, would not 
have been able to do so.
    Evacuation studies had indicated that it would take 50 to 72 hours 
to move people out of metropolitan New Orleans. With hurricane track 
errors too great beyond 48 hours, the task force championed the 
reversing of interstate lanes so that almost all lanes were directed 
out of the city. The Southeast Louisiana Task Force, after years of 
trying, was successful in convincing the state into instituting contra 
flow. Before this, some of those people who did get out of the city for 
Hurricane Katrina, would not have been able to get out in time. As bad 
as the situation was for Hurricane Katrina, it would have been much, 
much worse had it not been for the work of the Southeast Louisiana 
Hurricane Task Force.
    Levees, highways and our natural barriers protect and support an 
area which provides critical international trade, 25 percent of the 
Nation's oil infrastructure, major shipbuilding and the 2nd largest 
fisheries in the U.S. Protection of those interests also protects the 
2,000,000 people who live and work there.
    Maintenance and improvement of that infrastructure is critical for 
the successful planning and execution of emergency plans which minimize 
the loss of life and property.

    Senator DeMint. Thank you.
    Mr. Roberts?

          STATEMENT OF C. PATRICK ROBERTS, PRESIDENT, 
           FLORIDA ASSOCIATION OF BROADCASTERS (FAB)

    Mr. Roberts. Good afternoon, Mr. Chairman, members of the 
Committee. I'm Pat Roberts. I'm President of the Florida 
Association of Broadcasters. I'm also the Florida Chairman of 
the FCC State Emergency Communication Committee. Thank you for 
allowing me to share with you today my perspective on hurricane 
warnings and preparedness.
    Let me begin by briefly sharing some of my experiences and 
recommendations.
    First, I'd like to pay tribute to Max Mayfield, who's an 
old friend. And the people in Florida trust his judgment. I'd 
also like to say a special word for Florida's first-responders, 
under leadership of our Governor, Jeb Bush, and Craig Fugate, 
the director of Emergency Management.
    For the past 17 years, I have served on the Florida 
Emergency Response Team. I was at the Emergency Operations 
Center 3 days before Hurricane Andrew arrived in Homestead, 
Florida. Later that day, when it hit, along with Governor 
Chiles we were in Homestead to see the devastation.
    Hurricane Andrew taught Florida that local/State government 
need to be better prepared to respond to these type disasters. 
Andrew also taught us that preparedness was the responsibility 
of both the public and the private sector. As a result, for the 
past 12 years Florida has invested in training people, 
utilizing the latest technology and public disaster-
preparedness education programs.
    Those efforts have not been limited solely to hurricanes. 
Florida has taken an all-hazard approach to preparedness and 
response, and that includes hurricanes, wildfires, flooding, 
tornadoes, and also terrorist threats.
    Without the emphasis on preparedness and response that 
Florida has had over the past 12 years, our State and local 
governments, and our residents, would not have gotten through 
the four hurricanes that hit our state last year. We truly play 
as we practice, in Florida.
    Let me share just a few recommendations:
    I feel America must have a more comprehensive and cohesive 
program among Federal, State, and local governments and our 
citizens to prepare for natural disasters and terrorism. To 
accomplish that, America must better equip our cities, our 
counties, our State and Federal Government to deal with these 
type emergency. That means more training, more exercises, and 
utilizing the latest training technologies. It also means we 
need our states and counties to have state-of-the-art Emergency 
Operations Centers. The public expects a unified command, from 
the courthouse to the statehouse to the White House. We need a 
national emergency-alert system for immediate public warning 
that allows the President, our Governors, the ability to 
activate a county, a state, or the Nation.
    Currently, the EAS system is most often used in America for 
the AMBER Alert to help communities find abducted children. I 
recommend a federally funded, State-based EAS system in a 
partnership between the FCC and NOAA. Today, the only way the 
President can speak to the Nation through EAS is by utilizing 
National Weather Service.
    Most importantly, America must also prepare its citizens. I 
recommend that--an American preparedness media campaign in all 
50 states on all hazards. This would include both TV/radio, 
English, Spanish, and any other appropriate language. If you 
use the example of the Army National Guard model for an NCSA 
program involving all 50 state broadcast associations and 
Puerto Rico, the cost for an American preparedness program like 
that, based on the Florida model and the Army National Guard, 
would be in the range of $15 or $20 million. For that, you'd 
get back well over $100 million of documented air time, 
reaching every citizen in our country.
    In closing, let me share a few personal comments. 
Broadcasters stand ready to help. Radio, in the time of a 
disaster, is a lifeline to the residents of the community. They 
also partner with their local TV stations to get out the news 
and information. In the future, local TV, with multicasting, 
will be able to, before and during and after a disaster, to 
broadcast not only their regular news information over their 
regular channel, but also a channel on weather, another channel 
on related information, on how to get help, and, finally, a 
second-language channel, such as Spanish.
    During our hurricanes last year, one of many stations that 
did outstanding work is WESH, in Orlando, Florida. They not 
only broadcast, through the storms, their regular information, 
but they allowed the Telemundo station to translate it into 
Spanish, and ran it on their subchannel as well as on the 
Telemundo channel, so that everyone in the Orlando area 
received vital information.
    Last year, for the first time, we activated EAS before a 
hurricane. That led me, this year, to share with stations in 
Alabama and Mississippi what they needed to do to help their 
citizens prior to Hurricane Katrina.
    Last year, in Clearwater--last year, Clear Channel Radio, 
in Punta Gorda, lost the majority of its buildings, but it 
stayed on the air. Again this year, down in Biloxi, WLOX-TV 
lost a large portion of its facility, but it never went off the 
air, broadcasting to its community and helping save lives.
    Together, all first-responders are to be thanked and 
praised.
    I'll now be honored to answer any questions the Committee 
might have.
    [The prepared statement of Mr. Roberts follows:]

         Prepared Statement of C. Patrick Roberts, President, 
               Florida Association of Broadcasters (FAB)

    Good afternoon Mr. Chairman and members of the Committee. I am C. 
Patrick Roberts, President of the Florida Association of Broadcasters 
(FAB). I also serve as the Florida Chairman of the Federal 
Communication Commission State Emergency Communication Committee.
    Thank you for allowing me to share with you today my perspective on 
hurricane warnings and preparedness.
    Let me begin by briefly discussing the role local broadcasters' 
play when their communities are threatened, and then impacted by a 
major storm.
    As a hurricane approaches, people get most of their tracking and 
preparedness information about the storm from television. As a 
hurricane makes landfall, and in the aftermath, power goes out, our 
homes go dark, and people are without television, cable, satellite, and 
the Internet. There is limited, if any, cell and hard-wire phone 
service.
    In these circumstances, radio becomes the primary, and in many 
cases, the sole lifeline and communication tool to a community and its 
residents. In many cases the local radio stations work with local TV 
news operations and simulcast the television audio signal to provide a 
broader range of non-stop news and information to the impacted areas.
    In Hurricane Katrina, both large and small market television and 
radio stations rose to meet the challenges that the storm presented. 
The ownership of these stations ranged from small, family-owned 
businesses to major media corporations. Going beyond normal competitive 
rivalries these stations worked together to ensure that their local 
communities received critical and timely news and emergency 
information.
    I visited a number of stations in the impacted areas of Mississippi 
and saw the local news, production, engineering, and management teams 
of both radio and television stations working around the clock to help 
their communities receive the latest information on the storm and its 
aftermath.
    The coverage was non-stop, 24-hours a day and commercial free.
    What impressed me about each of the stations I visited was the 
total commitment of these broadcasters to keep their stations on the 
air and their viewers and listeners informed about their communities.
    What made that commitment even more impressive was the number of 
employees at both radio and television stations who had tragically lost 
their own homes; yet, they remained at their posts and continued to do 
their jobs. It was truly inspiring.
    My experience in Mississippi is not an isolated one. During my 
seventeen years as the President of the Florida Association of 
Broadcasters, I have observed the same level of commitment by Florida's 
broadcasters each time a major storm has hit our state.
    Furthermore, I have seen this same level of commitment from 
Florida's Emergency Management community when disasters have struck my 
home state.
    Since Hurricane Andrew devastated areas of southern Florida in 
1992, the state's Emergency Management teams have developed a unique 
and comprehensive approach to prepare the state, local governments, and 
individuals to better deal with the dangers of both man-made and 
natural disasters.
    I'm proud to say that the Florida Association of Broadcasters has 
been a part of the team to help with those efforts.
    Florida has benefited from the strong leadership of former Governor 
Lawton Chiles and current Governor Jeb Bush in the development and 
execution of the state's philosophy in dealing with Disaster 
Preparedness and Response.
    Its Emergency Management team, under the leadership of Craig 
Fugate, is trained and prepared, and continually trains and prepares.
    Hopefully, my comments on what has been developed in Florida will 
provide some insight to the Committee as you explore what the Federal 
Government, state governments, local governments, and individuals can 
do to better prepare not only for hurricanes, but for all types of 
natural and man-made hazards.
    ``Florida Prepares'' is what we call our disaster preparedness 
efforts in the Sunshine State. I encourage the Committee to review our 
Preparedness and Response systems and strategies and to recommend a 
similar approach across all fifty states. I suggest it be developed 
under the umbrella of ``America Prepares.''
    It is an idea whose time has come.
    The notion of an ``all hazards'' approach is an important one for 
the Committee to understand because, in the view of the Emergency 
Managers of Florida, the steps to prepare for, and respond to, are the 
same, regardless of the hazard.
    In Florida we do not differentiate between the different types of 
hazards that may threaten our residents and visitors.
    The developed approach is applicable to hurricanes, floods, 
tsunamis, earthquakes, tornadoes, chemical spills, a terrorist attack 
or any other hazard that threatens our communities and our citizens.
    Key components of the Florida Preparedness model could form the 
basis for an ``America Prepares'' model that would better protect our 
citizens and their property.
    Some of the key components of the Florida model are:

        1. Annual public education media campaigns. Public radio and 
        television media campaigns developed in both English and 
        Spanish to inform citizens on the necessary steps to take to 
        prepare their families and to protect their property when a 
        natural or man-made disaster threatens their community.

        2. Robust and frequent training exercises for Emergency 
        Managers, Government Officials and First Responders. These 
        exercises simulate ``real-life'' situations followed by 
        critical reviews of the actions taken. Critical after action 
        reviews for an actual event are also conducted and the 
        ``lessons learned'' are applied to future responses.

        3. An Emergency Alert System (EAS) that is a true partnership 
        among state governments, local governments, and broadcasters.

        4. A Unified Command approach wherein all of the players check 
        their egos, logos, and party affiliations at the door. The 
        result is a true team approach to respond to the needs of 
        impacted citizens.

    These are by no means the only actions that have led to the success 
that Florida has had when responding to disasters. However, they are 
the ones that I feel are most relevant for my appearance before this 
committee. The following is an elaboration on each of the key 
components.

Annual Statewide Public Education Media Campaigns
    After Hurricane Andrew, the former Director of the Florida Division 
of Emergency Management, Mr. Joseph Myers, worked with me to develop an 
ongoing Statewide Hurricane Preparedness Education Program for 
Florida's residents utilizing broadcast television and radio. The 
program has been expanded upon and revised annually under the present 
Director, Mr. Craig Fugate.
    Hurricane Andrew was a benchmark event in the history of Emergency 
Management. Federal, state, and local governments were ill equipped to 
handle this type of catastrophe and needed to rewrite the book on 
preparing for, and responding to, these types of disasters. It was also 
recognized that government could not do it all. Individuals need to 
take greater responsibility for protecting their family and their 
property. The role of Public Education was deemed a priority by the 
State of Florida to help accomplish the ``preparedness'' goal.
    During the past thirteen years, the Florida Association of 
Broadcasters has produced, distributed and monitored a series of 
television and radio spots on hurricane preparedness through its Non-
Commercial Sustaining Announcements program. The spots are closed-
captioned and produced in both English and Spanish. The messages are 
decided upon by the Division of Emergency Management (DEM) and are 
updated each year based on changing priorities of the Division.
    An example of those changing priorities occurred in 1999 when 
Hurricane Floyd threatened our state. The Division wanted to address 
the problems that occurred when a massive evacuation resulted in 
traffic gridlock that could have put the evacuees in danger had the 
storm changed its direction. Consequently, FAB produced a series of 
spots that addressed DEM's revision of its evacuation policy.
    Past and present messages include creating a family disaster 
preparedness plan, special needs preparedness plan, interior counties 
preparedness plan, preparedness plans for pets, and small business 
plans. I have provided a DVD to the Committee and its staff that 
includes a sampling of the statewide television spots produced over the 
course of the partnership between FAB and the Florida Division of 
Emergency Management. *
---------------------------------------------------------------------------
    * The information referred to has been retained in Committee files.
---------------------------------------------------------------------------
    The partnership between the Florida Division of Emergency 
Management and the Florida Association of Broadcasters is designed to 
be comprehensive, yet nimble enough to respond to an immediate need.
    A case in point occurred in the beginning of July 2003. A series of 
drownings had occurred in the Florida Panhandle that was the result of 
rip tides. With the Fourth of July weekend approaching, DEM was 
concerned that citizens were not aware that they might be at-risk.
    On the Thursday before the weekend began, FAB and its producer, 
Michael Babich, wrote, produced and distributed radio PSAs to its 
member stations throughout the Panhandle within a six-hour period. The 
entire production process, including the initial request by DEM, script 
writing and approval, the recording of narration, post-production, and 
distribution, was done electronically through e-mail and the PSAs began 
airing that Thursday evening.
    The Florida Association of Broadcasters and the Florida Division of 
Emergency Management partnership has documented over $15 million in 
radio and television airtime since the program began in 1993. This does 
not include educational campaigns independently conducted by our member 
radio and television stations in their local communities. In fact, 
almost every broadcast outlet in Florida develops their own hurricane 
preparedness campaign that builds upon the educational efforts of the 
Florida Association of Broadcasters and the Florida Division of 
Emergency Management.
    Public Education is an important component of any disaster 
preparedness effort and Florida's experiences in these efforts are 
unequalled. I am proud of the partnership between the Florida 
Association of Broadcasters and the Florida Division of Emergency 
Management and look forward to continuing our efforts to educate the 
residents of Florida on the importance of disaster preparedness.
    I urge the Committee to consider expanding our statewide public 
education efforts to a national level and to design an ``America 
Prepares'' public education program. These efforts need to be ongoing, 
not just prior to, or immediately after, a major disaster strikes.

Emergency Alert System (EAS): the Public Warning System
    Florida has the model Emergency Alert System in the Nation. The EAS 
system was upgraded and implemented after Hurricane Andrew. The Florida 
EAS has two primary entry points, one at the state Emergency Operations 
Center and a second at the Florida Department of Law Enforcement 
headquarters.
    The state Emergency Communication Committee works with state and 
local authorities, and the broadcasters, to operate the system. EAS can 
be activated statewide, regionally, or by a single county.
    For years, EAS was not used prior to a hurricane. The National 
Hurricane Center and local media warned residents. In Hurricane Andrew, 
EAS was activated to inform residents in south Dade County the location 
for food, water, and shelter after the storm.
    In 2004, EAS was activated twice in Florida before hurricanes made 
landfall. The first was when Hurricane Charley turned slightly to the 
east and headed towards Charlotte County in Southwest Florida. Max 
Mayfield notified Craig Fugate at the Florida State Emergency 
Operations Center how critical it was to alert the southwest Florida 
residents that the eye of the hurricane was heading to their coast. 
Within fifteen minutes the State Warning Point activated the EAS from 
Naples to Sarasota, in both English and Spanish, informing residents of 
the need to seek immediate shelter because they were now in the path of 
the storm.
    The second time EAS was activated during the 2004 Hurricane Season 
was during Hurricane Jeanne. The eye of the storm was very wide and 
slow moving. For years meteorologists have warned residents the eye of 
a hurricane generally takes thirty minutes to an hour to pass over an 
area. This time, due to the size and slowness of the storm, EAS was 
activated to inform residents it would take several hours for the 
hurricane eye to pass their area.
    Florida's EAS has proven to be a valuable warning tool. It is the 
only means for delivering one single message at one time on all 
televisions, radios, and cable channels. The majority of states and 
counties do not have an operational EAS system tied to their Governor, 
county management, or any state or local emergency operations center. 
It is time to do so.
    Taking this one step further, the United States needs an Emergency 
Alert System national program that can be activated by a mayor, county 
official, governor, or the President. It has a proven track record in 
Florida for saving lives and keeping the public uniformly informed.

Training and after Action Reviews
    Every disaster provides a learning opportunity for those who 
participate in the response to the event. Unfortunately, that is not 
the time to find the problems in an organization's preparedness and 
response systems. Hurricane Andrew, 9-11, and now Hurricane Katrina are 
the best examples of disasters that overwhelmed governments and 
communities in the impacted areas.
    Florida, like many states, conducts exercises and training 
throughout the year. Florida, being in the ``eye of the storm'' more 
than most, probably has the most experience of any state in responding 
to these types of disasters.
    In fact, a contingent of Florida Emergency Managers and First 
Responders has been deployed to assist the state of Mississippi in its 
response to Hurricane Katrina. After viewing those efforts firsthand, 
and getting reports from local government officials in the impacted 
areas, I can tell you that Florida's experience has been an invaluable 
resource for the Emergency Management community and people of 
Mississippi.
    I may be biased, but I think that Florida is the most advanced 
state in the country when it comes to responding to a disaster.
    That being said, it is also fair to say, from a victim's 
perspective, any government response will never be fast enough.
    With that in mind, Florida has trained and learned from experiences 
in real-life events to minimize the time it takes to reach the victims 
of these types of disasters. This was continually demonstrated during 
the 2004 Hurricane Season.
    In the words of Florida's Emergency Management Director, Craig 
Fugate, our teams ``do not wait for blue skies'' to begin the response 
to impacted communities, ``We move in as soon as it is safe for the 
first responders.''
    That is a mindset that needs to reach across all levels of response 
from the Federal to state to local governments, and to charities such 
as the Red Cross and Salvation Army.
    I realize that this is an easy statement to make; the reality of a 
situation like Katrina has proven to be more problematic.
    Nonetheless, through an increased emphasis on training and after 
action review, other federal, state, and local emergency management 
teams will be better equipped to deal with the uncertainties that 
hazards present when communities are impacted.
    Florida undergoes extensive internal reviews of the actions taken 
both during exercises and real-life events. I have previously mentioned 
some of the lessons learned from Hurricane Andrew and Hurricane Floyd. 
There are many others.
    For example, Hurricane Charley's late shift towards the east and 
into Charlotte County illustrated the need to educate the public to pay 
attention to the entire area within the ``projected path cone'' and not 
just the ``straight-line'' path.
    One lesson learned from Hurricane Frances was that supplies such as 
ice and water need to be positioned in multiple areas around the 
peninsula of Florida, not just north or south. Trucks with supplies 
positioned north of the storm during Frances could not make their way 
to the impacted areas until the slow moving storm passed through, 
thereby delaying the state's response. DEM corrected this when 
Hurricane Jeanne came through the same area a month later.
    Actual events like those mentioned above can never be truly 
duplicated in training exercises. However, training tools such as Table 
Top exercises, Full Scale Field exercises and other training methods 
are invaluable when response teams are called upon to respond to actual 
events.
    FAB has produced a number of video and multi-media training tools 
for the Florida DEM and has seen firsthand the results of Florida's 
training efforts.
    Through the use of training tools, Florida has demonstrated how 
effective training and after action reviews of real-life events are 
essential to develop and sustain a first-class response team.
    These efforts must be valued by all levels of government, paid 
attention to, and utilized when real disasters strike.
A Unified Command Approach
    When Hurricane Charley left a trail of damage across the state of 
Florida in 2004, the decision was made by the Florida Division of 
Emergency Management and the Federal Emergency Management Association 
(FEMA) to form a Unified Command.
    This meant all state and Federal assets in support of the impacted 
counties were now joined together and would be known as ``Charley 
Command.''
    No longer would the supplies and materials being brought into the 
impacted area be identified as FEMA or state assets.
    As a result, the mission of the response teams became simple and 
clear.
    At a press conference in Punta Gorda, Florida two days after 
landfall, Craig Fugate, the Florida Division of Emergency Management 
Director stated that by quickly combining state and Federal assets, 
``our only mission in life now is to meet the needs of the disaster 
victims in the communities of this storm.''
    Consequently, politics and turf battles were minimized and the 
focus remained on the victims. The teamwork that was built among the 
local, state and Federal response teams was apparent in the response to 
each of the four storms. Building that team concept, obviously, did not 
happen overnight. But the quality of the response that took place 
during last year's hurricane season illustrates how important it is to 
develop a unified team that understands it missions and maintains it 
focus on the victims.
    During the 2004 Hurricane season, FAB had camera crews in the State 
Emergency Operations Center in Tallahassee, the National Hurricane 
Center in Miami, and in the impacted areas throughout the state. The 
Florida Broadcasters produced an hour-long documentary entitled ``The 
Hurricanes of 2004,'' on the coordination between local and state 
emergency managers, FEMA, and the National Hurricane Center. I have 
provided a DVD of the documentary to the Committee and the staff.
    I encourage you to view the DVD and see for yourself how Florida 
responded to an extremely difficult set of challenges. I am not 
implying everything throughout the responses to the four storms always 
went smoothly. It did not. But the unified approach worked and the 
citizens of Florida were served in their time of need.
    Building the kind of teamwork I described also involves building a 
level of trust that people will do their job and will not let 
bureaucracy get in the way of helping victims.
    I recently faced that type of situation as Katrina approached the 
Gulf Coast.
    As I mentioned previously, when a disaster strikes most local 
broadcast stations provide non-stop, commercial free coverage for the 
duration of the emergency. This includes television stations 
simulcasting over radio stations. On the Sunday before Katrina made 
landfall I spoke with broadcast engineers in the Florida Panhandle and 
in the Pensacola-Mobile market. They shared my concern that Katrina 
would likely take out all broadcast television and radio stations in 
southern Mississippi and southern Louisiana.
    Based upon my experience with Hurricane Andrew and in my role as 
Florida's Chairman of the FCC State Emergency Communications Committee, 
I advised Mobile-Pensacola stations to increase power after the 
hurricane made landfall to provide emergency information to citizens in 
the impacted area where broadcast service was inadequate.
    I also advised representatives of a group of southern Mississippi 
radio stations that if they were able to stay on the air they could 
increase their power to provide emergency information to areas where 
other stations had been damaged and gone off the air.
    I did not wait for formal FCC approval to take that step.
    My experience in these kinds of disasters led me to bypass official 
channels and then to ask for ``forgiveness'' later. Fortunately, the 
FCC Chairman's office and Senior Staff agreed with my advice, and 
encouraged me to take whatever steps I could devise to keep 
broadcasters on the air.
    I should note that the FCC and its staff have been proactive in 
working with broadcast stations to ensure that emergency information is 
available to all areas impacted by Katrina.
    The reason I mention this is that in times of major disasters, 
people have to make decisions that may not always follow the proper 
procedures or protocols.
    The intent is not to be reckless or a ``loose cannon'', but to do 
what is best for the citizens in the impacted communities based on an 
individual's or a team's experience. Florida has learned this lesson 
well and it was continually demonstrated last year during the four 
hurricanes.

Recommendations for the Future
    Over the past thirteen years I have traveled to every major 
disaster that has struck the state of Florida. I also recently visited 
the Gulf Coast of Mississippi to assist local broadcasters and view the 
damage to those impacted communities. My heart goes out to the 
residents of Mississippi and Louisiana. It is a disaster unlike any I 
have ever seen.
    A comment was made that the damage in those areas was of ``biblical 
proportions''. It is an assessment with which I agree. Unfortunately, 
it will not be the last time a disaster of this magnitude strikes the 
United States.
    With that in mind, I would like to offer the Committee the 
following recommendations for your consideration, trusting that when 
future disasters strike, our government, our communities, and our 
citizens will be better prepared to respond to all types of disasters.
Public Preparedness Education
    Our Nation must move forward with plans, beginning with our 
families and our neighbors, moving to the courthouse, then to the state 
house and ultimately, to the White House. ``America Prepares'' must be 
our focus.
    A nationwide ``America Prepares'' Campaign would encourage and help 
each individual, family, special needs person, small business and 
others in our country to develop and implement a disaster preparedness 
plan.
    To do so, we must launch a major nationwide public education 
disaster preparedness campaign. The National Association of 
Broadcasters and, more importantly, the State Broadcast Associations in 
all fifty states and Puerto Rico who have successful Non-Commercial 
Sustaining Announcements programs are ready to help.
    Utilizing the network of State Associations allows for a more 
regional approach to help citizens prepare for the different types of 
disasters that affect different parts of our country. A regional 
approach also encourages more local and state involvement between 
broadcasters and the Emergency Management community. This approach has 
worked in Florida and should be duplicated nationwide.
    An ``America Prepares'' Public Education Disaster Preparedness 
Campaign would include:

  <bullet> Content with specific information for people to develop and 
        implement a Family Disaster Preparedness Plan

  <bullet> Fifteen, twenty and thirty second radio and television spots

  <bullet> Spots produced in English/Spanish/other

  <bullet> Spots closed captioned for the hearing impaired

Improving the Emergency Alert System (EAS)
    Along with better preparing our citizens we must also improve and 
expand the current Emergency Alert System (EAS). In Florida, EAS can be 
activated at the county and state level. A national EAS system is 
needed which can be activated at the Federal Emergency Operations 
Center and at the White House.
    It is important to remember that in the impacted areas, radio and 
television partners are the lifelines to the affected areas--they are 
the backbone of the EAS system.

Priority Fuel Status for Broadcasters
    When power is lost and broadcasters are on generator power, radio 
stations simulcast television programming so citizens can stay 
informed. To maintain that lifeline to impacted communities I strongly 
urge the Committee to consider recommending priority status for fuel 
allocations to all radio and television stations, particularly the two 
primary EAS radio stations in the local operational areas where the 
disaster strikes.
    During Hurricane Katrina there were a number of instances where 
radio stations were in danger of going ``dark'' because they were on 
generator power and running out of fuel. Local broadcasters play a 
vital role in communicating information to residents when a disaster 
strikes and steps need to be taken to ensure that they remain on the 
air particularly when, as was seen during Katrina, the initial response 
is delayed.
    It should also be noted that as we continue to move into the age of 
Digital Television, broadcasters will be able to expand the 
informational services they provide to impacted citizens. When future 
disasters strike, television stations will always provide local news 
coverage, but through ``multicasting'' they will also be able to 
provide even more information to their viewers.
    As an example, one sub-channel will be devoted entirely to weather 
information; another sub-channel would broadcast in Spanish; another 
sub-channel would provide detailed preparedness information. Citizens 
will have more information available to them and will be able to better 
assess their risks and vulnerability. It is critical that broadcasters, 
after health care and law enforcement, have priority status for fuel 
allocations.

Better Training Leads to Better Teamwork
    Training is another area that needs review. Florida's systems of 
preparedness and response are perhaps the best in the country and 
should be reviewed by this committee as a model for other states. The 
Florida Association of Broadcasters, over the years, has produced 
enough training materials for the Florida Division of Emergency 
Management to realize the effects of an increased emphasis in this 
area. I believe in the concept ``you play like you practice'' thus 
witnessing, firsthand, positive results when training is a priority.
    Utilizing the latest technology and advancements in training theory 
can be an effective and engaging way to train Emergency Managers and 
First Responders to be better prepared to serve our citizens.
    Better training also leads to better teamwork. Some of the 
challenges on the Gulf Coast, particularly in New Orleans, were 
magnified due to the confusion of roles among the Federal, state, and 
local response teams. I cannot emphasize this strongly enough--a 
response to a disaster without a unified team approach is another 
disaster in itself.
    Florida has invested a lot of time, effort and money developing 
partnerships among different state and local agencies, the Florida 
National Guard, charities, and the National Hurricane Center. The 
results of those efforts, while not always perfect, have led to a focus 
on serving the citizens of the state which is the ultimate goal of any 
response.
    Recognizing the importance of unified teamwork, I urge the 
Committee to resist any attempt to privatize the National Weather 
Service. It is critical to have qualified, experienced, independent 
meteorologists. The chance cannot be taken for profit to replace 
product or for personal appearance to replace experience.
    The National Hurricane Center is an integral part of the Florida 
team; to take any steps altering this relationship is, in my opinion, a 
serious mistake and not worthy of serious consideration.

Conclusion
    My comments are designed to improve our national efforts in 
responding to disasters of all kinds, and it is my desire this 
committee will consider my thoughts and recommendations in the spirit 
in which they are offered.
    I appreciate the opportunity to come before this committee today. 
Our world is changing dramatically and unfortunately, disasters have 
become somewhat of a way of life for the citizens of the United States. 
Therefore, Americans must be better prepared to handle the challenges 
when disasters strike.
    I thank the Committee for the work they are doing, I offer my help 
to prepare the citizens of the United States for any future disasters, 
and now, I am honored to answer any questions the Committee may have at 
this time.

                 Florida's Emergency Alert System (EAS)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

I. Introduction
    When the Emergency Broadcast System (EBS) was first introduced in 
the 1960s its scope was limited: warn the population of the threat of 
nuclear attack. Through the years, the EBS became a conduit of passing 
on life-saving weather information, but the technology became 
antiquated. Because digital technology was becoming more reliable, the 
FCC changed the EBS into the Emergency Alert System (EAS). The EAS 
would mirror the EBS, but provide a more dependable, bottom-up approach 
in providing emergency messages. National activations, the only time 
government can override programming, remains the same. However, state 
and local emergency management officials and broadcasters may decide 
what messages should be aired to the public. The EAS brings in 
technology that was uncommon in the 60s--satellite communications, 
cable television, paging systems, and cellular telephones. It is 
envisioned the public will quickly grow accustomed to hearing the 
shortened emergency message, and then tune to their regular news source 
for the protective action information.
    Each year Florida is impacted by many devastating emergency and 
disaster events requiring the immediate alerting of citizens and 
visitors providing them with an opportunity to protect themselves and, 
time permitting, their property. The Emergency Alert System is an 
invaluable tool that will help prevent the loss of Florida's most 
precious resources--its people.

II. Purpose
    The purpose of the Florida EAS Plan is to put in place a system for 
emergency officials to use to announce or transmit an emergency alert 
to the potentially impacted population.

III. Authorities and References
    Title 47 U.S.C. 151, 154(i) and (o), 303(r), 524(g) and 606; and 47 
CFR, Part 11, Federal Communications Commission Rules and Regulations, 
Emergency Alert System (EAS) as it pertains to day-to-day emergency 
operations. Note: 47 CFR, Part 11, was amended May 16, 2002. Portions 
of this state plan have been updated to incorporate the changes.
    All operations of the Emergency Alert System are in accordance with 
Subpart G of Part 73, FCC Regulations (Title 47, Code of Federal 
Regulations; The Federal Communications Commission's ``EAS Checklist'' 
). This plan is consistent with the provisions of the rules and 
regulations of the Federal Communications Commission (FCC) and is 
considered to be a supplement to the National Emergency Alert System 
Plan.
    NUREG 0654, Federal Emergency Management Agency, establishes 
emergency notification requirements for Nuclear Power Plants.

IV. Plan Implementation and Maintenance
    The Florida Emergency Alert System Operational Plan is prepared by 
the State Emergency Communications Committee in conjunction with the 
Florida Division of Emergency Management and is based on 
recommendations from state and county emergency management officials, 
National Weather Service (NWS), and the broadcast industry. The 
responsibility of administering this Plan rests with the members of the 
Florida State Emergency Communications Committee (SECC).
    This plan supersedes the previous plans for the State of Florida 
Emergency Broadcast System effective June 1, 2002.
    This Plan should be reviewed at least annually, after each 
activation of the EAS, or as otherwise needed. The Plan may be amended 
or modified by a majority vote of the State Emergency Communications 
Committee.
    Acceptance of or participation in the Plan shall not be deemed as a 
relinquishment of program control or to prohibit a broadcast licensee 
from exercising independent discretion and responsibility in an 
emergency situation. Broadcast stations and cable systems originating 
EAS emergency communications shall be deemed to have conferred 
rebroadcast authority. The concept of management of each broadcast 
station and cable system to exercise discretion regarding the broadcast 
of emergency information and instructions to the public is provided by 
the FCC Rules and Regulations.

V. Concept of Operations

A. Planning Assumptions and Situation
    1. Coordination of the Emergency Alert System is the joint 
responsibility of the State Emergency Communications Committee, 
Operational Area Committees, National Weather Service, and Florida's 
Emergency Management community.
    2. This Plan shall be used as a guide for the activation of the 
Emergency Alert System; the specific event situation may require 
modification of the system.
    3. The success of the EAS depends solely upon the cooperation among 
the broadcast industry, cable television industry, National Weather 
Service, and emergency management officials to receive, broadcast, and 
re-broadcast emergency messages.
    4. This Plan must reflect the philosophy and content of the State's 
Comprehensive Emergency Response Plan.
    5. This Plan must be consistent with the EAS process outlined in 
the State's Nuclear Power Plant Plans.
    6. This Plan shall be utilized regardless of emergency/disaster 
event type.
    7. Each Operational Area Emergency Alert System Plan must be 
consistent with the philosophy of this Plan.
    8. This Plan assumes all participants have been trained in the 
activation of the EAS.
    9. The State Emergency Communications Committee recognizes that 
broadcasters rely on ``air time'' use to maintain business continuity.

B. Operational Objectives
    The EAS program is formulated around two distinct time frames: 
Preparedness and Response. Preparedness being activities that should be 
implemented prior to the initiation of the EAS. The Response phase is 
the real time activation of EAS. The following Operational Objectives 
must be accomplished to comply with the FCC EAS regulations and to put 
in place an EAS program to successfully alert Florida's citizens and 
visitors.

Preparedness Objectives
    Objective 1: Broadcasters, and State and Local Emergency Managers 
must become familiar with the Emergency Alert System.
    Objective 2: Local Primary 1 and 2 Station Broadcasters, and State 
and Local Emergency Managers must conduct or participate in the 
Required Weekly Test (RWT) of the Emergency Alert System as established 
by the Operational Area Committee Plan.
    Objective 3: Local Primary 1 and 2 Station Broadcasters, and State 
and Local Emergency Managers must conduct or participate in Required 
Monthly Test (RMT) of the Emergency Alert System as established by the 
Division of Emergency Management.
    Objective 4: Operational Area Committee shall coordinate activities 
of the Emergency Alert System with broadcasters, National Weather 
Service, and local and state emergency management agencies.
    Objective 5: Local Primary 1 and 2 Station Broadcasters participate 
in exercises with local and state emergency management agencies.
    Objective 6: Local Primary 1 and 2 Station Broadcasters, 
Operational Area Committees, and Local and State Emergency Managers 
must orient the public in the use of the Emergency Alert System.

Response Objectives
    Objective 1: National Weather Service or Local or State Emergency 
Management shall activate the system as quickly as possible upon 
becoming aware of an emergency/disaster event.
    Objective 2: Local Primary 1(LP 1) stations and Local Primary 2 (LP 
2) stations must continuously monitor a minimum of two EAS sources.
    Objective 3: Broadcasters, and State and Local Emergency Managers 
should participate in and support the use of the Emergency Alert System 
during real events.
    Objective 4: Broadcasters, and State and Local Emergency Managers 
should critique the use of the Emergency Alert System after real 
events.
    Objective 5: State Emergency Communications Committee and Operation 
Area Committees shall modify State and Operational Area EAS Plans based 
on the results of real-time EAS activations.

C. EAS Priorities
    The following are EAS priorities as set forth in the FCC Rules and 
Regulations: A national activation of the EAS for a Presidential 
message with the Event code EAN as specified in Sec. 11.31 must take 
priority over any other message and preempt it if it is in progress.

        1. EAS participants should transmit other EAS messages in the 
        following order: (1) Local Area Messages; (2) State Messages; 
        (3) National Information Center (NIC) Messages.

        2. Key EAS sources (NP, LP, SP and SR) and Participating 
        National (PN) that remain on the air during a National 
        emergency must carry Presidential Messages ``live'' at the time 
        of transmission or immediately upon receipt. Activation of the 
        National level EAS must preempt State and Local Area EAS 
        operation.

        3. During a national emergency, the radio and television 
        broadcast network program distribution facilities must be 
        reserved exclusively for distribution of Presidential Messages. 
        NIC messages received from national networks that are not 
        broadcast at the time of original transmission must be recorded 
        locally by LP sources for transmission at the earliest 
        opportunity consistent with the message priorities in paragraph 
        (1) of this section.

D. Assignment of Responsibilities

1. The State of Florida Emergency Communications Committee
    The FCC appoints the SECC Chair and Vice Chair. SECC members 
include the Chairs and Vice Chairs of the operational area emergency 
communications committees and other voluntary members appointed by the 
SECC Chair. The State Emergency Communications Committee is responsible 
for:

        a. Overseeing the functionality Florida Emergency Alert System.
        b. Reviewing operational area plans.
        c. Promoting the EAS with Florida Broadcasters.

2. Local Area Emergency Communications Committees
    The State of Florida is divided into 12 major EAS Operational Areas 
based on the broadcast industry's Audience of Dominant Influence (ADI). 
The ADIs are recognized by the Federal Communications Commission. The 
operational area committee and vice-chair are appointed by the FCC. 
Committee members are appointed on a voluntary basis by the Operational 
Area committee chair. The Operational Area Committees serve as sub-
committees of the State Emergency Communications Committee.
    However, geographic or demographic influences have created ``sub'' 
areas that are recognized by the Operational Area and State Emergency 
Communications Committees. The Palm Beach Area is subdivided into 10-A 
and 10-B where ``10-A'' serves the northern 2/3 area that includes St. 
Lucie, Indian River and Okeechobee counties. ``10-B'' serves the 
southern1/3 area that includes Palm Beach, Martin and St. Lucie 
counties. The Miami-Dade Area is subdivided into 11-A and 11-B where 
``11-A'' serves the English speaking population and ``11-B'' serves the 
Hispanic population. The Key West Area is divided into 12-A (Upper 
Keys) and 12-B (Lower Keys).
    The Operational Area Committees are responsible for:

        a. Overseeing the Operational Area Emergency Alert System.

        b. Developing and maintaining operational area plans.

        c. Promoting the EAS with local Emergency Management Programs 
        and Broadcasters.

        d. Participating with the State Emergency Communications 
        Committee.

        e. Orientating the public to the EAS program.

3. Division of Emergency Management
    The Florida Division of Emergency Management is the State Primary 
(SP) station broadcasting emergency alert messages and is a source of 
EAS State messages. The SP is responsible for monitoring the National 
Weather Service Warning and Forecast Offices (WFO) and county emergency 
management programs for emergency messages. The SP may assist with 
either a single or multiple county EAS message activation. 
Additionally, SP messages may originate from the Governor or a 
designated representative in the State Emergency Operating Center 
(EOC). Messages are sent via the State Relay Network. The Division has 
developed and installed a statewide satellite system (ESATCOM) which 
will serve as the basis of the EAS communication network. An ESATCOM 
antennae is (or will be) placed at each LP1 and LP2 station, each NWS 
WFO, county EM and State EM locations. The ESATCOM is a secure system 
that requires no authentication code. If the ESATCOM is unavailable, 
contact will be made via commercial telephone lines and the 
authentication process must be implemented. As the State Primary (SP) 
for Florida, the Division of Emergency Management responsibilities are 
to:

        a. Assist the State Communications Committee with EAS program 
        activities.

        b. Conduct the required monthly testing of the EAS.

        c. Maintain operational capability to provide immediate 
        response to emergency/disaster events.

        d. Maintain the ESATCOM system for immediate broadcast of EAS 
        messages.

        e. Immediately activate the EAS upon becoming aware of an 
        emergency/disaster event.

        f. Orient the public to the EAS program.

4. Local Primary Station 1
    Local Primary 1(LP1) radio station (AM or FM) is the source of EAS 
Operational Area messages. An LP1 source is responsible for 
coordinating the broadcast of emergency messages from sources such as 
the NWS or local emergency management offices or SP as specified in its 
EAS Operational Area Plan. If the LP1 is unable to carry out this 
function, other sources in the Operational Area may be assigned the 
responsibility as indicated in State and Local Area Plans. The Local 
Primary Station 1 responsibilities are to:

        a. Continuously monitor a minimum of two sources (SP and local 
        emergency management) of emergency information.

        b. Maintain an operational readiness state.

        c. Participate with the Operational Area Committee to maintain 
        and enhance the EAS Plan.

        d. Conduct the Required Weekly and Monthly tests as outlined in 
        CFR 47 Part 11.

        e. Orient the public to the EAS program.

5. Local Primary Station 2
    Local Primary 2 (LP) is the Operational Area's second source of the 
EAS message with the responsibility for monitoring the LP1 station and 
immediately rebroadcasting the emergency messages. Just as the LP1, LP2 
stations monitor the National Weather Service, local emergency 
management programs and, when available, the State Primary station. The 
Local Primary Station 2 responsibilities are to:

        a. Continuously monitor the LP 1 and, at least, one additional 
        source of emergency information.

        b. Maintain an operational readiness state.

        c. Participate with the Operational Area Committee to maintain 
        and enhance the EAS Plan.

        d. Conduct the Required Weekly and Month tests as outlined in 
        CFR 47 Part 11.

        e. Orient the public to the EAS program.

6. Local Emergency Management
    It is the inherent responsibility of a local emergency management 
program to alert citizens to hazardous or disaster events. The EAS is 
the primary mechanism for immediate notification.
    The Local Emergency Management Program responsibilities are to:

        a. Assist the Operational Area Committee with EAS program 
        activities.

        b. Maintain operational capability to provide immediate 
        response to emergency/disaster events.

        c. Upon becoming aware of an emergency/disaster event, 
        immediately activate the EAS.

        d. Maintain an operational communications link with the 
        Operational Area LP1 and LP2 and SP stations.

        e. Orient the public to the EAS program.

7. National Weather Service
    The National Weather Service is responsible for continuously 
monitoring and analyzing weather systems and issuing severe weather 
warnings and watches. The National Weather Service coordinates with 
state and local emergency management offices to ensure a smooth flow of 
information during operational events.
    The National Weather Service responsibilities are to:

        a. Assist the Operational Area Committee with EAS program 
        activities.

        b. Maintain operational capability to provide immediate 
        response to emergency/disaster events.

        c. Maintain an operational communications link with the 
        Operational Area LP1 and LP2 and SP stations.

        d. Disseminate all warnings and weather emergency messages 
        through the link for EAS activation.

        e. Orient the public to the EAS program.

8. State Relay Network
    The State Relay Network is composed of State Relay sources, leased 
common carriers communications facilities or any other available 
communications facilities. The Network distributes the State EAS 
message originated by the Governor or designated official, and serve as 
the Presidential Entry Point.

9. Federal Communications Commission (FCC)
    The FCC is the Federal Agency responsible for the oversight and 
coordination of all radio, television, and cable television broadcast 
within the Untied States. This includes the assessment and maintenance 
of rules and regulations governing the Emergency Alert System. The FCC, 
also, provides support (technical assistance) to the State Emergency 
Communications Committee and operational area committees.

E. Emergency Alert System Process
    The EAS is activated to warn a potentially impacted populace of an 
impending or occurring emergency/disaster event regardless of type 
(weather or other natural hazard, technological hazard, or terrorism). 
One or more of three agencies may activate EAS, as seen in Figure 1. 
Conceptually, the following flow chart and steps depict the EAS 
process.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    1. An emergency or disaster event occurs or is impending, which 
requires the immediate alerting of people in the potentially impacted 
area.
    2. An EAS activation is initiated by the County Emergency 
Management Coordinator (or National Weather Service or State Division 
of Emergency Management). DEM may be required in some cases to assist a 
particular county in their activation of the EAS process.
    In the event of emergencies or disasters (hazardous materials, 
terrorist event, tornadoes, etc.) local emergency managers have the 
authority and must immediately advise the population of the dangerous 
situation by communicating directly with the Local Primary 1 (LP1) 
station(s).
    When a significant weather system covers a large portion of the 
state, more than one NWS Forecast Office may be required to activate 
EAS. This situation necessitates close coordination among all affected 
NWS Offices from the perspective of forecast continuity and EAS 
activation. Once determined that severe weather will impact the State, 
the NWS issues appropriate watches or warnings. However, it is 
important to note that the NWS is limited to the broadcast of only 
Civil Emergency EAS messages via the National Oceanic and Atmospheric 
Administration (NOAA) Weather Radio System.
    In the instance that an emergency or disaster event (technological 
or terrorism) impacts Florida on a regional or statewide basis, the 
State Division of Emergency Management (DEM) must activate EAS to warn 
citizens.
    3. The EAS message is transmitted to the Local Primary 1 Station by 
local emergency management (or NWS or SP) for immediate broadcast.
    4. The EAS message is received by the LP 1 and is recorded or 
developed (by completing pre-scripted formats) prior to broadcast.
    5. Recorded messages are re-broadcast within seconds. The manually 
received EAS message must be recorded then re-broadcast or announced 
directly to the broadcast audience. Staffed stations have the option of 
first receiving the message, and activating EAS at the next break 
(depending of the severity of the event).
    6. Relay Stations receive and re-broadcast the EAS message.
    7. The general public receives the EAS message.
    8. The public reacts by tuning-in for additional information, as 
promised.
    9. Follow-up emergency public information is broadcast.
    10. The public takes protective action during the emergency/
disaster event.

F. Summary
    In summary, the success of the State EAS is contingent upon:

  <bullet> The ability of all EAS partners (radio, television, and 
        cable broadcasters, Florida's Emergency Management community, 
        and National Weather Service) to understand and carry-out their 
        responsibilities;

  <bullet> The State Division of Emergency Management ESATCOM system to 
        function optimally;

  <bullet> The SECC to aggressively coordinate EAS activities;

  <bullet> The Area Emergency Committee orienting the public and 
        participating in exercises;

  <bullet> The public to understand and heed emergency alerting and 
        instructions.

                       Approvals and Concurrences

    C. Patrick Roberts, Broadcast Chair, State Emergency Communications 
Committee.

    David Solomon, Chief, Enforcement Bureau, Federal Communications 
Commission.

    Joseph F. Myers, Director, Florida Department of Community Affairs, 
Division of Emergency Management.

    Robert Goree, State Warning Meteorologist, National Weather Service 
(Representing all Florida NWS Offices).

    Senator DeMint. Thank you.
    I will yield to Senator Vitter for an opening statement.

                STATEMENT OF HON. DAVID VITTER, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Vitter. Thank you, Mr. Chairman. And I'm sorry I 
was running late. It was because of other Katrina work. But, 
thank you for holding this hearing. Thanks to all of the folks 
testifying before the Committee.
    Now, Mr. Chairman, at your June 26th hearing on hurricane 
prediction, I gave an opening statement describing a worst-case 
scenario, the hypothetical situation of a major hurricane 
making a direct hit on St. Bernard and Plaquemines Parishes in 
the city of New Orleans. We used posters showing the National 
Weather Service's prediction of innundation in these areas. 
Computer models showed up to 18 feet of water in parts of the 
city of New Orleans.
    At that hearing, I expressed my frustrations with every 
level of government's policy of basically being reactive to 
disasters, instead of proactive. And my exact quote was, ``We 
can spend millions now preparing for a disaster, or we can 
spend billions, later, responding to a disaster.'' Finally, I 
said, ``It's not if we are hit by a hurricane, but when the 
disaster occurs.''
    Well, Mr. Chairman, we now know the ``when.'' August 29, 2 
months, to the day, following that hearing. And, unfortunately, 
all of those predictions and SLOSH models turned out to be 
true.
    What's most frustrating is, this did not have to happen. It 
didn't have to be this way. Unlike September 11 or the tsunami, 
to some extent, there was really no element of surprise here. 
This wasn't just predictable, it was predicted, many times 
over, in part, by these fine folks before us.
    There has been an extraordinary amount of finger-pointing 
and partisanship since Katrina. In all of this political 
posturing, some very bright lights have been ignored, and we 
have some before us today.
    I want to thank Director Max Mayfield and his team at the 
National Hurricane Center. Because of their great work, we knew 
pretty much exactly where Katrina was going to make landfall, 
56 hours before the storm came ashore. And that is astounding, 
and that's great progress over the last several decades. That's 
enough time to drive from New Orleans to New York twice, with a 
good night's sleep both times.
    And, Director Mayfield, as you know, hundreds of thousands 
of Louisianans did load up their families and evacuate. So, 
thank you for giving them the information that let them do 
that.
    Another bright light here today is Marc Levitan, of LSU 
Hurricane Center. Marc's team provided data predicting that the 
levees on Lake Pontchartrain would be topped, a full 36 hours 
in advance of the storm. New Orleans is a bowl. And, of course, 
topped levee means widespread flooding.
    Another witness here today, Windell Curole, has been 
expressing his concerns about our situation in preparedness for 
years. Windell brought this to our attention and helped 
Congress design the ongoing hurricane protection evaluation 
currently underway by the Corps of Engineers.
    But, again, what's most frustrating is, it really didn't 
have to happen this way. I hope we understand that, and 
remember that, as we move from immediate relief to recovery. 
And I also hope we fully understand why we need to mount this 
reconstruction and recovery. It's not a matter of simply doing 
good by the citizens of Louisiana; it's a matter of doing the 
smart thing for the entire country, both in the reconstruction 
effort and in making sure we're better prepared in the future.
    Again, we can't afford not to rebuild, and this is the 
smart thing to do for the country. And it's not just a matter 
for Louisiana or Mississippi or Alabama. The ports between 
Baton Rouge and New Orleans comprise the largest port system in 
the world. We provide 36 states with maritime commerce. 
Midwestern farmers depend on our ports and waterways to get 
well over 70 percent of their crops to market. Oil and gas, 
Louisiana and our associated infrastructure provides 20 percent 
of our Nation's energy. That has provided $140 billion to the 
U.S. Treasury in the form of energy royalties. And our State of 
Louisiana also has 16 percent of the Nation's refining 
capacity. Louisiana provides up to 30 percent of the domestic 
seafood consumed in this country, and much of the ecosystem and 
fishing fleet was destroyed.
    So, I know we will rebuild, as a national need as well as a 
priority for my State.
    I thank you, Mr. Chairman, for all of your leadership, and 
I look forward to a good continuation of our hearing from 2 
months ago.
    Senator DeMint. Thank you, Senator Vitter. And I know the 
entire Senate, as well as the whole country, joins me in just 
telling you how sorry we are what happened to your State and 
your friends and family. And we will support you in the 
recovery effort.
    As we sit here, Hurricane Rita is now at Category-2 status, 
and, the last I saw on some of the predictions, headed toward 
Texas. So, we've got another storm to test out our models, 
unfortunately.
    Chairman Stevens, would you like to begin our questioning?
    The Chairman. I really would. And I thank you very much, 
because I do have to move on.
    I join all of you in thanking Director Mayfield and all of 
those who have supported us on this effort.
    You know, I've got to be a little provincial, myself. One 
of the reasons that I decided we should have a subcommittee 
dealing with disaster prediction and prevention was that, the 
first typhoon in the Arctic, that we know of--in 2003--it 
touched--almost touched Point Barrow.
    You're fortunate, where you all live, because you have the 
really intensive prediction. We don't have it up where are, on 
the northwest Arctic coast.
    But I do want to ask, and particularly with regard to 
this--Mr. Mayfield, we've been reading, all of us, about the 
connection between this increased hurricane activity and global 
warming--are you ready to comment about that at all? My 
scientists in Alaska tell me that the connection is not really 
made yet. Do you have an opinion?
    Mr. Mayfield. I do, Senator. And there are--you know, this 
is certainly a hot topic. And I--you know, I've been in 
meteorology for 35 years now, and I--from my perspective here, 
we have cycles. And, in regard to hurricanes, there are cycles 
of active periods and then inactive periods. And, for example, 
the 1940s, 1950s, and 1960s were very, very active, lots of 
hurricanes, lots of major hurricanes; and then the 1970s, 1980s 
and early 1990s, the numbers really dropped down. And then in 
1995, it's just like somebody had threw a switch here, and 
we've had a lot more hurricanes--not a record number of major 
hurricanes, but close. We've had a lot of activity again. And 
the research meteorologists tell us that we're in for another 
10 or 20 years, or more, of this active period here.
    Without invoking global warming, I think that the--just the 
natural variability alone is what this can be attributed to. 
And I think the important thing here is that, even without 
invoking global warming, we need to make sure that we get our 
country prepared for what we think will be another 10 or 20 
years of active hurricane activity.
    The Chairman. Thank you very much.
    Mr. Roberts, Senator Inouye and I have been working very 
closely with Senator DeMint and Senator Nelson, getting ready 
to put in a bill that deals with a new National Alert System. 
We hope that we'll get bipartisan support, and active support, 
from the whole Congress on that. I want to thank you for what 
you've done, and the broadcasters.
    Let me ask this. The Weather Bureau has a radio that is 
quite useful to pilots. I wonder if we ought not to see if we 
couldn't get that kind of a radio back into the average 
family's hands. I come from the generation when we only had 
radio. And we had a National Alert System. And we had it tested 
about every 2 weeks, as I recall. Now everybody has cell phones 
or computers, that they're using for communication. We don't 
have a uniform mechanism to contact our people. And what do you 
think about that, should we find some way to go back to a 
uniform--it's one thing to have a uniform alert system, it's 
another thing to make sure that people have the facilities to 
get that. This alert system we're working on, we'll try to fold 
in all the means of communication. But what are you and the 
broadcasters saying about that?
    Mr. Roberts. Well, as--Mr. Chairman, as you know, broadcast 
stations have been somewhat frustrated. Every TV and radio 
station in this country has EAS equipment. Now, in Florida, 
after Hurricane Andrew, we funded a statewide EAS system. Our 
Governor has two entry points. We have two primary stations in 
every operational area. Every county has operational equipment.
    Unfortunately, the country doesn't have that. Now, 
fortunately, after 9/11, Reynold Hoover worked with NOAA and 
uses the National Weather Service, like the NOAA radios, but 
he's now able--the National Weather Service is the only Federal 
agency that can activate every single EAS monitor at every 
radio station, every TV station, and every cable outlet. So--
and I think it would be great if we add the cellular world, 
Internet--I mean, it's a world--it's the world where we're 
going.
    But I would agree with you, on radio. After the disaster, 
9/11, cell phones didn't work within about an hour, because 
they all got jammed. After a hurricane, radio is the only thing 
left. And I think we've got to keep it as the basic ingredient. 
I mean, satellite dishes move. If you--somebody said, ``Well, 
you could use the satellite television.'' I said, ``Well, you 
know, in a hurricane, dishes move, and, once it moves a little 
bit, you get nothing else.''
    So, I think what the whole country needs--I mean, every 
Governor should be able to warn his people. And the President 
should be able to warn his people, whether it's a county, 
because it's a wildfire or a chemical spill, or the Nation, if 
it's a terrorist attack. And, unfortunately, right now the 
country has a very inadequate system. Basically, it doesn't 
have a system. I think four Governors can activate.
    The Chairman. I don't know who to ask this of, but, you 
know, I live in earthquake country, and we have a building code 
for earthquakes, and our building code says that you can't get 
insurance unless you have compliance with it for the earthquake 
protection. Are we near the point now where we ought to start 
talking about some different types of building codes and other 
things to prevent the damage we've seen from this hurricane, or 
is that possible?
    Dr. Levitan, are you involved in that?
    Dr. Levitan. Yes, very involved. We've made significant 
improvements. The building codes which are out there right now, 
if they're adopted and enforced, would prevent quite a bit of 
the damage. The study done by Institute for Business and Home 
Safety, following last year's hurricanes in Florida, of 
thousands of homes shows that after Florida adopted, 2 years 
ago, the statewide mandatory building code, buildings built to 
that code suffered only about half as much damage as the other 
buildings, and many buildings were undamaged.
    We certainly also need to work to improve the building 
codes, as well. And one opportunity to do that--last year, the 
Congress authorized the creation of a National Windstorm Impact 
Reduction Program, but it has not been appropriated. 
Unfortunately, Public Law 108-360 was authorized for $22.5 
million to help do exactly just that, to bring the 
technologies, to improve the codes where we have, but that has 
not been appropriated, so I urge Congress to immediately 
authorize the appropriate funds for that. It will help to 
improve the codes.
    The Chairman. Thank you. I promise you we'll look into 
that. I just happen to be in that committee.
    [Laughter.]
    The Chairman. We'll look at that.
    Last, let me ask you this. We're really dealing with 
disaster prediction--and you all are involved with that--and 
prevention. Is there any means of deterring these forces? Have 
we looked into that? I mean, I remember cloud-seeding and all 
the rest of the things we went through in the 1950s and 1960s. 
Is anyone still looking at that?
    Mr. Mayfield. The Government is not looking at that, Mr. 
Chairman. We did have the Project Storm Fury going on there for 
a couple of decades, and the idea was to seed the outside of 
the eyewall with silver iodide, with the idea of expanding the 
eyewall, like the ice-skater--if you expand your arms, you'll 
slow down. But then, along came Hurricane Allen, in 1980, and 
it went from a Category-5 to Category-3, -5, -3, -5, -3--three 
different times, all on its own. And if nature can do that on 
its own, it's very, very difficult to even detect what man has 
done. So, as far as I know, there are no formal government 
programs on this. I have heard of a few in the research 
community that are thinking about it, but I'm not going to hold 
my breath.
    The Chairman. I'm not going to get into this business about 
finger-pointing, as the Senator has mentioned. But, in 1997-98 
we mandated the creation of a disaster plan for New Orleans. 
And, at that time, I was informed that level 3 would be the 
level that we should talk about, because everyone knew if it 
reached level 4 or 5, the levees in New Orleans would fail. Are 
we capable of making such a judgment in areas where storms are 
prevalent, as to what facilities will fail? Could we get a 
study of what facilities will fail and try to see if we can 
buttress them up in the event we had a similar earthquake--I 
mean, a similar hurricane again?
    Mr. Curole. Yes, definitely there's enough science--there 
is enough science out there that we can build structures that 
can do the job for us. But, just like any structure, they're 
designed for a certain level of protection. We saw the failure 
along the flood walls. It's very important that we find out 
exactly what worked and didn't work, as far as structural flood 
protection.
    But I want to remind everybody, our goal when we build 
these structural protections, it's to buy us time to get out. 
Our philosophy in building these things is that they protect 
property. We would prefer getting people out. And that is going 
to be continuing. Because you can't--no one can tell for sure 
whether a barge will get loose--a large boat will get loose and 
run into a structure and cause failure. So, our goal is to 
build to that level of protection, get our people out. And in 
all--in most instances, we come out OK. These systems do work.
    But, as you mentioned, a Category-3 exercise we had with 
Hurricane Pam, we just flooded the city with ten feet of water, 
and we expected this type of problem that took place. Having a 
Category-4 hurricane, you're bound to run into these problems. 
But St. Bernard Parish, which had a good, well-maintained 
system, was overtopped early in the ball game, and it's a 
Category-3 hurricane system. Plaquemines Parish levee system, 
well-maintained, well-designed, still was overtopped because 
the--it wasn't designed for the height of water that Hurricane 
Katrina put in that area.
    The Chairman. Well, thank you all, again. Thank you, Mr. 
Chairman, Senator Nelson.
    We've had a lot of bad news coming out of this area, the 
disaster area, but I think we wanted to have this hearing, 
because is the good news. We had a system for prediction. It 
was fulfilled.
    Mr. Mayfield--Director Mayfield, you and your people did a 
marvelous job. I think those people that did get away from that 
storm really owe your lives--their lives to you and your--the 
people you work with. We've got to find a way to deal with 
those who can't get out, that's one lesson we've learned from 
this. But, as far as the ability to predict and to give the 
message, I think we now have a sufficient time warning on these 
storms. And I think you've done just one tremendous good job. 
So, I thank you all.
    And thank you for this hearing.
    Senator DeMint. Thank you, Mr. Chairman.
    I apologize for losing my voice today. I'm going to turn to 
Ranking Member Nelson. I know he's got to get out of here in a 
few minutes.
    Senator Ben Nelson. Well, thank you, Mr. Chairman.
    And again, Mr. Mayfield, this is something short of a 
coronation for you today, but your--you and your colleagues 
certainly deserve all the credit that you're receiving today 
because of the importance of this forecasting capability, that 
you showed can, and does, work.
    What I'd like to do is, I'd like to explore a little bit 
more in detail the communications between the National 
Hurricane Center and Federal, State, and local officials, not 
so much to point fingers, but to get an understanding of the 
timeline of the alerts that were issued. I think, obviously, we 
recognize that early warning can help for early prevention for 
property loss and certainly the loss of life.
    I notice that several conference calls involving the 
Hurricane Liaison Team occurred. Can you tell me a little bit 
more about how those calls were structured, who was involved, 
what kind of information was covered in these calls? I think 
they're critical.
    Mr. Mayfield. I'll be very glad to, Senator. And I'll--and 
I appreciate the kind word for the staff, too.
    You know, I've been in meteorology for 35 years, and I've 
basically spent most of my adult career trying to prevent large 
loss of life from a hurricane like Katrina. And no one wants to 
find out more than I do if there is anything that we could have 
done to have done an even better job.
    There's a tremendous amount of coordination that goes on, 
and there's a tremendous team effort involved. And before I get 
to the Hurricane Liaison Team, the first level of coordination 
occurs right before every forecast goes out. We make that 5-day 
forecast every 6 hours. We'll update that if there's something 
that's in the forecast that occurs. And, right before that 
forecast goes out, we have a hurricane hotline call with all of 
our local National Weather Service offices. We'll explain the 
forecast, the reasoning behind that forecast. If anyone has any 
questions, they can speak up right then. So, right before the 
forecast goes out, the National Weather Service is very, very 
well coordinated.
    Then we turn around and start typing up the advisory as 
quickly as we can. As soon as that forecast goes out, the local 
forecast offices turn around and start coordinating with their 
local--the county and parish emergency managers, on the local 
level. And I know these folks in the Slidell/New Orleans 
office, and in the Mobile, Alabama, office, and I know they did 
their job there.
    In addition to that--that's on the local level, now--the 
Federal and State levels, FEMA has a conference call. In fact, 
they have invited us to be a participant in--it's a--usually a 
video-teleconference. In Katrina, it was held at noontime, 
Eastern time. And it's not only FEMA headquarters, but they'll 
have the regional FEMA offices; Region 4, in Atlanta, Georgia; 
Region 6, in Denton, Texas; and, very importantly, the State 
Emergency Operations Centers. So, for example, they would have 
Texas, Louisiana, Mississippi, Alabama, Florida, and Georgia 
State EOCs on that video-teleconference. The National Hurricane 
Center is an invited participant in that, and I would typically 
come in and give a very short 5-minute weather briefing on 
Katrina, ask for questions, and then my part fades out and the 
emergency managers do their emergency-management talk, you 
know, where Texas needed to know what Louisiana was doing, and 
Alabama needed to know what Mississippi was doing. So, that 
typically occurred.
    But the formal video-teleconferences, including the 
Hurricane Liaison Team and the National Hurricane Center, 
occurred once a day, but we're continually updating the 
forecast on a--generally, on a 6-hour cycle.
    I hope that answered some of that.
    Senator Ben Nelson. Well, I think it does. Is--for example, 
the weather advisory on Sunday, August 28, 2005, at 10 a.m., 
that Chairman DeMint read, would that be the kind of advisory 
that would be available to--and do you know if it was made 
available--to FEMA?
    Mr. Mayfield. My understanding of--that particular product 
that came out of the Slidell Weather Forecast Office was given 
to their--the folks in their area of responsibility. Primarily, 
the--you know, they have responsibility for southeastern 
Louisiana and southern Mississippi. So, everybody within their 
area--I mean, the hurricane local statement was available to 
everyone. I mean, they--anybody could see that. But it was 
really intended for the people to--in their area of 
responsibility to create that sense of urgency.
    Senator Ben Nelson. Would it be--if the information is most 
beneficial when it's localized, because the--when it's 
generalized, it probably isn't that helpful. Is that accurate?
    Mr. Mayfield. That's correct. And I--the National Hurricane 
Center, you know, we take the big picture, you know, out for 
the whole 5-day period. And I don't expect my staff to know, 
you know, every little--in fact, they probably don't even know 
all the parishes, and couldn't pronounce them if they did know 
them, in Louisiana. But that's why it's such a team effort from 
the national centers and the National Weather Service and those 
local forecast offices. Real team effort.
    Senator Ben Nelson. But there isn't any reason to believe 
that the emergency people wouldn't have been aware of this 
particular advisory. They should have been--people should have 
been aware of this advisory, if you're paying attention to 
what's happening locally.
    Mr. Mayfield. Senator, I think that the players in the 
hurricane program--you know, anytime we even have the mention 
of a Category-3 or a major hurricane on the Gulf of Mexico 
headed anywhere near southeastern Louisiana, they're aware that 
they have a--they could have a real problem there.
    Senator Ben Nelson. One final question.
    Mr. Curole. I'd just add one more comment to that.
    Senator Ben Nelson. Oh, yes.
    Mr. Curole. We were very aware how dangerous the storm was. 
We often talk, with conference calls and individually, to the 
National Weather Service in Slidell. And that was no surprise. 
And the impact of this storm does not surprise any of the 
managers. We realized the threat that was out there, and the 
risks, from that powerful storm.
    Senator Ben Nelson. The statement, ``It was 
unprecedented,'' is not the same as saying, ``It's 
unanticipated or unexpected,'' is that correct?
    Mr. Mayfield. That is correct.
    Senator Ben Nelson. One final thing. My colleague with the 
same name raised some questions about taking you off the air. 
And I've heard that these AccuWeather forecasts are very often 
provided as part of tracking briefings. Do you know whether 
Secretary Chertoff or Homeland Security or FEMA receives 
hurricane tracking briefings based on AccuWeather forecasts?
    Mr. Mayfield. Senator, I've heard that they do look at 
those, at times. The official Government forecast on hurricanes 
comes from the National Hurricane Center. All of our forecasts 
are out there for anyone to look at. We actually now have a 
verification page on our website. Anybody can go in there and 
look at the verification on every individual storm, going back 
for decades. And I'll let our verification speak for itself.
    Senator Ben Nelson. Well, the fact that your information is 
available right now to people who can access it through the 
Internet and other sources, I assume you think that's valuable 
information for people, because self-help is almost always the 
best measure of getting help.
    Mr. Mayfield. And I still remember, actually, last year, 
coming to the office and asking how many hits we were getting 
on our website. This was, I believe, during Hurricane Ivan. And 
somebody said, ``Seven thousand.'' And I said, ``That's all?'' 
And they said, ``Per second.''
    [Laughter.]
    Mr. Mayfield. I think that speaks for itself, too.
    Senator Ben Nelson. Well, thank you, Mr. Chairman. To my 
colleague to my right here, I've teed it up. It's up to you to 
hit it out of the park now. Thank you very much.
    Thanks to all of our witnesses today. We appreciate very 
much your commitment, your support, and, obviously, your 
continuing interest. With a partnership like this, I think we 
have some opportunity to improve where we are by taking it to a 
new level where we need to go.
    Thank you very much. Thank you, Mr. Chairman.
    Senator DeMint. Thank you, Senator.
    And since you've teed it up, I'll yield to the other 
Senator Nelson.
    Senator Bill Nelson. Thank you.
    And I want to continue on the coronation here. First of 
all, I just--as a testimony to you, as I was flying back to 
Washington from my departing airport, I went to a computer that 
was available, went on the National Weather Service so that I 
could see what the latest track was. It was about 2 hours old. 
And it's direct information that is just very good, because, at 
a point--at that point, I had to decide, Was I coming to 
Washington or was I flying back to South Florida? And thank you 
for that information.
    Now, speaking of that, I haven't seen the track since early 
this morning. What's the latest?
    Mr. Mayfield. Well, the--we put out a special advisory at 2 
p.m., updating it to a Category-2 hurricane, 100 mile-per-hour 
winds. The center was passing just about 50 miles south of Key 
West, and that's better than having it, you know, closer. 
Hopefully, the eyewall itself stayed a little bit south of 
there, although I don't--I'm dying to see a radar loop, myself, 
here. US-1 went under water, up in the northern part of the 
Keys, as forecast. And they--at least the last time here, the 
last advisory, you still had it as a Category-2 hurricane. 
Hopefully, it'll be in the Gulf of Mexico before it 
strengthens. But we've still got a big problem ahead of us here 
over the next 4 days as it gets into the open Gulf of Mexico. 
And it is forecast to become a major hurricane.
    Senator Bill Nelson. Unbelievably, I've heard some rumors 
that they're trying to cut funding to the National Weather 
Service. And, for example, some of those old P-3s that fly 
right into the storm are getting pretty old, and they need a 
replacement. What can you tell us about that?
    Mr. Mayfield. Well, the aircraft reconnaissance, there's no 
doubt that those folks just do a tremendous job for us. NOAA 
has two P-3s. And our one-and-only Gulfstream IV jet aircraft, 
that jet doesn't fly through the core of the hurricane 
routinely, but in the environment around the hurricane, to 
sample the steering currents. And we flew them repeatedly, 
back-to-back missions, on Katrina. They've been flying Rita. 
They are--we're going to give them a day off here, and then 
we're going to start back-to-back missions again tomorrow 
afternoon, as it heads toward Texas.
    The Air Force Reserves also have ten C-130's, and, in fact, 
I want to thank the Congress for the help on those Air Force 
planes. We're getting ten new J models. In fact, they may all 
be already at--I mean, they're becoming operational, as we 
speak, this hurricane season. So, that's a good-news story 
there. On the Air Force side, we need to get some instruments 
that have been developed from the NOAA P-3s onto those Air 
Force planes. And the hurricane supplemental bill last year 
provided money for that. And so, we're heading the right 
direction there.
    I think one--if I can say this--gap that's been identified 
is, we--I think--maybe I could say it like this--if you were to 
ask someone at the NOAA Aircraft Operations Center what's one 
of their greatest fears, I suspect they'd probably say, ``A 
bird in one of the engines on that jet.'' With one jet, we're a 
little vulnerable there. And I think when the impact studies 
are done, the Hurricane Resource Division will do these impact 
studies with and without that jet data, and I'm pretty 
confident that that jet data will be responsible for some of 
these, you know, good forecasts that we've made so far on the 
landfalling hurricanes.
    Senator Bill Nelson. In an attempt to try to downsize, and 
consolidating offices, what's that going to do to you?
    Mr. Mayfield. Senator, I'm a big, big supporter of the 
local Weather Service Forecast Offices. That's one of the 
reasons this works. And the fact that the local Weather 
Forecast Office, like in Slidell, can talk to the emergency-
management community that--in the area they're responsible for, 
that's what--that's been one of the biggest advances, I think, 
in the National Weather Service during my career. I would hate 
to see that cut.
    Senator Bill Nelson. Me, too.
    Mr. Roberts, you are a user of the information from the 
National Weather Service, and you provide a great service to 
the public as the means by which it gets out. What is your 
opinion about privatizing the National Weather Service parts of 
it in the information provided?
    Mr. Roberts. Well, I've--for the last 17 years, I've gotten 
to know Max--and his predecessors, but he has been there, too--
at the Hurricane Center. And we know most of the companies 
you've talked about who might be interested in privatizing, 
because most of their clients are either corporations or 
broadcast outlets who hire them.
    First of all, I think it would be a sad day that one 
private-sector company who competes for one of the stations in 
a market to end up being the, ``official'' government weather 
system. I mean, that would be a disadvantage, No. 1, to their 
competitors in a competitive environment.
    Second, once you move it out from under a person like Max, 
and it becomes a profit-driven situation, I'm not so sure the 
product doesn't suffer, at profit. And I'm not sure--with all 
due respect, Max, when you get ready to retire, any of the 
stations in Florida will be glad to hire him--but I'm not sure, 
sometimes, some of these systems aren't like some of the 
anchors on the weather, and the meteorologists--appearance may 
have more to do with it than substance. I think it would be a 
sad day.
    I've worked with Max. I've been at our Studio C now for 17 
years. I know our people trust the Hurricane Center. I know 
every station carries that information. And I think it's good 
having one neutral, credible, respected source of information 
when you're dealing about disasters the size of Andrew or the 
size of Katrina.
    Senator Bill Nelson. Mr. Roberts, after a disaster, we have 
seen the FCC, Federal Communications Commission, allow 
broadcasters to increase their power in order to get out the 
word of a disaster. Does this need to be handled, in your 
opinion, favorably by FCC action, or do you think Congress 
should take some action in this?
    Mr. Roberts. I actually had a chance to meet with Chairman 
Martin's staff yesterday. I think they're looking at coming up 
with a rule that clarifies to everybody, so there is no cloud, 
that when something like this--a hurricane, we, kind of, know 
is coming; we may not know how severe. Last year, in Hurricane 
Charley, everybody was paying the dotted line attention, 
thought it was going to Tampa. Max kept saying, ``It's going 
somewhere between Naples and Pasco County.'' All of a sudden, 
it turned and went into Port Charlotte, as we all know.
    I think the FCC is going to look at an advance rule--and if 
an earthquake hits, we don't have the advance notice--that if 
your area is impacted, and you're still on the air, you can 
increase power, as long as you go to emergency mode. If you're 
in an adjoining market and the stations, like over in Biloxi, 
that, for a while radio was out over there--I think two 
stations survived, and the next day we got it up to six--I 
think they're going to say, ``If you're in Mobile or Pensacola, 
and you'll go to all news and information, no ads, increase 
your power or whatever you need to do to reach those people.'' 
And I think, instead of going after-the-fact and asking for 
that, the FCC's getting ready to make that a permanent rule, 
that every broadcaster knows they have the authority and the 
ability to do that.
    Senator Bill Nelson. Mr. Roberts, we had an example of that 
in one of the four hurricanes in Florida. It was headed for an 
area of southeast Polk County, which technically was in the 
Tampa Bay market, but the stations in Tampa knew that they had 
escaped the brunt. You could increase the power in the 
stations--in this case, the Orlando stations--that were 
broadcasting into that area to give them the additional 
warnings about, ``It's headed right this way.''
    Mr. Roberts. It worked very well in Florida last year. And 
we've been working on it for a long time. And our local FCC 
offices in Florida are a true team. They're kind of like, with 
us, like the Hurricane Center is with Craig Fugate, we talk 
before storms, during them.
    And the other thing, broadcasters in Florida are considered 
first-responders. We're at the county EOCs, we're the State 
EOCs. We realize our role is to get the information out to the 
public. And, after the storm, radio becomes the lifeline. Now, 
the TV station news facilities may be giving them the 
information, but, without that continuity--and sometimes what 
bothers me--we were all sitting away--and, Senator, when your 
state got hit, we thought about you over there--people forget 
the people in the impacted area aren't seeing the network 
newscast, they're not seeing FOX News and CNN, they're 
listening to their local radio station. If they've got a 
battery-run television, that's a true lifeline, and I hope, 
when these things happen--I know our Governor remembers. That's 
who he wants to talk to first. He doesn't care about doing The 
Morning Show, in New York. He wants to make sure the person 
that got hurt knows he's coming and getting people there. I 
think sometimes we get our priorities messed up.
    Senator Bill Nelson. Final question. Mr. Mayfield, 35 years 
as a meteorologist, do you think that there's a long-term trend 
of the sea levels rising?
    Mr. Mayfield. Well, I think that's documented, that it's 
slowly rising. My problem is relating that to a hurricane and--
--
    Senator Bill Nelson. I understand. And the temperature 
rising?
    Mr. Mayfield. There's a natural variability that goes on 
there in the ocean, just like with hurricanes. In fact, the--if 
you look at a plot of the increase in temperatures in the main 
development region in the Atlantic, you'll see decades above 
normal, a few decades below normal, and we're back in a period 
with above-normal temperatures. And the hurricane activity 
follows that. I have a--my--personally, I have a problem with 
relating the increase in hurricanes to global warming, because 
there's not an increase globally in the number of tropical 
cyclones. In fact, some ocean basins, the number is--like the 
eastern North Pacific, where the National Hurricane Center also 
forecasts for, the numbers have gone way down.
    Senator Bill Nelson. So, over a period of 50 years, you're 
not concerned about the global temperature rising, causing 
frequency--greater frequency and ferocity of storms.
    Mr. Mayfield. I don't think that--the studies I'm familiar 
with really don't say that we're going to have more hurricanes. 
There is a study out there that suggests there will be a 5 
percent increase in intensity by the year 2080 if there's a 
doubling of carbon dioxide. So, there is a small--very, very 
small chance that the intensity will increase. Right now, we 
couldn't even measure this with the tools that we have now.
    Senator DeMint. Thank you, Senator.
    I want to quickly--go to Senator Vitter, but just one quick 
question for you, Mr. Mayfield. Is it true that you called, 
personally, the Governors of Louisiana and Mississippi and 
Alabama prior to this storm hitting?
    Mr. Mayfield. Yes, sir. I called. I don't do that very 
often, but I--in fact, I've only done it one other time, 
Hurricane Lilly, in the--when it was a Category-4 hurricane in 
the Gulf of Mexico. I called the former Governor of Louisiana 
in 2002. And this was Saturday night, around 8:30 or 9 o'clock, 
Eastern time, and I called the--I got hold of the Governor of 
Louisiana, the Governor of Mississippi. And Governor Blanco, in 
Louisiana, suggested that I call Mayor Nagin, in New Orleans. I 
called him, left a message, and he called me right back.
    And I have--a lot of people in the media have asked me 
exactly what I said, and I--you know, with the hundreds of 
briefings that we did, I don't remember exactly, but the whole 
purpose of that was just to be absolutely sure that they 
understood, you know, the severity of the situation there. And 
I do remember telling all three of them that, you know, I 
wanted to leave the National Hurricane Center that night and be 
able to go home and sleep knowing that I had done everything 
that I could do.
    Senator DeMint. Well, thank you.
    And I know they're calling a vote, but if we can give this 
another 5 to 7 minutes, Senator Vitter can ask his questions.
    Senator Vitter. Thank you, Mr. Chairman.
    I wanted to follow up on that question. And you touched on 
it a little bit, but if you could expand more, How unusual or 
unprecedented is that sort of call to the Governors and mayors 
of affected areas?
    Mr. Mayfield. For me, it's--I had never done that, other 
than that one telephone call in Hurricane Lilly in 2002. I 
just, you know, had the feeling that, you know, at times 
politicians, I think, can be a little isolated, and I just 
wanted to make absolutely sure that they understood how serious 
this was.
    Senator Vitter. And, in this Katrina timeline and scenario, 
the things that fall into that category of being pretty unusual 
and extraordinary were a phone call to the Governor of 
Mississippi, Governor of Louisiana, a representative of State 
government, as I understand it, in Alabama, and the mayor of 
New Orleans. Is that correct?
    Mr. Mayfield. That's correct.
    Senator Vitter. OK. And were any other communications 
extraordinary like that?
    Mr. Mayfield. No, the others were just the routine 
coordination calls, for the most part. I mean, people can call 
in at any time and we'll, you know, obviously, talk to them, 
but those were a little special there. And they all seemed to 
appreciate the call, at the time.
    And the--people ask me when we really became concerned 
about the--you know, the flooding in New Orleans. And the--you 
know, the answer to that is just: decades ago. This wasn't 
just--you know, it didn't just happen with Katrina; we've been 
concerned about that. And every previous director of the 
National Hurricane Center before me, they have all been united 
in saying that the greatest potential, you know, for the 
nightmare scenario and the large loss of life, is in that 
southeastern Louisiana area.
    Senator Vitter. In the call, specifically to the Governor 
of Louisiana and the Mayor of New Orleans, did you specifically 
talk about mandatory evacuation orders?
    Mr. Mayfield. A lot of people have asked me that, Senator, 
and I wish I remembered exactly what I said. I--with all the--
you know, we literally gave over 400 briefings and, you know, 
the weather--the situation is constantly changing, and I 
think--I just don't remember if I talked about evacuation or 
not. I--you know, my mission is to provide the best forecast 
that we can, and I simply don't remember. If I did, I would 
gladly tell you.
    Senator Vitter. And do you remember any other specifics 
that you may have touched on, like storm surge, et cetera?
    Mr. Mayfield. I don't remember, for certain. But in all the 
briefings that were given--this is a Saturday night, now, and 
it was, you know, already a Category-3 hurricane, and, you 
know, on its way to a Category-4--I hope I would have said 
something to the effect that, you know, ``This is a very, very 
serious situation with the potential for a large loss of life 
if,'' you know, ``we don't make the proper preparations.''
    Senator Vitter. In this very good timeline that accompanies 
your testimony--I didn't see it here, although it could be 
here--do you remember exactly where the President's first 
emergency declaration fits in, which was made, I believe, when 
the storm was offshore?
    Mr. Mayfield. I don't remember exactly when the 
declaration--but by--I remember hearing the media report. That 
was before the--you know, definitely well before landfall.
    Senator Vitter. And was that preceded by any sort of 
unusual or extraordinary communication, or was that simply the 
product of these normal advisories and conference calls?
    Mr. Mayfield. I think that's pretty standard for major 
hurricanes. I remember that happening in previous storms, too.
    Senator Vitter. OK. I know Dr. Blackwell, in his written 
testimony, has talked about updating the hurricane-intensity 
grading level to account for more factors besides simply wind, 
like size, storm surge, et cetera. I'd like to hear, from all 
of the scientific-based experts, their reaction to that idea.
    Mr. Mayfield. That has been kicked around for a number of 
years now. And Saffir-Simpson hurricane scale was never 
intended to be a stand-alone product. The Saffir-Simpson scale 
is based upon the maximum sustained wind. It's a 1-minute 
average wind at a standard elevation of 10 meters or 33 feet.
    We've talked about a precipitation index, and one of the--
for example, that's very difficult, because one hurricane going 
over flat area like Florida will produce so much rain, but that 
same hurricane going over the mountains in North Georgia or the 
Carolinas will produce, you know, a much different rainfall 
pattern. So, one size doesn't fit all for precipitation.
    We do put rainfall in our advisory products, and then the 
local offices fine-tune that. We also put the size of the 
hurricane in the--how far out the tropical-storm-force winds go 
and how far out the hurricane-force-winds go in our advisory. 
So, we're addressing those things, but it's very difficult to--
for me to understand how you can come up with one index that--
you know, I don't think we want to have multiple indices. That, 
to me, would be very confusing. But we would certainly welcome 
any ideas from the research community if they could come up 
with a parameter that encompasses everything.
    Senator Vitter. Dr. Levitan, do you have any reaction on 
that topic?
    Dr. Levitan. Certainly for, I think, the technical 
community, and those in the know, that would be valuable. But, 
on the ground, for the people who get this who aren't, perhaps, 
as sophisticated in how that message is understood, I think I 
agree with Max that that may be more confusing, at that level, 
to having multiple indices.
    Senator Vitter. Part of the reason I ask is, clearly, to 
the public at large, myself included, the shorthand is the 
number--one, two, three, four, five. And it tends to 
characterize, in terms of common discussion or understanding, 
everything about the storm, even though it, in fact, describes 
only one finite issue, which is wind speed.
    Mr. Mayfield. And--you're absolutely right, Senator--and we 
have really made a conscious effort--in, you know, interview 
after interview, I really tried to--in fact, with Katrina I 
tried to compare that with the only three known Category-5 
hurricanes to make landfall in the United States, but I said it 
was much, much larger than any of those three Category-5 
hurricanes. So--anyway, the point's well taken. We do need to 
do a better job on that. And we'll welcome any suggestions on 
how to do that.
    Senator Vitter. Well, I'd just underscore that point. I 
understand you've been making that effort. I just think, as 
long as you have this grading system on wind speed, that's what 
everybody's going to look to, and that's the information 
they're going to focus on. And, for instance, in this storm, 
obviously it was a 4 and, at some points a 5, so that's major, 
but it was so big, that really expanded the destructive force 
of it way beyond even a typical 4.
    Mr. Mayfield. Absolutely.
    Senator Vitter. I know we have a vote, so I'll cut it 
short, Mr. Chairman. Thank you.
    Senator DeMint. Thank you, Senator Vitter.
    And I know when I was in a Coast Guard helicopter a couple 
of weeks ago, the captain that was with me said this was 
equivalent to what would have been ten Hurricane Andrews, as 
far as the amount of water it pushed ashore, which obviously 
had my mouth hanging open. But, after seeing the destruction, I 
could believe it.
    You folks do a great job. One of the primary functions of 
the Federal Government is to protect its citizens. The best 
protection we have is a good warning system, and, after that, a 
lot of it's out of your hands.
    Thank you for being here today. This is very important 
testimony.
    And this hearing is adjourned.
    [Whereupon, at 4:55 p.m., the hearing was adjourned.]

                            A P P E N D I X

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii

    In less than a year, we have witnessed two deadly natural disasters 
that have shocked the world and highlighted the urgent need to prepare 
adequately for almost unimaginable events. First, the Indian Ocean 
tsunami brought the world's attention to the terrible toll tsunami can 
take on vulnerable coastal areas. But so much closer to home, we 
watched as a disaster of the same magnitude struck our shores along the 
Gulf Coast.
    The causes were different--a tsunami and a coastal hurricane--but 
the mechanisms of coastal death and destruction are the same. For 
Hurricane Katrina, we were at least adequately warned of its coming, 
and I commend our witness, Mr. Max Mayfield, and his colleagues at 
NOAA--including NOAA's all-hazards warning system--for doing an 
outstanding job.
    But as with the Indian Ocean tsunami, preparation and mitigation 
response plans, even if they existed, were not well implemented. We 
must do better, as I know we can. For example, early and closer 
coordination with local governments and emergency personnel resulted in 
a timely response to all four hurricanes in Florida last year.
    The Gulf hurricane, however, raised the specter that we have long 
dreaded--that an coastal catastrophe can threaten heavily populated 
urban areas as well as remote beachfront communities. This prospect, 
first brought home during 9/11, has raised the bar for government 
preparation and response at the very moment that the billions we will 
spend on Katrina recovery and the war in Iraq threaten cuts to the 
Federal domestic budget.
    I am very concerned that this budget pressure will both undermine 
our ability to improve our response capacity in all areas of the 
country, and erode the exceptional level of service provided by 
agencies such as NOAA and the Coast Guard--who I commend for their 
impressive efforts during Katrina, from prediction and warning to 
rescue and response.
    Even before Katrina struck, we learned that budget pressures were 
driving the Administration to develop a plan to reduce hours and 
personnel in local Weather Forecast Offices during the next budget 
cycle. As our witnesses know, that is exactly the wrong thing to be 
doing at this time. As we did during the Weather Service Modernization, 
I will work with my colleagues to ensure that no plan that erodes 
services to our citizens will ever be implemented.
    From the Committee's long experience with tsunami, severe storms, 
fire and other disasters, we know that effective preparation for 
catastrophic events encompasses a series of linked activities that must 
be undertaken cooperatively, far in advance of a natural disaster, and 
with a committed level of funding over the long term.
    First, we must invest in improving detection and prediction of all 
hazards, including tsunami, volcano, earthquake, and weather hazards.
    Second, we must develop a warning and mitigation program that 
involves all levels of government, and all manner of experts, such as 
we have done the Tsunami Hazard Mitigation program.
    In addition, such a program must ensure that people know what to do 
when they are warned. Federal, state, and local governments, working 
with outside partners, need to have a coordinated response, and each 
needs to help educate at-risk communities on how to respond to natural 
or man-made disasters. After all, no matter how people receive a 
warning, that warning does no good unless people know how to respond.
    The United States can do better at preparing for natural and man-
made hazards, but we cannot do so by stripping resources from the 
agencies that provide our core prediction, warning, and response 
capabilities.
    This Committee must fully exercise its oversight authority on this 
critical point, and I urge my colleagues to join me in this effort. 
Through oversight, our combined experience, and the help of our expert 
witnesses, this committee can play a central role in designing and 
funding a more effective and robust, detection, warning, and response 
system for the Nation.

                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jim DeMint to 
                              Max Mayfield

    Question 1. I understand that hurricanes often spawn tornadoes 
during landfall and sometimes for several days thereafter. Were 
tornadoes a problem during Hurricane Katrina?
    Answer. Tornadoes almost always occur with land-falling hurricanes 
and can cause major damage, injuries, and death. Tornadoes caused by 
Hurricane Katrina occurred in Florida, Georgia, Alabama, Mississippi, 
and Louisiana, as well as in Ohio and Virginia as the remains of 
Hurricane Katrina moved northeast.

    Question 2. Do you have preliminary information on the number of 
tornado warnings issued by local National Weather Service (NWS) 
forecast offices during Katrina? Is there any preliminary information 
on tornado-related casualties or property damage?
    Answer. From August 28-30, 2005, local NWS offices issued 237 
tornado warnings. The warnings were issued by thirteen weather forecast 
offices from Louisiana to Virginia and Pennsylvania. Some of the 
tornado warnings issued by the New Orleans office were for the eyewall 
of Katrina, not for specific tornadoes. Preliminary data suggest 
approximately 35 tornadoes occurred in association with Katrina, 
killing 2 people, injuring 3 and causing destruction hundreds of miles 
away from where the center of the storm made landfall. Most of the 
reports received thus far mention downed trees and power lines, and 
damage to homes.

    Question 3. I understand that the NEXRAD Radar System is the 
primary tool used by NWS forecasters in issuing tornado warnings. Would 
new technology with faster scan rates currently being researched, such 
as Phased Array Radar, help to provide better and more advanced tornado 
warnings during hurricane events?
    Answer. Yes, faster scan technologies and improved resolution would 
help National Weather Service forecasters detect the precursors to 
tornadoes. NOAA's preliminary research indicates that phased array 
radar could potentially allow forecasters to issue tornado warnings 
with an average lead time of nearly 20 minutes (up from the present 
national average of 14 minutes in 2005). Tornadoes associated with 
hurricanes tend to be embedded in rain, and are generally smaller and 
shorter lived than tornadoes associated with thunderstorms. Faster 
radar scan rates and higher resolution could increase the chances of 
observing and predicting these smaller tornadoes, and improve our 
tornado warning capability during land-falling hurricanes. However, it 
will take many years to test phased array radar and determine whether 
it is cost effective as a next-generation operational system. In the 
near term, NOAA will continue its NEXRAD Product Improvement Program, 
which has already contributed to increased warning time.

    Question 4. Can you provide information on cooperative past work 
between the National Hurricane Center and the National Severe Storm 
Labs?
    Answer. The Storm Prediction Center (SPC), one of the nine centers 
in the National Centers for Environmental Prediction, is co-located 
with the National Severe Storm Laboratory (NSSL) in Norman, Oklahoma. 
The SPC issues tornado watches and local weather service offices issue 
tornado warnings. The SPC collaborates with National Hurricane Center 
(NHC) during land-falling storms to ensure the risk of tornadoes is 
assessed and coordinated within the agency and communicated to the 
public. The NSSL and the SPC communicate on a daily basis though the 
jointly managed Hazardous Weather Testbed. In the late 1980s and early 
1990s, the NSSL worked with the National Weather Service (NWS) Tropical 
Prediction Center and Hurricane Research Division on extracting 
information on tornadoes from NEXRAD weather radar data. The results of 
this research and development are used today, primarily by local NWS 
forecast offices, to issue tornado warnings during hurricane events.

                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                              Max Mayfield

    Background: Mr. Mayfield is the director of the National Weather 
Service's Tropical Prediction Center/National Hurricane Center (NHC) in 
Miami, FL. In addition to performing basic research, the NHC is 
responsible for monitoring all tropical cyclones in the Atlantic and 
Eastern Pacific (east of 140+ W latitude), predicting their path, and 
warning the public. The Central Pacific Hurricane Center in Hawaii has 
a similar responsibility for the Western Pacific except that the NHC 
has the authority to direct all aerial reconnaissance assets, known as 
the Hurricane Hunters. In his written testimony, Mr. Mayfield commented 
that we appear to be entering into a period of heightened hurricane 
activity in the Atlantic.
    CLARIFICATION: The National Hurricane Center provides forecast and 
warnings for hurricanes and tropical systems. Basic hurricane research 
is done at the Hurricane Research Division of the Atlantic 
Oceanographic and Meteorological Laboratory and the Geophysical Fluid 
Dynamics Laboratory in NOAA's Office of Oceanic and Atmospheric 
Research. The Central Pacific Hurricane Center has responsibility for 
the central Pacific from 140 degrees longitude westward to 180 degrees 
longitude (the International Dateline). The U.S. Joint Typhoon Warning 
Center (located in the Department of Defense) has responsibility for 
U.S. interests for the western part of the Pacific, that is, west of 
the Dateline.

    Question 1. You issued, from all accounts, accurate warnings. You 
also warned local officials. What sort of reaction did you get from 
FEMA and local officials upon issuing your warnings?
    Answer. Our forecasts and warnings were well coordinated with the 
emergency management community, including the Federal Emergency 
Management Agency (FEMA). We only have the expertise to comment on the 
actions taken by NOAA.

    Question 2. You have been through many hurricanes. In your 
experience, what are the typical Federal reactions pre- and post-
hurricanes?
    Answer. The responsibility of the National Hurricane Center is to 
provide the best possible meteorological information and forecasts for 
hurricanes. The National Weather Service (NWS) forecast track error for 
Hurricane Katrina was better than the 10 year average. After the storm 
made landfall, the NWS provided high quality forecast and warning 
services to the affected areas. We only have the expertise to comment 
on the actions taken by NOAA.

    Question 3. In your prepared remarks, you commented on the 
increasing number of hurricanes occurring in the Atlantic. Is there 
also a similarly heightened cyclone activity in the Pacific?
    Answer. No, the activity in the Northeast and North Central Pacific 
has decreased in recent years. There appears to be an inverse 
relationship, with respect to hurricane activity, observed in the 
Pacific and Atlantic basins. The long-term average number of hurricanes 
in the Atlantic is approximately 6 per year, and about 9 per year in 
the Northeast and North Central Pacific. While the Atlantic has been 
more active during the last decade, experiencing about 8 hurricanes per 
season (compared to the average, 6), the Northeast and North Central 
Pacific has averaged only 7 hurricanes a season (compared to 9). In 
contrast, during the mid-1980s to the mid-1990s the Atlantic was 
relatively quiet (5 hurricanes per season), and the Pacific averaged 11 
hurricanes per season. The 1997 and 2002 hurricane seasons were 
particularly active in the Pacific basin, and correspond to the 
quietest seasons in the Atlantic during the last decade; this is a 
result of the influence of the El Nino phenomenon. El Nino, a warming 
of the equatorial eastern Pacific waters, causes changes in global 
weather patterns. El Nino tends to cause quiet Atlantic and busy 
Northeast and North Central Pacific hurricane seasons. The 2005 
hurricane season continues the inverse trend in hurricane activity in 
the Atlantic and Pacific basins; there have been 12 hurricanes in the 
Atlantic, compared to 7 hurricanes in the Northeast and North Central 
Pacific.

    Question 4. How does coverage of the Pacific compare with the 
Atlantic in terms of NOAA resources? How many Hurricane Hunters are 
based in the Western Pacific? Is the staff of the Central Pacific 
Hurricane Center comparable to the staff of the NHC?
    Answer. Forecast and warning services for the central Pacific 
region are high quality. Although the last direct hurricane to strike 
the Hawaiian Islands occurred in 1992, when Hurricane Iniki struck 
Kauai, other hurricanes approached Hawaii in 2005, 2003, 2000, 1998, 
1997, 1994, and 1993.
    NOAA Aircraft are stationed at the NOAA Aircraft Operations Center, 
MacDill AFB in Tampa, FL; the U.S. Air Force Reserve Hurricane Hunters 
are stationed at Keesler Air Force Base, in Mississippi. If forecasters 
at the Central Pacific Hurricane Center believe a hurricane will impact 
Hawaii, they may request reconnaissance aircraft. The aircraft then fly 
to Hawaii to provide detailed in-situ observations to improve the 
forecast of the track and intensity, both by providing data for the 
forecasters and also providing data for better initialization of the 
numerical guidance models.
    The Central Pacific Hurricane Center (CPHC) functions both as a 
local Weather Forecast Office and as a national center for aviation, 
marine, and hurricane programs in the Pacific. As a result of this 
combined mission, the CPHC has no dedicated hurricane forecasters. When 
a tropical cyclone enters or forms in the central Pacific (140+ W to 
180+ ), additional forecasters (certified as hurricane specialists) are 
called in to provide the extra staffing required to meet the hurricane 
forecast products and services needs. The number of additional staff 
called in increases as the possible threat of the hurricane impacting 
Hawaii increases.

    Question 5. What types of resources are needed to better track 
cyclones in the Pacific--buoys, aircraft, etc.?
    Answer. Additional observations and directional wave information 
would contribute to further improving hurricane intensity and track 
forecasts in the Pacific. Hurricane track forecasts in the Pacific 
continue to improve. In 1984, in the Central Pacific Ocean the 48-hour 
track forecast had an average error of about 250 nautical miles. By 
2004, the 48-hour track forecast error was reduced to about 150 
nautical miles. The Global Earth Observation System of Systems (GEOSS), 
a 10-year international endeavor of which the United States is a member 
and NOAA, the National Aeronautics and Space Administration, and U.S. 
Geological Survey are key participants will address observational 
enhancements to improve hurricane forecasting. GEOSS includes a number 
of different data collection systems such as buoys, satellites, and 
surface base weather instruments.
    NOAA also works to continually improve its numerical weather 
forecasting models to improve track and intensity forecasts in the 
Pacific. To improve the model guidance, in collaboration with many 
scientists and developers in the domestic and international operational 
Numerical Weather Prediction (NWP) centers, NOAA's Environmental 
Modeling Center (EMC) develops state of the art numerical modeling 
systems. Through continued collaboration between NOAA's Geophysical 
Fluid Dynamics Laboratory (GFDL) and EMC, NOAA's high-resolution 
hurricane models, which have provided track and intensity guidance over 
the past 10 years, are being continually improved and upgraded. 
Predicting hurricane intensity remains one of our main challenges. For 
example, even though the forecasters may know conditions are favorable 
for hurricanes to intensify, there are sometimes large errors in the 
intensity forecast in the Pacific and Atlantic due to rapid 
intensification. Through NWP advancements, the 2005 research version of 
NOAA's high-resolution model, when run on data from several 2004 
hurricanes, improved some intensity forecasts when compared to the 
forecasts provided by the 2004 version. To further advance hurricane 
prediction, especially hurricane intensity and size forecasts, NOAA is 
developing the Hurricane Weather and Research Forecasting (HWRF) 
system. The HWRF system uses a collaborative approach among the 
research community and will apply advanced model physics as HWRF 
combines the atmosphere, land, and ocean into an integrated model. Our 
goal is to couple an advanced wave model with a dynamic storm surge 
model to better predict coastal impacts of waves and storm surge as 
well as predict hurricane intensity and size.
    Included in the President's $17.1B reallocation package for 
Hurricane Katrina relief and recovery, submitted to Congress on October 
28, 2005, is $54.6M in funding for NOAA, containing several 
enhancements to hurricane forecasting and modeling activities. Among 
the NOAA requests are investments to complete an accelerated 
implementation of the HWRF System, add enhancements to the Global 
Forecast System to improve forecasting of hurricane intensity and 
structure, and add a third P-3 Hurricane Hunter aircraft.

    Background: All of the witnesses would agree that better 
coordination among federal, state and local partners would result in 
more lives saved through storm preparation, planning, and response. 
While the NHC has established federal, state, and local Hurricane 
Liaison Teams that activate before each hurricane, and Florida has 
developed its own mitigation program, there is no specific 
comprehensive national program aimed particularly at storm hazard 
mitigation at the federal, state and local level. However, this 
committee has created them in other legislation we have passed. Such a 
model would be appropriate to look at given the failure of response in 
Katrina.
    Though this Disaster Subcommittee is a new creation, we have long 
been active here at the Commerce Committee in addressing weather 
issues. Most recently we included a new Coastal Vulnerability 
Assessment Program in the Tsunami Preparedness Act, which the Senate 
passed. We have also enacted the Inland Flood Warning Act of 2002 and 
the National Windstorm Impact Reduction Act of 2004.

    Question 6. Given that Katrina has highlighted the need for better 
storm preparedness at all levels of government, wouldn't the multi-
agency and federal-local structure of many of these programs make sense 
to emulate?
    Answer. We believe the existing structure for the hurricane program 
can work well, by focusing on increased efforts in public education, 
preparedness and prediction. Hurricane Katrina was an extreme event. 
While we know Katrina will not be the last catastrophic storm to make 
landfall in the United States, we believe the existing structure can 
work well, as exemplified by the response to the four major hurricanes 
that hit Florida in 2004. Because there is always room for improvement, 
we should continue to take in lessons learned from Katrina and work to 
make the system more efficient.

    Question 7. Please explain the benefits of adopting this model of 
integrating research, technology, hazard mitigation, and community 
preparedness in one program to help organize preparedness for severe 
coastal storms.
    Answer. NOAA works with Federal and university partners to 
coordinate research efforts; with federal, state and local emergency 
managers for preparedness and education efforts to understand the 
potential impact from these storms; and with the public at large to 
provide forecasts and warnings in a timely fashion to allow people to 
take action. NOAA and other Federal agencies are part of the National 
Hazards Mitigation Plan, where all aspects of natural hazards are 
addressed. The National Hurricane Operations Plan, compiled each year 
by the Office of the Federal Coordinator for Meteorological Services 
and Research, address hurricane program activities across the Federal 
Government.
    NOAA has increased our efforts to integrate research and 
technology, as demonstrated by the Joint Hurricane Testbed (JHT) under 
the United States Weather Research Program (USWRP), which was formed in 
late 2000. The mission of the JHT is to facilitate the transfer of new 
technology, research results, and observational advances of the USWRP, 
its sponsoring agencies, the academic community, and the private sector 
for improved operational tropical cyclone analysis and prediction.

    Question 8. Shouldn't we establish a Severe Storm Hazard Mitigation 
Program, similar to the one we established for Tsunami, to ensure all 
the right federal, state, and local entities are working together 
toward the same goal before the hurricane appears on the horizon?
    Answer. Federal, state, and local governments have been aware of 
the threats associated with hurricanes for decades. These threats have 
been receiving increased attention, even before last year's record 
breaking number of U.S. land-falling storms and this year's 
catastrophic impacts. We believe all appropriate federal, state and 
local entities are currently working together toward the same goal. For 
example, the work of the Office of the Federal Coordinator for 
Meteorological Services and Research addresses hurricane program 
activities across the Federal Government, and the ever-increasing 
number of participants attending the annual, privately-run National 
Hurricane Conference attests to the heightened awareness and increased 
emphasis being placed on the potential impact from hurricanes.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
